No. ____

IN THE

Supreme Court of the United States
————
CATIC USA INCORPORATED, also known as
AVIC INTERNATIONAL USA, INCORPORATED,
Petitioner,
v.
SOARING WIND ENERGY, L.L.C., et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————

LEANNA ANDERSON
Application Pending
DENTONS US LLP
2000 McKinney Avenue
Suite 1900
Dallas, Texas 75201
(214) 259-0900
leanna.anderson@dentons.com

SHANNON Y. SHIN
Counsel of Record
DENTONS US LLP
233 South Wacker Drive
Suite 5900
Chicago, Illinois 60606-6361
(312) 876-3453
shannon.shin@dentons.com

Counsel for Petitioner
AVIC International USA, Incorporated
July 6, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
1. The Convention on the Recognition and Enforcement of Foreign Arbitral Awards, commonly referred
to as the “New York Convention,” is an international
treaty that creates consistent standards for the treatment of arbitration agreements and the enforcement
of arbitral awards in signatory countries. This Court
has explained that the adoption and implementation
of the New York Convention in the United States was
principally done for the purpose of “encourag[ing] the
recognition and enforcement of commercial arbitration
agreements in international contracts” and to create a
global framework for dealing with arbitration and
arbitral awards.1
Does a federal court, therefore, have jurisdiction
under the New York Convention to confirm an arbitral
award where the underlying agreement of a United
States limited liability company is exclusively between
United States citizens and the enterprise was focused
singularly on United States activities?
2. Where the determination of whether a party is
subject to an arbitration is normally for courts—and
not arbitration panels— is it appropriate for courts to
confirm an arbitration award where the arbitration
panel based its entire award on adverse inferences
drawn from the lack of participation of parties that
were not signatories to the arbitration agreement and
were not ever found to be properly subject to the
arbitration proceedings by any court?
3. The necessity of an impartial decision maker and
equity in the selection of an arbitration panel are

1

Scherk v. Alberto-Culver Co., 417 U.S. 506, 520 n.15 (1974)
(emphasis added).

(i)

ii
principles globally recognized as essential to having
fundamental fairness in arbitration proceedings.
Therefore, should a court confirm an arbitration
award where an arbitration panel is selected with one
side of the dispute electing a supermajority of the
panel through an absurd interpretation of the parties’
agreement?

iii
LIST OF PARTIES
Petitioner AVIC International USA, Inc. was a
Defendant-Appellant in the matters below.
Respondents AVIC International Holding Corporation,
AVIC International Renewable Energy Corporation,
Aviation Industry Corporation of China, and China
Aviation Industry General Aircraft Company Limited
were also Defendant-Appellants in the matters below.
Respondents Soaring Wind Energy, L.L.C., Tang
Energy Group, Limited, The Nolan Group Incorporated, Mitchell W. Carter, Jan Family Interests,
Limited, and Mary M. Young, Individually and as the
Independent Executrix of the Estate of Keith P.
Young, Jr., Deceased, were all Plaintiffs-Appellees in
the matters below.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules,
petitioner AVIC International USA, Inc. states that
AVIC International Holding Company is its parent
company, and no publicly held company owns 10% or
more of AVIC International USA, Inc.’s stock.

iv
RELATED PROCEEDINGS
United States District Court (N.D. Tex.):
Soaring Wind Energy, LLC v. CATIC USA, Inc.,
No. 3:15-CV-4033-K (Aug. 9, 2018).
United States Court of Appeals (5th Cir.):
Soaring Wind Energy, L.L.C. v. Catic USA Inc.,
No. 18-11192 (Jan. 7, 2020).

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

LIST OF PARTIES ..............................................

iii

CORPORATE DISCLOSURE STATEMENT .....

iii

RELATED PROCEEDINGS ...............................

iv

TABLE OF AUTHORITIES ................................

ix

OPINIONS BELOW ............................................

2

JURISDICTION ..................................................

2

STATUTORY PROVISIONS INVOLVED ..........

2

INTRODUCTION ................................................

3

STATEMENT ......................................................

4

1. Factual History ...........................................

4

2. The Deterioration of the Parties’ Relationship ..............................................................

6

3. The Arbitration ...........................................

8

a) The Arbitration Award .........................

10

4. Award Confirmation Proceedings ..............

11

a) Proceedings Before the District Court .

11

b) Proceedings Before the Fifth Circuit ....

11

REASONS FOR GRANTING THE WRIT ..........

13

I. The Fifth Circuit Erred in Concluding
Jurisdiction Exists Under the New York
Convention Based Upon A Peripheral
Reference to Foreign Affiliates in the
Parties’ Broader Agreement .....................

14

(v)

vi
TABLE OF CONTENTS—Continued
Page
II. The Fifth Circuit Erred by Affirming
Confirmation of the Award Without First
Independently Determining that the
Non-Signatories Were AVIC USA’s AlterEgos and Subject to the Arbitration. .......

21

A. The Lack of a Court Decision Resolving Whether the Non-Signatories
Were Properly Subject to the Arbitration Agreement Remains Problematic
Because the Panel Could Only Draw
an Adverse Inference Against a Party
to the Agreement .................................

23

B. The Adverse Inference Was Essential
to the Arbitration Award.....................

25

III. The Award Must be Vacated Because the
Panel Was Improperly Appointed According to an Absurd Interpretation that
Ignores Internationally Accepted Principles of Fairness and Impartiality .............

27

A. Arbitration Panels Should Be Appointed Consistent with Internationally
Accepted Principles of Impartiality
and Fairness. .......................................

27

B. The Appointment of Arbitrators Was
Contrary to the Agreement .................

30

CONCLUSION ....................................................

35

vii
TABLE OF CONTENTS—Continued
APPENDIX

Page

APPENDIX A: JUDGMENT, Fifth Circuit
Court of Appeals (January 7, 2020) ................

1a

APPENDIX B: OPINION, Fifth Circuit Court
of Appeals (January 7, 2020) ...........................

3a

APPENDIX C: AMENDED FINAL JUDGMENT, Northern District of Texas District
Court (September 17, 2018) .............................

27a

APPENDIX D: ORDER CONFIRMING ARBITRATION AWARD, Northern District of
Texas District Court (August 9, 2018) ............

30a

APPENDIX E: ORDER SEVERING, Northern District of Texas District Court (August 9,
2018) .................................................................

63a

APPENDIX F: JUDGMENT, Northern District of Texas District Court (February 5,
2015) .................................................................

66a

APPENDIX G: MEMORANDUM OPINION
AND ORDER, Northern District of Texas
District Court (February 5, 2015) ...................

67a

APPENDIX H: JUDGMENT, Fifth Circuit
Court of Appeals (August 25, 2015) ................

77a

APPENDIX I: OPINION, Fifth Circuit Court
of Appeals (August 25, 2015) ...........................

79a

APPENDIX J: MEMORANDUM OPINION
AND ORDER, Northern District of Texas
District Court (August 4, 2015) .......................

82a

viii
TABLE OF CONTENTS—Continued
Page
APPENDIX K: ON
PETITION
FOR
REHEARING EN BANC, Fifth Circuit Court
of Appeals (February 4, 2020) .........................

89a

APPENDIX L: FINAL AWARD, International Center for Dispute Resolution, International Arbitration Tribunal (December 21,
2015) .................................................................

91a

ix
TABLE OF AUTHORITIES
CASES

Page(s)

Access Info. Mgmt. of Haw., LLC v.
Shred–It Am.,
No. 10-00622, 2010 WL 4642045 (D.
Haw. Nov. 2, 2010) ....................................

17

Adam Tech. Int’l, S.A. de C.V. v.
Sutherland Global Services, Inc.,
729 F.3d 443 (5th Cir. 2013) .....................

31

Armstrong v. NCL (Bahamas) Ltd.,
998 F. Supp. 2d 1335 (S.D. Fla. 2013) .....

18

Ascendant Renewable Energy Corp. v.
Tang Energy Grp., Ltd.,
No. 3:14-CV-3314-K, 2015 U.S. Dist.
LEXIS 103518 (N.D. Tex. Aug. 4, 2015)... 8, 9, 10
AT&T Techs., Inc. v.
Commc’ns Workers of Am.,
475 U.S. 643 (1986) ................................... 22, 28
AVIC International USA, Inc. v.
Tang Energy Grp., Ltd.,
614 F. App’x 218 (5th Cir. 2015) ..............

9

AVIC International USA, Inc. v. Tang
Energy Grp., Ltd.,
No. 3:14-CV-2815-K, 2015 U.S. Dist.
LEXIS 477316 (N.D. Tex. February 5,
2015) ..........................................................

9

Avis Rent A Car System, Inc. v. Garage
Employees Union, Local 272,
791 F.2d 22 (2d Cir. 1986) ........................

28

Axis Reinsurance Co. v. HLTH Corp.,
993 A.2d 1057 (Del. 2010).........................

30

x
TABLE OF AUTHORITIES—Continued
Page(s)
Bautista v. Star Cruises,
396 F.3d 1289 (1st Cir. 2005) ...................

17

Bear Stearns & Co., Inc. v. N.H. Karol &
Associates, Ltd.,
728 F. Supp. 499 (N.D. Ill. 1989) ..............

28

BG Grp., PLC v. Republic of Argentina,
572 U.S. 25 (2014) .....................................

22

Bridas S.A.P.I.C. v. Gov’t of Turkmenistan,
345 F.3d 347 (5th Cir. 2003) .....................

16

Brittania-U Nigeria, Ltd v. Chevron USA, Inc.,
866 F.3d 709 (5th Cir. 2017) .....................

19

Brook v. Peak Int’l, Ltd.,
294 F.3d 668 (5th Cir. 2002) ..................... 28, 30
Cargill Rice, Inc. v. Empresa Nicaraguense
Dealimentos Basicos,
25 F.3d 223 (4th Cir. 1994) .......................

28

Certain Underwriters at Lloyd’s London v.
Argonaut Ins. Co.,
500 F.3d 571 (7th Cir. 2007) .....................

18

Commonwealth Coatings Corp. v.
Cont’l Cas. Co.,
393 U.S. 145 (1968) ................................... 28, 29
Ensco Offshore Co. v. Titan Marine LLC,
370 F. Supp. 2d 594 (S.D. Tex. 2005) ....... 17, 19
First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938 (1995) ...................................

22

Freudenspring v. Offshore Tech. Servs., Inc.,
379 F.3d 327 (5th Cir. 2004) ............... 16, 17, 19

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Hooters of Am., Inc. v. Phillips,
173 F.3d 933 (4th Cir. 1999) ....................... 29, 34
Howsam v. Dean Witter Reynolds, Inc., 5
37 U.S. 79 (2002) .......................................

28

Hugs & Kisses, Inc. v. Aguirre,
220 F.3d 890 (8th Cir. 2000) .....................

27

Johnson v. NCL (Bahamas) Ltd.,
163 F. Supp. 3d 338 (E.D. La. 2016) ........

19

Jones v. Sea Tow Services Freeport NY
Inc., 30 F.3d 360 (2d Cir. 1994) ................

18

Lander Co. v. MMP Investments, Inc.,
107 F.3d 476 (7th Cir. 1997) .....................

18

Matabang v. Carnival Corp.,
630 F. Supp. 2d 1361 (S.D. Fla. 2009) ..... 17, 19
Murray v. United Food & Commercial
Workers Int’l Union, Local 400,
289 F.3d 297 (4th Cir. 2002) .....................

29

Nomanbhoy v. Vahanvaty,
No. 11-C-2456, 2011 WL 6736052 (N.D.
Ill. Dec. 21, 2011) ......................................

17

Osborn ex rel. Osborn v. Kemp,
991 A.2d 1153 (Del. 2010).........................

29

PoolRe Ins. Corp. v. Org. Strategies, Inc.,
783 F.3d 256 (5th Cir. 2015) ............... 27, 28, 30
R.J. O’Brien & Assocs., Inc. v. Pipkin,
64 F.3d 257 (7th Cir. 1995) ....................... 27-28

xii
TABLE OF AUTHORITIES—Continued
Page(s)
S & T Oil Equip. & Mach., Ltd. v. Juridica
Investments Ltd.,
456 Fed. Appx. 481 (5th Cir. 2012) .......... 18, 19
Scherk v. Alberto-Culver Co.,
417 U.S. 506 (1974) ...................................

17

Soaring Wind Energy, LLC v. Catic USA Inc.,
333 F. Supp.3d 642 (2018) ...................... 2, 8, 11
Soaring Wind Energy, LLC v. Catic USA Inc.,
946 F.3d 742 (2020) .................................passim
Szuts v. Dean Witter Reynolds, Inc.,
931 F.2d 830 (11th Cir. 1991) ...................

28

Tang Energy Grp., Ltd. v. Catic USA, Inc.,
ICDR No. 01-14-0001-4150 (December
21, 2015) ...................................................passim
United Indus. Workers, Serv., Transp.,
Prof’l & Gov’t of N. Am., Atl.,
Gulf Lakes & Inland Waters Dist.,
AFL-CIO v. Kroger Co.,
900 F.2d 944 (6th Cir. 1990) .....................

28

STATUTES
9 U.S.C. § 5 ................................................... 28, 30
28 U.S.C. § 1254 ...........................................

2

Convention on the Recognition and
Enforcement of Foreign Arbitral
Awards, 9 U.S.C. § 202 ............................passim

xiii
TABLE OF AUTHORITIES—Continued
RULES

Page(s)

AAA R-22 ......................................................

24

AAA R-23 ...................................................... 24, 25
OTHER AUTHORITIES
Charles Nairac, Due Process Considerations in the Constitution of Arbitral
Tribunals, in INTERNATIONAL ARBITRATION AND THE RULE OF LAW (Andrea
Menaker ed., 2017) ...................................

29

IN THE

Supreme Court of the United States
————
No. ____
————
CATIC USA INCORPORATED, ALSO KNOWN AS
AVIC INTERNATIONAL USA, INCORPORATED,
v.

Petitioner,

SOARING WIND ENERGY, L.L.C., et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
CATIC USA Incorporated, also known as AVIC
International USA, Incorporated (“AVIC USA”) respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Fifth Circuit in this case.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Fifth Circuit is reported at 946 F.3d 742. Pet.
App. 3a. The opinion of the United States District
Court for the Northern District of Texas is reported at
333 F. Supp.3d 642. Pet. App. 30a.

2
JURISDICTION
The judgment of the United States Court of Appeals
for the Fifth Circuit was entered on January 7, 2020.
A petition for rehearing was denied on February 4,
2020. Pet. App. 90a. This Court extended the deadline
to file a petition for a writ of certiorari to 150 days on
March, 19, 2020, extending the deadline for the filing
of this petition to July, 6, 2020. This Court has
jurisdiction under 28 U.S.C. § 1254.
STATUTORY PROVISIONS INVOLVED
Section 202 of the Convention on the Recognition
and Enforcement of Foreign Arbitral Awards (“New
York Convention”), 9 U.S.C. § 202, provides:
An arbitration agreement or arbitral award
arising out of a legal relationship, whether
contractual or not, which is considered as
commercial, including a transaction, contract,
or agreement described in section 2 of this
title, falls under the Convention. An agreement
or award arising out of such a relationship
which is entirely between citizens of the United
States shall be deemed not to fall under the
Convention unless that relationship involves
property located abroad, envisages performance
or enforcement abroad, or has some other
reasonable relation with one or more foreign
states. For the purpose of this section a
corporation is a citizen of the United States if
it is incorporated or has its principal place of
business in the United States.

3
INTRODUCTION
AVIC International USA, Inc. (“AVIC USA”), a
California resident and member of Delaware-formed
limited liability company Soaring Wind Energy, LLC
(“Soaring Wind”), had a dispute with one of its fellow
LLC members, Tang Energy Group, Limited (“Tang,”
acting on behalf of itself and with the other respondent
members “Tang Claimants”), involving their United
States based enterprise comprised entirely of members
with United States citizenship. Tang filed an arbitration demand and orchestrated the appointment of a
panel in contravention of the intent of the parties’
agreement and fundamental fairness such that the
Tang Claimants appointed a supermajority of arbitrators (the “Panel”). This supermajority of arbitrators
found that: (1) foreign non-signatories to the agreement
could be subject to arbitration; (2) once the non-signatories
failed to participate [because they were non-signatories],
their lack of participation could be used to create
adverse evidentiary presumptions against AVIC USA;
and (3) the adverse evidentiary presumptions could
overcome a complete dearth of evidence against AVIC
USA and allow the Panel to conclude that purported
business operations of one of these non-participating,
non-signatory AVIC USA “affiliates” could be the
entire basis for a multi-million dollar award against
AVIC USA without corroborating evidence.
Then, in the proceedings to confirm the arbitral
award, the lower courts here concluded that (1) jurisdiction was appropriate under the New York Convention
because the parties’ agreement includes a tangential
reference to unnamed non-signatory “affiliates” of the
parties which allowed the court to use those affiliates’
citizenship to conclude there was jurisdiction (ignoring
key jurisprudence on this issue), but (2) the court could

4
affirm the award against AVIC USA without considering whether the non-signatories should have
been considered parties to the arbitration [even
though that determination was expressly reserved for
the courts and is the linchpin of the entire arbitral
award] and that (3) giving significant deference to the
Panel, there were no issues in its formation despite
that Tang’s orchestrated appointment of a supermajority
of the Panel contravenes the intent of the parties agreement and widely recognized principles of fairness that
are critical to maintaining confidence in arbitration
proceedings. AVIC USA asks this Court to grant a
writ to resolve key issues of jurisdiction under the New
York Convention and arbitration due process.
STATEMENT
1. Factual History
Aviation Industry Corporation of China (“AVIC”) is
the umbrella entity that, inter alia, operates China’s
state-run aviation industry. ROA.30982, 5210-11.
AVIC, in turn, owns or indirectly has interests in
many entities, of which AVIC USA was just one.
ROA.5210, 30982. The far simplified chart of entities
below shows AVIC’s basic organizational structure as
pertinent to this matter:

5

ROA.3941.
Around 2007, AVIC USA’s president, Xuming
“Sherman” Zhang (“Zhang”), started to consider
expansion of AVIC USA beyond property investments
into wind energy opportunities in the United States
because of strong demand in the U.S. and supply
capabilities in China. ROA.5202-04, 5214.
Zhang met Patrick Jenevein (“Jenevein”), a partner
in HT Blade, a wind turbine and blade manufacturer,
and the principal of Tang. ROA.5205-06. In late 2007,
Zhang pitched Jenevein on a sourcing strategy to bring
equipment into the U.S. market. ROA.5206-07.
Later in 2008, AVIC USA, Paul Thompson
(“Thompson”)1 and Respondents Tang; Jan Family
Interests, Limited (“Jan”); The Nolan Group, Incorporated
(“Nolan”); Mitchell W. Carter (“Carter”); and Keith P.
1

Paul Thompson was a Class “B” member of Soaring Wind
with no accrued ownership interest and is not a party to this
action. ROA.361.

6
Young (“Young”) entered into the Limited Liability
Company Agreement of Soaring Wind Energy, LLC
(the “Agreement”) and formed Soaring Wind Energy,
LLC, a Delaware limited liability company. ROA.299,
359. AVIC USA had a 50% interest in Soaring Wind
and the Tang Claimants collectively hold the other
50%. ROA.360-61.
2

The Agreement included certain exclusivity provisions which form the primary basis of the underlying
dispute. Article 6.10 outlines a requirement that Soaring
Wind’s members “only conduct activities constituting
the Business in and through the Company and its
Controlled subsidiaries.” ROA.332. Article 6.12 further
explains: “each of the Class A Members hereby covenant and agree that neither they nor their Affiliates
or Representatives will participate in wind farm land
development projects (each a “Project”) except through
an entity owned by both the Company and [AVIC
USA]. . . .” ROA.333. Under the Agreement, “Affiliate”
“means with respect to any Person, any other Person
that directly or indirectly Controls, is Controlled by, or
is under the common Control with that first Person.”
ROA.304.
The Agreement also contains detailed provisions
to resolve any disputes among members for “any
controversy, dispute or claim arising under or related
to [the] Agreement.” ROA.348.
2. The Deterioration of the Parties’ Relationship
The Soaring Wind members held divergent perspectives on its operation. Jenevein, Tang’s principal,

2

Keith P. Young is deceased and Mary M. Young (also “Young”)
was substituted in place of Young.

7
thought Soaring Wind was meant to operate with
Tang bringing wind farm development projects to
AVIC USA to be funded. ROA.4259-60, 4291-92, 4333.
AVIC USA’s perspective saw Soaring Wind focused on
marketing projects, not large scale investments in
wind farms. ROA.5243.
AVIC International Renewable Energy (“AVIC
IRE”)—not a member of Soaring Wind but another
AVIC entity—created a subsidiary called Ascendant
Renewable Energy Corporation (“Ascendant”) to develop
wind projects and tasked Thompson to lead the new
entity. ROA.4324-25, 3941. AVIC USA did not have
any involvement with the formation of Ascendant.
ROA.5232. Jenevein was not concerned with Thompson’s
transition to Ascendant and did not view the transition as a breach of the Agreement. ROA.4325, 4328.
Even though Jenevein knew that Thompson was
in talks to develop wind projects through Ascendant,
Jenevein assumed the projects would return to
Soaring Wind. ROA.4325, 4328.
Nothing required AVIC USA to fund any projects,
and through 2013, not one project had been funded.
ROA.4339. Jenevein was dissatisfied and pushed for
additional support. ROA.4295-96, 4332-33. In response
to such a request, Jenevein received an email (translated from Chinese to English) from AVIC IRE Vice
President Xu Hang that suggested AVIC IRE “ha[d]
already provided a total of [$]50 million in financing to
[sic.] wind power projects in the US and will keeping
[sic.] trying in the future.” ROA.1147.
Tang [Jenevein], acting on behalf of all the Tang
Claimants, started the underlying arbitration based
on the purported activities of AVIC IRE, which Tang
claimed was an alter-ego of AVIC USA, contending
it competed with Soaring Wind in violation of the

8
exclusivity provisions in the Agreement. ROA.438788. There was no allegation that AVIC USA itself
violated the Agreement’s exclusivity provisions. Pet.
App. 47a, ROA. 29635-45.
3. The Arbitration
On June 13, 2014, Tang filed a notice and demanded
arbitration, insisting it also acted on behalf of Soaring
Wind and its other members (the “Tang Claimants”).
The Demand was initiated not only against AVIC USA
and Thompson, but also various other AVIC entities
including AVIC, AVIC IRE, Ascendant, Aviation
Industry General Aircraft, Co., Ltd. (“CAIGA”), AVIC
International Holding Corporation (“AVIC Holding”),
and CATIC T.E.D. (“Catic TED”) (these AVIC entities,
having not been parties to the Agreement are collectively referred to as the “Non-Signatories”). ROA.29633.
In their Demand notice, the Tang Claimants, acting
through Tang, named one arbitrator. ROA.29633-35.
Shortly thereafter, and without providing notice
as required in the Agreement, Nolan, Young, Carter,
and Jan also named arbitrators. ROA.1910. AVIC
USA and Thompson each chose one arbitrator and the
Panel, already controlled by a supermajority chosen by
the Tang Claimants, chose two additional arbitrators.
Before the arbitration hearing, AVIC USA and
Thompson filed an action in the district court challenging the formation of the Panel, Pet. App. 67a, while
Ascendant filed a separate action challenging its inclusion in the arbitration. Pet. App. 82a.
AVIC USA and Thompson argued that the stacked
Panel as selected was “inherently unfair and not neutral”
because the Agreement provided that each side to a
dispute [(1) Tang, who had filed on behalf of itself,
Soaring Wind, and the other members, and (2) AVIC

9
USA] would pick an arbitrator, and then the chosen
arbitrators would select a neutral arbitrator as chair.
Pet. App. 70a.
The District Court dismissed the case, finding that
AVIC USA and Thompson’s challenge did not satisfy
the narrow requirements for judicial review of arbitration proceedings before award issuance. Pet. App. 75a.
On appeal, the Fifth Circuit affirmed the District Court
in a per curiam opinion holding that the challenge to
the panel composition was premature, while also
concluding in dicta that AVIC USA failed to show a
lapse in the selection process. Pet. App. 80-81a.
In its action, Ascendant argued that as a nonsignatory to the Agreement, the arbitration panel had
no jurisdiction over it and thus Ascendant had no
obligation to participate. Pet. App. 83-84a. Tang insisted
Ascendant was subject to the arbitration clause of the
Agreement simply because it had claimed liability
based on an alter-ego theory. Pet. App. 83a. The
District Court explained that “[when] the very existence of any agreement [to arbitrate] is disputed, it is
for the courts to decide at the outset whether an agreement was reached.” Pet. App. 86a (emphasis added).
The District Court ruled in favor of Ascendant, declaring that no decision by the Panel “as to jurisdiction
over or party-status of Ascendant is controlling on a
court.” Pet. App. 86a. The Ascendant decision was
not appealed.
The Panel held hearings in Dallas, Texas August 1014, 2015. Pet. App. 92a. Not surprisingly, all five
arbitrators selected directly by Tang3 and a sixth
3

Counsel for Tang circulated an agreement to pay “the legal
fees for those members . . . who appoint an arbitrator with Tang’s
approval.” ROA.30978-80 (emphasis added). Tang’s counsel also

10
arbitrator selected indirectly by Tang voted in lockstep
in the Tang Claimant’s favor. Pet. App. 92a. The
remaining three arbitrators dissented to the award in
its entirety. Pet. App. 92a.
a) The Arbitration Award
The Panel found that “AVIC USA itself did not
violate the contractual provision to refrain from engaging in the Business of [Soaring Wind] except through
[Soaring Wind].” Pet. App. 114a. Instead, the award
hinges entirely on the Tang-Selected arbitrators’
determination that the Non-Signatories were subject
to the Agreement (and thus also the arbitration) as
AVIC USA’s alter egos. Pet. App. 133-134a. This
decision is foundational—all of the Panel’s other conclusions flow from this decision—despite that this
critical decision was not ultimately the Panel’s to
make. See Pet. App. 132a, Pet. App. 86a.
Having determined that AVIC USA was the alter
ego of all the Non-Signatory entities, the Panel found
that the Non-Signatories were properly served with
discovery orders by the Panel. Pet. App. 131-134a,
137-138a. Because the Non-Signatories refused to
produce documents as ordered, the Panel zeroed-in on
the one email from Xu Hang that suggested AVIC IRE
had invested $50 million in wind power projects in the
United States and drew an adverse inference that it
was evidence of breach of the exclusivity provisions of
the Agreement and “accurate without any additional
circulated a spreadsheet to the other Tang Claimants assessing
the likelihood of favorable rulings from potential arbitrators in
the Dallas-Fort Worth area. ROA.29715-18 (“stupid, unpredictable,
but likes me;” “Loves Texas. Endorsed me as candidate;” “Not
that bright. Likes Carlos [law partner of Tang’s counsel] . . . would
probably go along.”).

11
evidence.” Pet. App. 133-134a. (the Non-Signatories
“refusal to participate in discovery, except when [they]
felt it was to their benefit, prevented Claimants from
getting the information to prove X, Y, and/or Z. As a
result, the panel has opted to infer . . . .”) (emphasis
added). The Panel also implicitly inferred that the
activity described in Hang’s email was conduct prohibited by the Agreement.
4. Award Confirmation Proceedings
a) Proceedings Before the District Court
Soaring Wind moved to confirm the arbitration
award against AVIC USA, AVIC, AVIC Holding, CAIGA,
AVIC IRE, and AVIC TED in the United States
District Court for the Northern District of Texas.4 Pet.
App. 30a. On August 9, 2018, the District Court sua
sponte severed the motion to confirm the arbitration
award as to AVIC, AVIC Holding, CAIGA, and AVIC
IRE and stayed those proceedings, while confirming
the award as to AVIC USA only (despite that the
award was based upon alleged conduct of the NonSignatories). ROA.35227-28. By severing the dispute,
the District Court never reached the issue of whether
the Non-Signatories were alter-egos of AVIC USA and
properly subject to the arbitration. ROA.35228. AVIC
USA timely appealed.
b) Proceedings Before the Fifth Circuit
AVIC USA challenged the District Court’s order
confirming the arbitration award in the United States
Court of Appeals for the Fifth Circuit. Immediately
upon appeal, the Fifth Circuit asked “that the parties
4

AVIC TED was subsequently dismissed by agreement after
it challenged the District Court’s personal jurisdiction over it.

12
address federal subject-matter jurisdiction under
either complete diversity or the New York Convention
. . . .” Pet. App. 8a.
The Fifth Circuit found that while complete diversity was lacking, jurisdiction was proper under the
New York Convention. Pet. App. 9-16a. The Court
concluded that, although the “Agreement makes explicit
reference neither to China nor to any Chinese citizen,
nor even to any foreign place or entity,” jurisdiction
was appropriate because the Agreement also provided
a restriction on competition by unnamed, non-party
“affiliates” to the signatories and the parties were
aware that some of those entities were residents of
China. Pet. App. 15-16a.
Next the Fifth Circuit found that the Panel was
appropriately constituted because the Agreement provided for a Panel established by “Disputing Members”
not “sides.” Pet. App. 19-21a. In so holding, the
Fifth Circuit did not address the fact that the Tang
Claimants had represented themselves as one, had
filed the demand as one, and had coordinated on arbitrator selection and litigation funding. ROA.30978-80,
29715-18. Moreover, the Fifth Circuit seemingly
concluded that no amount disparity in arbitration
panel appointment would warrant court intervention.
Pet. App. 21a.
Finally, the Fifth Circuit found sufficient evidence
to uphold the Arbitration Award. Pet. App. 17-18a.
Although the Court claimed this was based upon
evidence beyond the adverse inference, it based the
entire upholding of the award on the AVIC IRE email
referenced above and online “evidence” of NonSignatory projects about which the Panel had made
assumptions that were unrebutted by the absent NonSignatories. Pet. App. 17-18.

13
AVIC USA filed for an en banc rehearing which was
denied, Pet. App. 90a, and therefore AVIC USA
petitions this Court for a writ of certiorari.
REASONS FOR GRANTING THE WRIT
Certiorari is warranted because direction from this
Court is critically needed to guide lower courts in the
important task of confirming arbitration awards.
Specifically, as detailed below:
(1) Proper Scope of the New York Convention The Fifth Circuit departed from established jurisprudence and extended jurisdiction under the New York
Convention to an arbitration agreement governed by
Delaware law, entered into in the United States,
amongst United States citizens, and with no reference
to any specific named foreign entity or any specific
foreign purpose of the agreement. Instead, the court
focused on a peripheral restriction on the conduct of
the parties’ unnamed affiliates, which in this case were
known (outside the four concerns of the agreement) to
include foreign Non-Signatories. Pet. App. 16a. With
the increasing globalization of United States business,
this is a key error in expansion of federal jurisdiction,
likely to be repeated by appellate courts without
further direction from this Court.
(2) Compelling Non-Signatories to Arbitration The Arbitration Award was directly grounded on
the Panel’s conclusion it had jurisdiction over NonSignatories to the Agreement and that it could draw
an adverse inference against the Non-Signatories
when they refused to participate in the arbitration.
The District Court and Fifth Circuit both upheld the
award and refused to address whether the NonSignatories were properly subject to the arbitration
despite this issue being reserved for the courts. The

14
evidentiary assumptions drawn from the adverse inference were unrebutted because the Non-Signatories
refused to participate without a court order finding the
Non-Signatories properly subject to the arbitration—
a decision that no court has yet made, despite that the
award is now in the enforcement stage. AVIC USA,
therefore, asks this Court to remand so that a court
may address this critical issue of whether the NonSignatories were properly subject to the arbitration
before the harm cannot be undone.
(3) Avoiding Absurd Interpretations of Arbitration Panel Appointment Provisions - The Fifth
Circuit ignored widely held arbitration principles of
impartiality and fundamental fairness when it upheld
a misguided and hyper-technical interpretation of an
arbitration panel appointment clause that led to an
absurdly stacked supermajority panel selected by the
Tang Claimants in contravention of the appointment
provision of the Agreement. This Court should address
whether courts should safeguard the arbitration process
by interpreting appointment clauses consistent with
internationally accepted principles of fairness and
impartiality, especially where one party disguises the
nature of its dispute to game the system and appoint
a supermajority of an arbitration panel.
I. The Fifth Circuit Erred in Concluding
Jurisdiction Exists Under the New York
Convention Based Upon A Peripheral
Reference to Foreign Affiliates in the
Parties’ Broader Agreement.
There is, and was, no federal subject matter jurisdiction in this case on the current record. After properly
concluding that there was no diversity jurisdiction
here, the Fifth Circuit improperly concluded that it
had jurisdiction under the New York Convention

15
based upon a tangential reference in the Agreement
that purportedly restricted conduct of certain NonSignatory “affiliates” of the parties (which, in AVIC
USA’s case, included some unnamed foreign entities at
the time the Agreement was signed). Pet. App. 16a.
This is in direct contravention of key precedent and is
an unauthorized expansion of federal subject matter
jurisdiction.
As to the underlying Agreement at issue here, the
Fifth Circuit found:
The Agreement makes explicit reference
neither to China nor to any Chinese citizen,
nor even to any foreign place or entity. Aside
from a generic, stated purpose “to provide
worldwide marketing” in wind energy, the
Agreement appears to evince a domestic
character: It creates a Delaware company,
comprised entirely of U.S. citizen-members,
with a principal place of business in Texas. As
per the Agreement, the underlying arbitration proceeded in Texas, under Delaware
substantive law. In short, it would appear on
its face that the Agreement bears no relation
to China (or any other foreign state).
Pet. App. 15-16a.
Despite these findings, the Fifth Circuit found a
reasonable relation to a foreign country that created
jurisdiction because the agreement’s exclusivity provision restricted unnamed, non-signatory “affiliates” of
the parties from competitive conduct and the parties
knew that some “affiliates” were Chinese entities. Pet.
App. 16a. In using this one Agreement provision to
extend jurisdiction, the Fifth Circuit mutated what

16
was in reality a domestic transaction, into an international one governed by the New York Convention.
There are two ways that the New York Convention
could potentially apply here—but both options remain
unsatisfied or woefully under-satisfied.
First, the New York Convention can confer subject
matter jurisdiction when at least one party to an agreement to arbitrate is not a U.S. citizen. Freudenspring
v. Offshore Tech. Servs., Inc., 379 F.3d 327, 339 (5th
Cir. 2004). Here, even though Soaring Wind, AVIC
USA, and all of its other members are U.S. citizens,
ROA.360-361, the New York Convention could still
confer jurisdiction if the foreign Non-Signatories were
found to be subject to the Agreement. Yet, no court
has made such a determination to date; rather both
the District Court and the Fifth Circuit failed to decide
this critical issue, despite it being expressly reserved
for the courts and not the arbitrators. See Bridas
S.A.P.I.C. v. Gov’t of Turkmenistan (“Bridas I”), 345
F.3d 347, 356 (5th Cir. 2003). Therefore, jurisdiction
cannot exist under the New York Convention based on
a foreign party being subject to the Agreement unless
the federal courts, rather than an arbitration panel,
properly address whether the Non-Signatories were
parties to the Agreement.
Second, where arbitration is only between United
States citizens, as here, without a court ruling on
jurisdiction over all of the Non-Signatories, the New
York Convention may still confer jurisdiction when the
parties’ legal relationship “involves property located
abroad, envisages performance or enforcement abroad,
or has some other reasonable relation with one or more

17
foreign countries.” 9 U.S.C. § 202.5 The full extent and
meaning of “reasonable relation” is a key issue for this
Court. As detailed above, the Fifth Circuit concluded
this test was satisfied by reference in the Agreement
to unnamed, non-signatory “affiliates” who are known
by the parties to be foreign citizens. However, most
federal circuits have found this exception to be more
narrowly construed.
Narrowly construing the reasonable relation exception is consistent with the principal purpose of the
New York Convention.6 This Court has explained that
the adoption and implementation of the New York
Convention in the U.S. was done primarily to “encourage the recognition and enforcement of commercial
arbitration agreements in international contracts,” not
to create jurisdiction over awards, as here, made in
domestic arbitrations for domestic parties that have
domestic purposes. Scherk v. Alberto-Culver Co., 417
U.S. 506, 520 n.15 (1974) (emphasis added).
5

See also Freudensprung v. Offshore Tech. Servs., Inc., 379
F.3d 327, 339-41 (5th Cir. 2004), Matabang v. Carnival Corp., 630
F. Supp. 2d 1361, 1364 (S.D. Fla. 2009) (citing Bautista v. Star
Cruises, 396 F.3d 1289, 1294 n.7 (1st Cir. 2005)).
6

Because the statute specifically talks of the relationship
between the parties, it is necessarily broader than just the four
corners of their contract. However, the focus is still the
international nature of the overall transaction. See, e.g., Ensco
Offshore Co. v. Titan Marine LLC, 370 F. Supp. 2d 594, 601 (S.D.
Tex. 2005); Nomanbhoy v. Vahanvaty, 2011 WL 6736052, at *6
(N.D. Ill. Dec. 21, 2011) (evaluating testimony about whether the
parties envisaged performance abroad); Access Info. Mgmt. of
Haw., LLC v. Shred–It Am., 2010 WL 4642045, at *4–6 (D. Haw.
Nov. 2, 2010) ) (“The focus of whether a commercial relationship
has a reasonable relation to a foreign state is not on the Franchise
Agreement alone, but rather the ‘legal relationship’ in which the
arbitration or arbitral award arises.”) (quoting Ensco).

18
It follows then, that jurisdiction under the reasonable relation exception is not conferred by any
tangential or minimal relation to a foreign state—
there must be an “important foreign element involved.”
Jones v. Sea Tow Services Freeport NY Inc., 30 F.3d
360, 366 (2d Cir. 1994). The essence of the requirement is that the Convention should only apply in “the
narrow context of truly international disputes. . . .”
Certain Underwriters at Lloyd’s London v. Argonaut
Ins. Co., 500 F.3d 571, 577 (7th Cir. 2007).
Other courts looking at this “reasonable relation”
test primarily focus on the actual performance of the
contract and whether a central purpose of the contract
creates a relation to a foreign state. See and compare
Lander Co. v. MMP Investments, Inc., 107 F.3d 476,
478 (7th Cir. 1997) (Contract that included distribution of product in Poland created reasonable relation
to foreign country to confer jurisdiction), and S & T Oil
Equip. & Mach., Ltd. v. Juridica Investments Ltd., 456
Fed. Appx. 481, 484 (5th Cir. 2012) (finding reasonable
relation to foreign country where “it is evident that the
legal relationship . . . envisaged performance abroad.
The Investment Agreement specifically states that it
was executed in Guernsey and would be performed . .
. exclusively and wholly in and from Guernsey.”), with
Jones, 30 F.3d at 361 (“It is not sufficient that English
law was to be applied in the resolution of the salvage
dispute and that the arbitration proceeding was to be
held before an English arbitrator in England.”), and
Armstrong v. NCL (Bahamas) Ltd., 998 F. Supp. 2d
1335, 1338–39 (S.D. Fla. 2013) (Agreement did not
fall under Convention where seaman was on boat in
international waters despite docking at international
ports because the focus of work was not on foreign soil).

19
For this question, factual evidence contemplating an
important foreign element such as performance in or
around a particular foreign country or countries is
critical. See, e.g., Brittania-U Nigeria, Ltd v. Chevron
USA, Inc., 866 F.3d 709, 713 (5th Cir. 2017) (leases at
issue “were for sale in Nigeria and all performance was
to occur in Nigeria”); S&T Oil Equip & Machinery,
Ltd. v, 456 F. App’x at 484 (Convention applied when
agreement was to be performed “exclusively and wholly
in and from Guernsey”).
When the contract is territorially neutral for performance, courts look to other indicia that the parties
envisaged performance in a foreign country or area.
Without that, the New York Convention does not apply.
See, e.g., Freudenspring, 379 F.3d at 332; Matabang,
630 F. Supp. 2d at 1364; Ensco, 370 F. Supp. 2d at 600.
In Freudenspring, for example, work orders—including
one specifically for West Africa—became part of the
contract. In Johnson v. NCL (Bahamas) Ltd., 163 F.
Supp. 3d 338, 360–61 (E.D. La. 2016), likewise, the
contract did not specify any particular country, but the
vessel on which the plaintiff worked had an itinerary
that took it to ten different foreign ports.
Here, as Fifth Circuit found “it would appear on its
face that the Agreement bears no relation to China (or
any other foreign state).” Pet. App. 15-16a. Indeed,
every material aspect of the Agreement (as developed
in the present record) focused on and was ultimately
performed exclusively in the United States:


The United States was the real target—it was
only market targeted or specifically contemplated
when the parties entered into the Agreement.
ROA.4238-39, 4247, 4564.



20
No other countries, projects, or locations were
ever targeted for Soaring Wind ventures.



The Agreement defines the principal place of
business for Soaring Wind as Dallas, Texas.
ROA.316.



The Agreement requires arbitration in the U.S.
ROA.349.



The Agreement applies only Delaware law.
ROA.357.



Because the relationship envisaged only performance in the United States, the dispute centered
around alleged breaches of the Agreement in
the United States.7

In sum, this was a dispute between parties that
envisaged a United States-focused business, involving
alleged breaches that took place in the United States.
Every focus was on the United States. This is a sharp
contrast to the cases that have applied this exception
under the New York Convention. The reasonable
relation exception would therefore not apply on the
current record.
This Court should either clarify the jurisdictional
scope of the reasonable relation exception of the New
York Convention or remand to the District Court with
instruction to determine independently whether (1) the
foreign Non-Signatories were parties to the agreement
and, if not, (2) whether there was an actual relation
to an important foreign element such as the parties
contemplating performance abroad when they entered
7

Again, the award is based solely on the Panel adversely
inferring that AVIC IRE, which is not a party to the contract, had
invested $50 million in wind power projects in the United States.
Pet. App. 133-134a.

21
into the Soaring Wind joint venture. If the answer to
both questions is no, the case must be dismissed for
lack of subject matter jurisdiction.
II. The Fifth Circuit Erred by Affirming
Confirmation of the Award Without First
Independently Determining that the NonSignatories Were AVIC USA’s Alter-Egos
and Subject to the Arbitration
By not determining whether the foreign NonSignatories were subject to arbitration, the Fifth
Circuit failed to address the bedrock question on which
the arbitration Panel based the entire award. That
question, significantly, is one on which the arbitrators
receive no deference and this Court should exercise its
supervisory authority to clarify that a court confirming an arbitration award should resolve outstanding
legal questions that are specifically reserved for courts
to decide.
Fundamentally, the Panel’s determination that AVIC
USA breached the Agreement through its alter-ego’s
activities flowed directly from the Panel’s determination that the Non-Signatories were subject to the
arbitration:


The Panel found the Non-Signatories were
subject to the arbitration. Pet. App. 139a.



Because it found that the Non-Signatories were
subject to the arbitration, the Panel was able to
draw an adverse inference against them for not
participating in the arbitration. See Pet. App
133-34a.



Based on that adverse inference, the Panel
found that an affiliate of AVIC USA breached

22
the Agreement and, as such, that AVIC USA
breached the agreement. Pet. App 138a.


But for that adverse inference, there was no
other basis to find AVIC USA breached the
Agreement. In no uncertain terms, the arbitrators found that “AVIC USA itself did not violate
the contractual provision to refrain from engaging in the Business of SWE except through
SWE.” Pet. App. 114a.

The entire arbitration award collapses if the
Non-Signatories were not subject to arbitration. And,
critically, whether the Non-Signatories were subject to
the arbitration was not for the Panel to decide. At a
minimum, that decision—unlike some of the Panel’s
other decisions—was entitled to no deference by
any court.
As this Court has explained, “courts presume that
the parties intend courts, not arbitrators, to decide
what we have called disputes about ‘arbitrability’”
including questions such as “whether the parties are
bound by a given arbitration clause . . . .” BG Grp.,
PLC v. Republic of Argentina, 572 U.S. 25, 34 (2014)
(internal citation omitted). Additionally, absent “the
parties clearly and unmistakably provid[ing] otherwise,
the question of whether the parties agreed to arbitrate
is to be decided by the court, not the arbitrator.” AT
& T Techs., Inc. v. Commc’ns Workers of Am., 475 U.S.
643, 649 (1986); First Options of Chicago, Inc. v.
Kaplan, 514 U.S. 938, 943 (1995) (“If . . . the parties
did not agree to submit the arbitrability question itself
to arbitration, then the court should decide that question just as it would decide any other question that
the parties did not submit to arbitration, namely,
independently.”).

23
This is undisputed. Indeed, the Tang Claimants
have echoed the need for front-end judicial review: “All
parties agree that the Court should conduct an independent review of the arbitration record” to determine
whether the Non-Signatories were subject to the arbitration agreement. ROA.34391. Likewise, Soaring
Wind agreed that the arbitrators’ decision regarding
the Non-Signatories was “not binding upon a reviewing
court” and entitled to no deference. ROA.34392.
Yet as it stands, no court, even at this eleventhhour, has answered this crucial question. By severing
the foreign Non-Signatories from the case sua sponte
before confirming the award, the District Court never
reached this foundational question and likewise the
Fifth Circuit reasoned that “[w]hether [AVIC] USA’s
non-signatory affiliates themselves [were] subject to
the arbitration is irrelevant . . . .” Pet. App. 18a. The
reasoning of the Fifth Circuit not only shows that it
failed to answer this critical question, but also that it
misapprehended the importance of the decision as well.
This Court should intervene and correct this error.
A. The Lack of a Court Decision Resolving
Whether the Non-Signatories Were
Properly Subject to the Arbitration
Agreement
Remains
Problematic
Because the Panel Could Only Draw an
Adverse Inference Against a Party to
the Agreement.
The Agreement speaks directly to when and against
whom the arbitrators may draw an adverse inference
and makes plain that such inferences can be drawn
only against Disputing Members that are parties to
the arbitration. In this case, that cannot be any
Non-Signatory, because no court determined if they
are proper parties to the arbitration (other than

24
Ascendant, which the Panel nevertheless chose to ignore),
and they are certainly not “Disputing Members.”
The Arbitration Panel cited two bases for its supposed
authority to impose this critical adverse inference:
Section 13.3(f) of the Agreement and Rule 23 of the
American Association of Arbitration (“AAA”) Rules.
Neither the plain language of the Agreement nor the
AAA Rules support the expansion of authority improperly exercised by this Panel as to Non-Signatories.
Agreement Section 13.3(f) allows the arbitrators to
consider a Disputing Member’s “fail[ure] to comply
with a discovery request” as a “consideration in reaching their decision.” ROA.349. AVIC IRE is not a
Member of Soaring Wind and is therefore not a Disputing
Member. The discovery order that gave rise to the
inference was issued against the Non-Signatories, who
had never consented to arbitration. See ROA.1995.
The Panel lacked the authority under the Agreement
to draw an adverse inference against AVIC USA
unless a court had determined AVIC IRE was a party
to the Agreement and thus a de facto Member of
Soaring Wind, and in turn a Disputing Member.
Commercial AAA Rule 23 similarly is not focused on
non-parties. Rule 23 empowers an arbitrator to issue
any orders “necessary to enforce the provisions of rules
R-21 and R-22.” But Rule 22 only allows an arbitrator
to “require the parties” to exchange documents. Rule
23 does not permit an arbitration panel to draw an
adverse inference against a non-party for its failure to
participate in discovery. This rule only provided a
basis for an adverse inference after the arbitrators

25
decided that AVIC IRE was a party.8 But as the
determination of whether the Non-Signatories were
parties to the Agreement is for the courts, it was
improper for the lower courts to confirm an arbitration
award premised on an adverse inference that could
only have been made if the court actually made the
determination that the Non-Signatories were in fact
parties to the Agreement and subject to the Arbitration.
B. The Adverse Inference Was Essential to
the Arbitration Award
The arbitrators acknowledged that the Tang
Claimants failed to produce evidence of a breach of the
Agreement without the adverse inference. At issue
was the Tang Claimants’ assertion that the NonSignatories breached the exclusivity provision by
investing in wind farm projects.
Based on the Non-Signatories’ refusal to participate
in discovery, the Panel inferred that Xu Hang’s statement in an email9 that “AVIC International has already
provided a total of $50 million USD in financing to [sic]
wind power projects in the US” was “accurate without
any additional evidence.” Pet. App. 133-34a, ROA.1147.
The Panel then calculated damages based solely on the
$50 million figure. Pet. App. 127a.
This inference went to the heart of this dispute
and whether the Agreement was breached at all.
The Agreement defines the scope of Soaring Wind’s
business as “the worldwide marketing of wind energy
equipment, services and materials related to wind
8

Regardless, Rule 23 is rendered null by the agreement, which
incorporates the AAA rules except as expressly provided by the
Agreement. ROA.349.
9

Translated from Chinese to English.

26
energy including, but not limited to, marketing wind
turbine generator blades and wind turbine generators
and developing wind farms.” ROA.316. Not only did
the Panel infer the email was accurate without any
corroboration, but it also impliedly inferred that the
“financing to wind power projects” Xu Hang referenced
was related to the marketing of wind energy equipment and was a breach of the Agreement.10
Without drawing such an adverse inference, the
Panel would have had no basis to find that the
Agreement was breached and the entire Award
collapses. The Panel made that clear in the award,
explaining that the Non-Signatories “refusal to participate in discovery, except when [they] felt it was to
their benefit, prevented [the Tang Claimants] from
getting the information to prove” the “factual basis for”
their claims. Pet. App. 133-34a.
The adverse inference against a Non-Signatory is
not merely the linchpin of the entire award, it is the
sole basis. Without it, there is no breach. Moreover,
without first determining that the foreign NonSignatories were subject to the Agreement, there could
not have been any adverse inference, because the
Panel only had authority to make such inferences
against parties to the Agreement. Nevertheless, we
have a confirmed award based exclusively on the
purported actions of and inferences against a nonparty, but no court has yet made a determination as to
whether that party can be subject to the arbitration.
This Court should intervene and direct the lower
courts to make this key preliminary determination—
10

It is possible, for example, that such reference could be to
monies invested before the formation of Soaring Wind, or towards
research related to wind power but not necessarily wind farms.

27
i.e., whether the Non-Signatories were in fact subject
to the arbitration.
III. The Award Must be Vacated Because the
Panel Was Improperly Appointed According to an Absurd Interpretation that Ignores
Internationally Accepted Principles of
Fairness and Impartiality.
This Court should intervene to reaffirm that
arbitration panels must be selected in accordance
with contractual provisions in light of internationally
accepted principles of impartiality and fairness in
order to avoid absurd results. Here, an absurd
supermajority-stacked arbitration panel was formed
based on a hyper-technical and unreasonable reading
of the arbitration agreement that ignored the reality
of the dispute. The arbitration’s outcome was a
foregone conclusion because in what was effectively
a dispute between two positions advanced by the
Tang Claimants collectively and AVIC USA, the Tang
Claimants were allowed to appoint twice as many
arbitrators as AVIC USA. To no one’s surprise, all five
arbitrators chosen by the Tang Claimants, alone
sufficient to form a majority of the Panel, found for the
Tang Claimants.
A. Arbitration Panels Should Be Appointed
Consistent with Internationally Accepted
Principles of Impartiality and Fairness
When an award is made “by arbitrators not appointed
under the method provided in the parties’ contract”
it “must be vacated.” PoolRe Ins. Corp. v. Org.
Strategies, Inc., 783 F.3d 256, 263 (5th Cir. 2015).11
11

This is widely recognized among the circuit courts. Hugs &
Kisses, Inc. v. Aguirre, 220 F.3d 890, 893 (8th Cir. 2000); R.J.

28
This is because section 5 of the Federal Arbitration Act
“expressly provides that where a method for appointment is set out in the arbitration agreement, the
agreed upon method shall be followed.” PoolRe, 783
F.3d at 263 (internal quotation marks omitted). This
is a substantive, not procedural issue, that is for the
courts to decide because it goes squarely to the power
of the arbitrators to act. See, e.g., AT&T Tech., Inc. v.
Commc’n Workers, 475 U.S. 643, 649 (1986); Howsam
v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83 (2002);
Brook v. Peak Int’l, Ltd., 294 F.3d 668, 672 (5th Cir.
2002).
Importantly here, courts interpreting arbitration
panel appointment clauses with multiple reasonable
interpretations should interpret those clauses consistent with principles widely recognized in arbitration,
including principles of fairness and impartiality to
avoid absurd results like supermajority-stacked panels
as was present here. This Court has long held that
“any tribunal permitted by law to try cases and
controversies not only must be unbiased but also must
avoid even the appearance of bias.” Commonwealth
Coatings Corp. v. Cont’l Cas. Co., 393 U.S. 145, 149
(1968) (emphasis added). This lack of bias is critical
because parties that arbitrate “do not agree to forego
their right to have their dispute fairly resolved by an
O’Brien & Assocs., Inc. v. Pipkin, 64 F.3d 257, 263 (7th Cir. 1995);
Cargill Rice, Inc. v. Empresa Nicaraguense Dealimentos Basicos,
25 F.3d 223, 226 (4th Cir. 1994); Szuts v. Dean Witter Reynolds,
Inc., 931 F.2d 830, 832 (11th Cir. 1991); United Indus. Workers,
Serv., Transp., Prof’l & Gov’t of N. Am., Atl., Gulf Lakes & Inland
Waters Dist., AFL-CIO v. Kroger Co., 900 F.2d 944, 948 (6th Cir.
1990); Avis Rent A Car System, Inc. v. Garage Employees Union,
Local 272, 791 F.2d 22, 26 (2d Cir. 1986); Bear Stearns & Co., Inc.
v. N.H. Karol & Associates, Ltd., 728 F. Supp. 499, 501 (N.D. Ill.
1989).

29
impartial third party.” Murray v. United Food &
Commercial Workers Int’l Union, Local 400, 289 F.3d
297, 303 (4th Cir. 2002).
Neutrality in arbitration is especially important,
more so than even in court, because arbitrators might
not strictly apply the law, appeals are limited, and
arbitration lacks the procedural and evidentiary
safeguards of the courts. See, e.g., Commonwealth
Coatings Corp., 393 U.S. at 149 (“[W]e should, if
anything, be even more scrupulous to safeguard the
impartiality of arbitrators than judges, since the
former have completely free rein to decide the law as
well as the facts and are not subject to appellate
review.”).
A critical aspect of such neutrality is that each side
has equal input into the selection of arbitrators. See,
e.g., Hooters of Am., Inc. v. Phillips, 173 F.3d 933, 938
(4th Cir. 1999) (declaring dispute not arbitrable because
one side to the dispute had greater input into or
controlled the selection of the arbitrators). This is a
widely recognized principle in international arbitration.
See, e.g., Charles Nairac, Due Process Considerations
in the Constitution of Arbitral Tribunals, in INTERNATIONAL ARBITRATION AND THE RULE OF LAW 119,
123-24, 124 n.15 (Andrea Menaker ed., 2017) (Parties
“should receive equal treatment . . . during constitution of the tribunal,” because the selection process
“must ensure a level playing field.”).
Further, under Delaware law, which governs here,
contracts should be interpreted to avoid meanings that
produce unreasonable, oppressive, or absurd results in
favor of meanings that render the operation of the
contract fair and reasonable. Osborn ex rel. Osborn v.
Kemp, 991 A.2d 1153, 1160 (Del. 2010) (“An unreasonable interpretation produces an absurd result or one

30
that no reasonable person would have accepted
when entering the contract.”); Axis Reinsurance Co. v.
HLTH Corp., 993 A.2d 1057, 1063 (Del. 2010) (“where
a contract provision lends itself to two interpretations,
a court will not adopt the interpretation that leads to
unreasonable results . . . .”).
Here, the interpretation adopted by the lower courts
ignored the important principles of fairness and
impartiality and used a hyper-technical reading of the
agreement that drained it of all rational means for
reaching a fair result—a panel with a supermajority
appointed by the Tang Claimants. Intervention by
this Court is necessary to further clarify the important
role of Courts in ensuring fairness in treatment,
especially in interpreting arbitrator selection clauses.
B. The Appointment of Arbitrators Was
Contrary to the Agreement.
The appointment of the arbitrators contradicted
the language in the Agreement and left the Panel
powerless because an award issued by an arbitration
panel not appointed under the agreed-upon method
“must be vacated.” Brook, 294 F.3d at 672, 9 U.S.C.
§ 5. While not all arguments about panel composition
are substantive, when, as here, an arbitrator is not
appointed under the contractually-dictated method,
that arbitrator’s subsequent decisions are made without
any authority, are not entitled to deference, and are
null. PoolRe Ins. Corp. and Brook v. Peak Intern., Ltd.,
294 F.3d 668, 672 (5th Cir. 2002).12

12

In contrast, an arbitrator initially appointed pursuant to the
contractual method has authority to act under the contract and,
thus, deference attaches to actions subsequent to the proper

31
Here, after a Disputing Member sends a written
notice requesting informal dispute resolution, which
fails, the Agreement set forth how an arbitrator must
be selected:


A Member that is a party to a Dispute becomes
a Disputing Member. ROA.348.



That Disputing Member notifies the other
Disputing Members in writing. ROA.348.



The first Disputing Member’s notice provides
the name of the Arbitrator appointed by that
Disputing Member.” ROA.348.



“[E]ach other Disputing Member receiving notice
of the Dispute” then names an Arbitrator . . .”
ROA.348.

The agreement provides that if there are more than
two parties, additional arbitrators are named to ensure
an odd number of arbitrators on the Panel—reinforcing
the agreement’s goal of fairness and balance. ROA.349.
When Tang gave written notice of the matter in
dispute to AVIC USA on May 14, 2014, it did so
not only in its individual capacity, but expressly on
“behalf of Soaring Wind LLC” collectively. ROA.1287.
Likewise, the Demand served on June 13, 2014,
designated all members of Soaring Wind collectively—
except for AVIC USA and Thompson—as “Claimants”
and designated collectively AVIC USA, Thompson,
and the foreign Non-Signatories as “Respondents.”
ROA.29633.
Although Tang technically “served” that notice,
meaning the other members of Soaring Wind technically
appointment. See Adam Tech. Int’l, S.A. de C.V. v. Sutherland
Global Services, Inc., 729 F.3d 443 (5th Cir. 2013).

32
“received it,” the other members were not “Disputing
Members” that should have been entitled to appoint
their own arbitrators. Instead, they were all unified
in their efforts in giving notice against AVIC USA.
Indeed, the Demand’s Prayer for Relief confirms this
fact, stating that Tang was seeking relief “in its own
name and on behalf of Soaring Wind Energy, LLC
and the other similarly situated members . . . .”
ROA.29644 (emphasis added). But to game the system
and inappropriately stack the Panel in their favor,
the other Tang Claimants, who were already part of
Tang’s collective arbitration demand, each named
their own additional arbitrators without providing
individual notice as required. Indeed, Tang agreed to
pay “the legal fees for those members . . . who appoint
an arbitrator with Tang’s approval.” ROA.30978-80.
This is plainly not what the Agreement contemplated
or allowed.
Finding otherwise, the Fifth Circuit focuses on the
distinction between the number of “sides” and “members” and “parties,” and hypotheticals such as Eris
tossing the Apple of Discord into a Soaring Wind conference room and the potential free-for-all that might
follow. Pet. App. 19-21a. The Fifth Circuit ultimately
held that each LLC member involved in the arbitration was able to appoint an arbitrator and that AVIC
USA must not have expected to be outnumbered in
an arbitration and must live with the consequences.
Pet. App, 21a.
This Fifth Circuit reading of the Agreement misses
the mark. Essentially, the Agreement requires that a
Disputing Member give notice of a desire to start
arbitration to the other members of the dispute and
names an arbitrator. Then, those disputing members
that receive the notice respond and name an arbitrator.

33
So if Eris did in fact throw the Apple of Discord into a
conference room and all the members fought over it,
each would have individually given notice, selected an
arbitrator, and there would have been seven sides.
Here, by contrast, Tang acted on behalf of its aligned
members and they collectively gave one notice to AVIC
USA and appointed one arbitrator. AVIC USA in
response named its arbitrator. Then in contravention
of the Agreement, and without giving their own
notices, the members on behalf of whom Tang previously initiated the arbitration then named their own
arbitrators. The result here in allowing each member
on one side to select its own arbitrator against the one
arbitrator appointed by their common opponent resulted
in a lopsided arbitration panel that destroyed any
hope of impartiality.
To be clear, this problem went beyond appearance.
Tang championed the importance of nominating arbitrators to obtain a tribunal weighted in its favor.
When Tang served the Demand on Thompson, Tang
included a list identifying dozens of potential arbitrators. ROA.29715-18. The list included specific comments
reflecting Tang’s views of some arbitrators as favorable
to the Tang Claimants, such as comments describing
one potential arbitrator as “stupid, unpredictable, but
likes me” and another as “smart, have a history,
generally positive”, and about another arbitrator; “Not
that bright . . . has arbitrated in our offices recently;
would probably go along” and about another “Loves
Texas. Endorsed me as candidate.” ROA.29715-18.
The overt purpose was to control the naming of
additional arbitrators who Tang believed would be
favorable to it, in exchange for payment of legal fees.
Here, the Tang Claimants appointed five arbitrators,
AVIC USA and Thompson each appointed one, and the

34
Panel itself appointed two more. Even those final
appointments, however, were tainted by the Tang
Claimants’ gamesmanship. Over strenuous objections,
Tang’s counsel contacted its appointed supermajority
of arbitrators to convey Soaring Wind’s “thoughts”
for who the additional arbitrators ought to be. ROA
29845-47.
Tang Claimants’ tactic worked—the arbitration
was decided 6 to 3, with all five arbitrators directly
appointed by Claimants and a sixth indirectly appointed
by Claimants, voting for the Tang Claimants. As the
Fourth Circuit stated in an analogous case, “[t]o uphold
the promulgation of this aberrational [tribunal] under
the heading of arbitration would undermine, not
advance, the federal policy favoring alternative
dispute resolution.” Hooters, 173 F.3d at 941.
The Fifth Circuit interpretation of the Agreement
leads to absurd results which are inconsistent with
widely recognized principles of fairness and impartiality (and those reflected in the Agreement itself). No
reasonable party would ever agree to the stacked
Panel at issue. The Fifth Circuit held that AVIC USA
must not have expected to be outnumbered and that
because the parties were sophisticated, they could
have agreed to seemingly any degree of disproportionality in the panel composition. That contradicts the
practical reality of the make-up of the LLC. AVIC
USA must have expected that in a dispute it might
have been pitted against all the Tang Claimants
together because all of the Tang Claimants were
related entities. This underscores that AVIC USA
would never have agreed to be so outnumbered and
likewise did not agree to the interpretation the Fifth
Circuit found persuasive.

35
Because the interpretation of the lower courts is
inconsistent with the contract and widely recognized
arbitration principles of fairness, this Court should
intervene to prevent such an absurd and unjust
interpretation of the Agreement.
CONCLUSION
For the reasons stated above, this Court should
grant the petition for a writ of certiorari.
Respectfully submitted,
LEANNA ANDERSON
Application Pending
DENTONS US LLP
2000 McKinney Avenue
Suite 1900
Dallas, Texas 75201
(214) 259-0900
leanna.anderson@dentons.com

SHANNON Y. SHIN
Counsel of Record
DENTONS US LLP
233 South Wacker Drive
Suite 5900
Chicago, Illinois 60606-6361
(312) 876-3453
shannon.shin@dentons.com

Counsel for Petitioner
AVIC International USA, Incorporated

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed January 7, 2020]
————
No. 18-11192
D.C. Docket No. 3:15-CV-4033
————
SOARING WIND ENERGY, L.L.C.; TANG ENERGY GROUP,
LIMITED; THE NOLAN GROUP INCORPORATED;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; MARY M. YOUNG, Individually and
as the Independent Executrix of the
Estate of Keith P. Young, Jr., Deceased,
Plaintiffs-Appellees,
v.
CATIC USA INCORPORATED, also known as
AVIC International USA, Incorporated;
AVIC INTERNATIONAL HOLDING CORPORATION;
AVIC INTERNATIONAL RENEWABLE ENERGY
CORPORATION; AVIATION INDUSTRY CORPORATION
OF CHINA; CHINA AVIATION INDUSTRY GENERAL
AIRCRAFT COMPANY LIMITED,
Defendants-Appellants.
————
Appeals from the United States District Court for the
Northern District of Texas
————
JUDGMENT
Before DAVIS, SMITH, and COSTA, Circuit Judges.

2a
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed.
IT IS FURTHER ORDERED that appellants pay to
appellees the costs on appeal to be taxed by the Clerk
of this Court.

3a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed January 7, 2020]
————
No. 18-11192
————
SOARING WIND ENERGY, L.L.C.; TANG ENERGY GROUP,
LIMITED; THE NOLAN GROUP INCORPORATED;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; MARY M. YOUNG, Individually and
as the Independent Executrix of the
Estate of Keith P. Young, Jr., Deceased,
Plaintiffs-Appellees,
versus
CATIC USA INCORPORATED, Also Known as
AVIC International USA, Incorporated;
AVIC INTERNATIONAL HOLDING CORPORATION;
AVIC INTERNATIONAL RENEWABLE ENERGY
CORPORATION; AVIATION INDUSTRY CORPORATION
OF CHINA; CHINA AVIATION INDUSTRY GENERAL
AIRCRAFT COMPANY LIMITED,
Defendants-Appellants.
————
Appeals from the United States District Court
for the Northern District of Texas
————
Before DAVIS, SMITH, and COSTA, Circuit Judges.
JERRY E. SMITH, Circuit Judge:

4a
Catic USA, a California corporation with Chinese
corporate parentage, appeals the confirmation of an
adverse arbitral award. Having determined that this
court has jurisdiction, we affirm: The arbitration panel
was fairly constituted and did not exceed its authority.
1

I.
A dispute among members of Soaring Wind Energy,
LLC (sometimes called “the LLC”), was submitted to
an arbitration panel, which awarded the LLC $62.9
million against Catic USA (and its AVIC-group affiliates) and ordered that Catic USA be divested of its
shares in the LLC without compensation. A judgment
of the district court confirmed that award. Catic USA,
joined by its various Chinese affiliates, appeals.
The origins of Soaring Wind Energy trace to 2007,
when representatives of Tang Energy Group (“Tang
Energy”) and Catic USA began talks of creating a
vehicle for wind-energy marketing and project development. They confirmed those talks in a Memorandum
of Understanding, which the Soaring Wind Agreement
(the “Agreement”) superseded.
The Agreement created the LLC, whose “business”
would be “to provide worldwide marketing of wind
energy equipment, services and materials related to
wind energy, including, but not limited to, marketing
wind turbine generator blades and wind turbine
generators and developing wind farms.” Each member
agreed to “conduct activities constituting the Business
[only] in and through [Soaring Wind] and its Controlled
subsidiaries.” Class A members agreed that such
prohibition extended to their affiliates.

1

Catic USA is also known as AVIC International USA.

5a
The Agreement also outlined a procedure for resolving disputes. Under its terms, “any controversy,
dispute, or claim arising under or related to [the
Agreement],” after failed attempts at negotiation, “shall
be submitted to binding arbitration.” Each “Disputing
Member”—defined as “each Member that is a party to
[the] Dispute”—would then have the opportunity to
name its own arbitrator. Those selected as arbitrators
would themselves choose an additional arbitrator
(or two additional arbitrators if necessary to achieve
an odd number). The panel would have the authority
“to grant injunctive relief and enforce specific performance” and to issue a final, court-enforceable decision,
though it would lack “authority to award special,
exemplary, punitive or consequential damages.”
After years without Catic USA’s providing Soaring
Wind any financial support, a representative from
Tang Energy requested that one of Catic USA’s
Chinese AVIC-group affiliates2 help fund Soaring
Wind. An AVIC representative responded that “AVIC
International has already provided a total of 50
million USD in financing to wind power projects in
the US and will keep [] trying in the future.” Paul
Thompson—himself a Class B member of Soaring
Wind—served as president and CEO of one such
affiliate,3 through which the AVIC group appeared to
2

Two years after Catic USA signed the Agreement, its parent
company formed AVIC International Renewable Energy Corporation (“AVIC IRE”) as a majority-owned subsidiary. AVIC IRE’S
stated purpose, like Soaring Wind’s, included developing wind
power projects.
3

Thompson ran Ascendant Renewable Energy Corporation
(“Ascendant”), which itself funded at least one major wind farm
project to completion between 2011 and 2012. Ascendant was
formed as a wholly owned subsidiary of AVIC IRE.

6a
have invested millions of dollars in wind power project
development.4
Tang Energy subsequently demanded arbitration
against Catic USA, Thompson, and Catic USA’s nonsignatory corporate affiliates. Among other things,
Tang claimed that Catic USA had breached the Agreement through the actions of its Chinese corporate
affiliates. Tang named its arbitrator in its demand,
and the four remaining Class A members5 joined Tang
in the dispute and, accordingly, named their respective
arbitrators. Catic USA and Thompson answered Tang’s
demand and named their own arbitrators, but Catic
USA’s non-signatory Chinese affiliates refused to participate in the arbitration. As the Agreement required,
the seven selected arbitrators then collectively appointed
two more.
Catic USA and Thompson preemptively sued the
claimants in federal court, seeking a declaratory judgment that the panel was improperly constituted.6
Specifically, they claimed both that fundamental fairness and the Agreement required each side of the
dispute to select an arbitrator, who would then select
a third and final arbitrator. The district court dismissed
those claims for lack of subject matter jurisdiction
4

The arbitration panel found that AVIC IRE or its subsidiaries
had developed at least five wind turbine projects in the United
States, with additional projects located abroad.
5

Appellees Young, Carter, Jan Family Interests, and the Nolan
Group.
6

One of Catic USA’s non-signatory affiliates also preemptively
sued the claimants, successfully obtaining a judgment declaring
that its “party status to the arbitration [could] only be determined
by a court, and not an arbitrator . . . .” Ascendant Renewable Energy
Corp. v. Tang Energy Grp., Ltd., No. 3:14-CV-3314-K, 2015 U.S.
Dist. LEXIS 103518, at *8 (N.D. Tex. Aug. 4, 2015).

7a
under the FAA. Catic USA and Thompson made
similar arguments before the arbitration panel, which
determined for itself that it was constituted according
to the Agreement’s unambiguous terms.
7

After a five-day hearing, the arbitration panel issued
its final award in favor of the claimants. The panel
determined that “Catic USA breached the [Soaring
Wind] Agreement by its Affiliates engaging in the
‘Business’ of [Soaring Wind Energy].” It further found
that the AVIC group, including Catic USA, “operate[d]
as one entity” and that “AVIC HQ and its wholly
owned subsidiaries created additional subsidiaries
in an attempt to get around its promises made in the
[Soaring Wind] Agreement to Claimants.” The panel
concluded that Catic USA and its non-signatory
Chinese affiliates should be held “jointly and severally
liable to [Soaring Wind] in the amount of $62.9 USD
million” in lost profits owed to the LLC.8
The arbitration panel noted that “[t]he lost profits
set forth in [its] award are due to [Soaring Wind
Energy] for distribution to the Claimants through
their percentages set forth in the [Soaring Wind]
Agreement.” The panel did not, however, stop at
ordering that Catic USA pay the monetary damages:
“[I]n order to prevent [Catic] USA and Thompson from
profiting from their breaches of the [ ] Agreement,” the
panel wrote, “they should be prohibited from receiving
7

AVIC Int’l USA, Inc. v. Tang Energy Grp., Ltd., No. 3:14-CV2815-K, 2015 U.S. Dist. LEXIS 13968 (N.D. Tex. Feb. 5, 2015),
aff’d, 614 F. App’x 218 (5th Cir. 2015) (per curiam).
8

The panel arrived at that amount by accepting AVIC IRE’S
vice president’s admission that the AVIC group had invested
$50 million in wind power projects in the United States. At an
anticipated 15% rate of return, the discounted present value of
the $50 million investment was $62.9 million.

8a
any profit from any award to [Soaring Wind].” Thus,
in addition to the $62.9 million damages, the panel
ordered that “[Catic] USA and Thompson’s equity
interest in [Soaring Wind] should be divested . . . .”9
The claimants sought judicial confirmation of the
arbitral award against Catic USA and its Chinese
affiliates. At the claimants’ request, the district court
bifurcated the proceedings, staying the case against
the Chinese entities.10 The court then confirmed the
award in its entirety against Catic USA. Catic USA
and its Chinese affiliates appeal.
II.
“[C]ourts, including this Court, have an independent
obligation to determine whether subject-matter jurisdiction exists . . . .” Arbaugh v. Y&H Corp., 546 U.S.
500, 514 (2006). Accordingly, we requested nostra
sponte that the parties address federal subject-matter
jurisdiction under either complete diversity or the
New York Convention (“NY Convention”).11
The parties vainly try to taint each other’s assertions with those made in the district court. Catic USA
notes that “diversity jurisdiction,” not jurisdiction
under the NY Convention, “is the only basis for
jurisdiction” that the plaintiffs had invoked. Similarly,
the plaintiffs highlight that, although Catic USA contends that jurisdiction is lacking on appeal, it invoked
9

The panel allowed Catic USA a $350,000 credit for its initial
capital contribution to Soaring Wind.
10

That case, relating most importantly to the Chinese entities’
joint and several liability for Catic USA’s damages, remains
stayed pending the resolution of this appeal.
11

“The Convention on the Recognition and Enforcement of
Foreign Arbitral Awards,” 9 U.S.C. §§ 201 et seq.

9a
the NY Convention when seeking declaratory judgment before arbitration. Those points are irrelevant,
as “[i]t is well settled . . . that the subject matter
jurisdiction of a federal court can be challenged at any
stage of the litigation (including for the first time on
appeal), even by the party who first invoked it.”
Randall & Blake, Inc. v. Evans (In re Canion), 196
F.3d 579, 585 (5th Cir. 1999).
Attempting to sidestep that maxim, the plaintiffs
characterize jurisdiction under the NY Convention—
here, whether a legal relationship bears a “reasonable
relation” to a foreign state—as a “jurisdictional fact”
capable of party admission. But what should amount
to a “reasonable relation” under 9 U.S.C. § 202 is
patently a question of law, not of fact. Catic USA could
certainly admit facts—such as the existence of its
Chinese affiliates or of projects Soaring Wind contemplated abroad—and those binding facts might be
decisive in a jurisdictional inquiry. See State Farm
Fire & Cas. Co. v. Flowers, 854 F.3d 842, 845 (5th Cir.
2017). A party is not, however, bound by its previous
legal arguments as to jurisdiction. See Canion, 196
F.3d at 585.
The district court did not address whether there
is complete diversity, but it appears to have assumed,
without explanation, the applicability of the NY
Convention. We examine de novo the presence of federal
subject-matter jurisdiction, Pershing, LLC v. Kiebach,
819 F.3d 179, 181 (5th Cir. 2016), keeping in mind that
its absence would require dismissal, Arbaugh, 546
U.S. at 506.
A.
For the district court to have diversity jurisdiction
under 28 U.S.C. § 1332, “all persons on one side of the

10a
controversy [must] be citizens of different states than
all persons on the other side” at the time the complaint
was filed. Harvey v. Grey Wolf Drilling Co., 542 F.3d
1077, 1079 (5th Cir. 2008). Catic USA is a California
corporation. It is undisputed that, as of the initiation
of the arbitration, Catic USA was a member of Soaring
Wind, LLC, and because, for diversity jurisdictional
purposes, “the citizenship of a LLC is determined by
the citizenship of all of its members,” id. at 1080,
Soaring Wind was at least at that point a citizen of
California.
The arbitration panel purported to divest Catic USA
of its membership interest in Soaring Wind. The
question is whether that decision alone—absent subsequent judicial confirmation—effected Catic USA’s
termination from Soaring Wind and, consequently,
Soaring Wind’s loss of California citizenship. If not,
this court would lack diversity jurisdiction.
Catic USA contends that diversity jurisdiction is
lacking because the arbitral award divesting it of its
membership in Soaring Wind had no legal effect pending court confirmation. The plaintiffs respond that,
under the freedom of contract recognized under Delaware
law, the Agreement must be interpreted as granting
the arbitration panel “final, binding” authority to
terminate Catic USA’s membership in the LLC.
Plaintiffs’ focus on Delaware’s freedom of contract
misses the point. The question is not whether the
Agreement granted the arbitration panel authority to
issue an award divesting Catic USA of membership.
Even assuming the panel did have such authority, it
is an entirely separate question whether the panel’s
decision had immediate legal effect.

11a
It did not. It is well settled that, absent voluntary
compliance, an arbitral award requires judicial confirmation to effect a change in legal status.12 Plaintiffs’
attempt to characterize the “final, binding” authority
of the panel as including coercive legal authority is
unpersuasive. Such commonly used terms “merely
reflect a contractual intent that the issues joined and
resolved in the arbitration may not be tried de novo in
any court.” M & C Corp. v. Erwin Behr GmbH & Co.,
87 F.3d 844, 847 (6th Cir. 1996). They do not grant
arbitrators “the coercive power to enforce the award”
without being first “transformed into a judgment,
which can be executed with the enforcement mechanism of the state.” Schlumberger, 195 F.3d at 220.
That an arbitral award be “final” does not obviate the
need for judicial confirmation; it only allows for such
confirmation.13
Granted, parties may contract to change membership in an LLC without court approval. It is entirely
different, however, when parties seek an involuntary
termination of membership. Plaintiffs acknowledge
that “a judgment would be needed, for example, to
enforce a damages award by levying the judgment
debtor’s assets.” But equity interest in an LLC is also
an asset, an involuntary transfer of which no arbitrator may effect without judicial confirmation.
12

Schlumberger Tech. Corp. v. United States, 195 F.3d 216, 220
(5th Cir. 1999); see also Mulhall v. UNITE HERE Local 355, 618
F.3d 1279, 1293 (11th Cir. 2010); D.H. Blair & Co. v. Gottdiener,
462 F.3d 95, 104 (2d Cir. 2006); Suter v. Munich Reins. Co., 223
F.3d 150, 156 (3d Cir. 2000); Camping Constr. Co. v. Dist. Council
of Iron Workers, 915 F.2d 1333, 1347-48 (9th Cir. 1990).
13

See Grissom v. Nationwide Mut. Ins. Co., 599 A.2d 1086,
1090 (Del. Ch. 1991) (“The general rule is that an Arbitration
Award may be confirmed only if it is a final decision.”).

12a
The plaintiffs are correct that the Agreement does
not mandate judicial review of arbitration awards.
Indeed, it specifies that an arbitral award “may be
filed in any court of competent jurisdiction and may be
enforced by any Disputing Member as a final judgment of such court.” But the “optional” nature of
judicial review here does not mean, as plaintiffs contend,
that the arbitral award has inherent legal effect.
Instead, judicial confirmation would be unnecessary
(or “optional”) should all parties voluntarily acquiesce
to the award. Catic USA has not done so, which is
precisely why plaintiffs seek judicial confirmation.
B.
Even without diversity of citizenship, this court
would have jurisdiction should this case relate to an
arbitration agreement or award “falling under” the
NY Convention.14 It is undisputed that the action to
confirm the award “relates to” the award; the question
is whether that award “falls under” the Convention.
An “arbitral award arising out of a legal relationship”
between U.S. citizens falls under the Convention if
that “relationship involves property located abroad,
envisages performance or enforcement abroad, or has
some other reasonable relation with one or more
foreign states.”15
Catic USA contends that the Agreement does not
involve property abroad and does not reasonably relate
to a foreign state. Catic USA suggests that this court
remand with instruction to determine whether its non14

9 U.S.C. § 203; see also Stemcor USA Inc. v. CIA Siderurgica
do Para Cosipar, 927 F.3d 906, 909 (5th Cir. 2019) (on pet. for
reh’g).
15

9 U.S.C. § 202; see also Freudensprung v. Offshore Tech.
Servs., Inc., 379 F.3d 327, 339-40 (5th Cir. 2004).

13a
signatory Chinese corporate affiliates were party to
the Agreement and whether the agreement contemplated performance abroad. If the answer to both
questions be no, then there would be no subject matter
jurisdiction.
The plaintiffs respond that the Agreement has a
reasonable relation to China. They note that Catic
USA is a subsidiary of AVIC IHC, which is itself a
subsidiary of AVIC HQ—a state-owned enterprise of
the People’s Republic of China. They further note the
arbitrators’ finding that “AVIC HQ exercised such
complete control” over Catic USA so that the two companies “operate[d] as one entity,” and “[w]hen [Catic]
USA signed the [Soaring Wind] Agreement, it was
doing so on orders from AVIC HQ.” According to the
plaintiffs, “the Chinese entities’—and Chinese state’s—
involvement pervaded the parties’ relationship,” conferring jurisdiction under the Convention.
There is no question that the relationship among the
parties broadly relates to China. Tang Energy had
partnered with AVIC HQ16 on projects within Chinese
territory from 1997 through the mid-2000s. The success
of those projects inspired them to create Soaring Wind,
conceived as a partnership between Tang and AVIC
HQ’s U.S. subsidiary. The pre-Agreement Memorandum
of Understanding envisioned that 9.5% of Soaring
Wind’s equity would be owned by AVIC HQ, whose
“offices and employees in China [would] be available
for support as needed.”17 An AVIC HQ vice president—
16

At the time, the Chinese umbrella AVIC organization was
known as “Catic.”
17

The eventual Agreement differed from the Memorandum of
Understanding by not mentioning Catic International and by
increasing Catic USA’s profit interest.

14a
who held no position in Catic USA—signed that
Memorandum on Catic USA’s behalf. Following the
creation of Soaring Wind, Tang contracted separately
with one of Catic USA’s Chinese affiliates to obtain
$300 million in financing for wind power project
development. Plaintiffs are thus correct in stating that
“[a]lthough only United States citizens signed the
Soaring Wind Agreement, the parties’ relationship
both (i) involved Chinese citizens, including arms of
the Chinese government, and (ii) had a reasonable
relation to China.”
The statute, however, concerns not the “parties’
relationship” but the “legal relationship” whence
the arbitral award arose. 9 U.S.C. § 202. That legal
relationship is the Agreement, which plaintiffs accuse
Catic USA of violating and which provided the basis
for the underlying arbitration. We look, therefore, not
to the general relationship among the parties but to
the foreign character, if any, of the Agreement itself.
It is not dispositive that Catic USA, as signatory to
the Agreement, is a subsidiary of a Chinese corporate
umbrella. Congress has not granted federal jurisdiction whensoever there exist a legal relationship bearing
any reasonable relation with a foreign state; more
precisely, it has specified there be “some other reasonable relation” with a foreign state. Id. (emphasis
added). The “reasonable relation” is thus limited18; it
must be akin to “involv[ing] property located abroad”
or “envisag[ing] performance or enforcement abroad”—
18

“[W]here general words follow specific words in an enumeration . . , the general words are construed to embrace only objects
similar in nature to those objects enumerated by the preceding
words.” William N. Eskridge, Jr., INTERPRETING LAW 77 (2016)
(quoting 2A SUTHERLAND STATUTES AND STATUTORY CONSTRUCTION § 47:17 (7th ed. 2015)).

15a
that is, the relationship must contemplate overseas
action or involvement. See id.; see also Yates v. United
States, 135 S. Ct. 1074, 1086-87 (2015) (plurality opinion)
(discussing the textual canon of ejusdem generis). It
might be enough if an agreement “call[] . . . for
meetings to be held in” a foreign country or if it should
“contain a list of mandatory [foreign] vendors . . . .”19 It
is not enough, however, that one party, though a U.S.
citizen, should happen to bear foreign corporate
parentage.20
The Agreement makes explicit reference neither to
China nor to any Chinese citizen, nor even to any
foreign place or entity.21 Aside from a generic, stated
purpose “to provide worldwide marketing” in wind
energy, the Agreement appears to evince a domestic
character: It creates a Delaware company, comprised
entirely of U.S. citizen-members, with a principal
place of business in Texas. As per the Agreement, the
underlying arbitration proceeded in Texas, under
Delaware substantive law. In short, it would appear

19

Outokumpu Stainless USA LLC v. Converteam SAS, No. 1600378-KD-C, 2017 U.S. Dist. LEXIS 11995, at *16 (S.D. Ala. Jan.
30, 2017), aff’d in relevant part, 902 F.3d 1316 (11th Cir. 2018),
cert. granted, 139 S. Ct. 2776 (2019).
20

See Access Info. Mgmt. of Haw., LLC v. Shred-It Am., Inc.,
No. 10-00622, 2010 U.S. Dist. LEXIS 116862, at *17 (D. Haw.
Nov. 2, 2010) (“[I]t is irrelevant to the inquiry that [the defendant]
is a wholly-owned subsidiary of a [foreign] corporation . . . .”);
Williams v. Deutsche Bank AG, No. 3:05-CV-1395-N, 2006 U.S.
Dist. LEXIS 75426, at *13 (N.D. Tex. Feb. 9, 2006) (“[T]hat a
domestic signatory of the agreement is a subsidiary of a foreign
corporation . . . does not give the arbitration agreement a
‘reasonable relation’ with a foreign state.”).
21

The contract’s “Definitions” section specifies that “CATIC”
refers to “CATIC (USA), a California corporation.”

16a
on its face that the Agreement bears no relation to
China (or any other foreign state).
Our analysis of the Agreement’s relation to a foreign
state does not, however, end at the four corners of the
contract.22 The Agreement specifies that a member
would be in breach should its “[a]ffiliate] . . . participate in wind farm land development projects . . . except
through an entity owned by both [Soaring Wind
Energy] and CATIC . . . .” Such “affiliates” of Catic
USA include a variety of Chinese entities, a fact
of which the contracting parties were well aware. A
Chinese entity’s actions on foreign soil could (and
did) trigger breach for one of the LLC’s (domestic)
members. Moreover, the arbitral award holds those
Chinese affiliates jointly and severally liable for damages to the claimants. Such factors are enough for the
Agreement to bear a relation to China sufficient for
federal jurisdiction under the NY Convention.
III.
“We review a district court’s order confirming an
arbitration award de novo [and] may affirm the district
court’s decision on any basis presented to the district
court and argued in the district court.” Light-Age, Inc.
v. Ashcroft-Smith, 922 F.3d 320, 322 (5th Cir. 2009)
(per curiam). Despite that, “our review of the arbitrator’s award itself . . . is very deferential.” Timegate
Studios, Inc. v. Southpeak Interactive, LLC, 713 F.3d
797, 802 (5th Cir. 2013). Indeed, this court may vacate
22

See, e.g., ChampionsWorld, LLC v. US. Soccer Fed’n, Inc.,
890 F. Supp. 2d 912, 927 (N.D. Ill. 2012) (looking to the foreign
“nature” of the business); Nomanbhoy v. Vahanvaty, No. 11-C2456, 2011 U.S. Dist. LEXIS 147033, at *25-26 (N.D. Ill. Dec. 21,
2011) (evaluating extracontractual testimony to determine whether
the parties envisaged performance abroad).

17a
the award only if “the arbitrators exceeded their
powers”23 by acting “contrary to express contractual
provisions”24 or if the award otherwise violates the
NY Convention.25 Even then, appellants face a heavy
burden, as “[a] reviewing court examining whether
arbitrators exceeded their powers must resolve all
doubts in favor of arbitration.” Rain CII Carbon, LLC
v. ConocoPhillips Co., 674 F.3d 469, 472 (5th Cir.
2012).
Seeking to vacate the award, Catic USA and its
Chinese affiliates advance three theories: (1) The
district court erred by confirming the award without
first reviewing the arbitrators’ power over Catic
USA’s Chinese affiliates; (2) the arbitration panel
was improperly constituted; and (3) the award
includes speculative or punitive damages rendering it
unenforceable.
A.
Catic USA suggests that the district court could
not have confirmed the arbitral award without first
determining that the company’s Chinese affiliates
were subject to arbitration. It notes that the arbitration panel first found the affiliates to be subject to
arbitration, then drew an adverse inference from their
refusal to participate. Without that inference, Catic
USA contends, the arbitrators had no basis for finding
breach.
The panel’s inference that one or more of Catic
USA’s affiliates financed a wind power development
23

9 U.S.C. § 10(a)(4).

24

Beaird Indus., Inc. v. Local 2297, Int’l Union, 404 F.3d 942,
946 (5th Cir. 2005).
25

See 9 U.S.C. § 207.

18a
project in violation of the Agreement was based on
more than the affiliates’ non-participation in the arbitration. First, the panel had access to AVIC IRE Vice
President Xu Hang’s e-mail that “AVIC International
[had] already provided a total of $50 million USD in
financing to wind power projects in the US,” none
of which had flowed to Soaring Wind. Second, the
AVIC Group’s press releases and online publications
referenced ongoing (non-Soaring Wind) wind-power
development projects. Catic USA failed to provide any
meaningful rebuttal to such evidence.
Catic USA made its proverbial bed; therein it must
lie. The company signed an agreement specifying that
the actions of its affiliates could constitute its own
breach. Whether Catic USA’s non-signatory affiliates
themselves be subject to the arbitration is irrelevant:
Catic USA “assum[ed] the obligation of its affiliates’
performance.”26 The arbitration panel reasonably found
that a breach had occurred; given the deference owed
to the panel,27 we decline to disturb that finding.
B.
Catic USA claims that the panel was improperly
constituted. It notes that one side (the plaintiffs)
26

Xtria LLC v. Tracking Sys., Inc., No. 3:07-CV-0160-D, 2007
U.S. Dist. LEXIS 68997, at *10 (N.D. Tex. Sept. 18, 2007).
27

Catic USA attempts to frame the issue as akin to whether
its Chinese affiliates were subject to the Agreement, a question
undisputedly outside the traditional deference given to arbitrators.
See Bridas S.A.P.I.C. v. Gov’t of Turkm., 345 F.3d 347, 354 (5th
Cir. 2003). But the answer to that question is immaterial to the
issue at hand, which is whether conduct occurred triggering Catic
USA’s breach. That “is a question of fact,” Tex. Capital Bank N.A.
v. Dall. Roadster, Ltd. (In re Dall. Roadster, Ltd.), 846 F.3d 112,
127 (5th Cir. 2017), the resolution of which we generally leave to
the arbitrators.

19a
appointed five arbitrators, the other side (Catic USA
and Thompson) only two. That method of selection was
against the terms of the contract, which, according to
Catic USA, required an equal number of appointed
arbitrators per side. Because the panel was improperly
selected, Catic USA contends, this court owes no deference to its award.
In addition, Catic USA’s Chinese affiliates contend
that—even assuming the Agreement’s process of appointing arbitrators were followed—the result nevertheless violated the NY Convention’s due process
and public policy requirements. They aver that it was
fundamentally unfair (and therefore invalid under the
Convention) for one side to appoint more than twice as
many arbitrators as the other. As this court must
observe “the [Convention’s] grounds for refusal . . . of
recognition or enforcement of the award,” 9 U.S.C.
§ 207, the Chinese companies suggest we set the
award aside.
1.
The Federal Arbitration Act requires that “[i]f in the
agreement provision be made for a method of naming
or appointing an arbitrator or arbitrators or an umpire,
such method shall be followed . . . .” Id. § 5. Arbitrators
appointed contrary to the contract necessarily “exceed[]
their powers,” id. § 10(a)(4), and, in such a case,
“judicial deference is at an end,” PoolRe Ins. Corp. v.
Org. Strategies, Inc., 783 F.3d 256, 262 (5th Cir. 2015).
Catic USA is thus correct that, should the selection
of the arbitration panel fundamentally “depart[] from
the contractual selection process,” vacatur would be
the appropriate remedy. Id. at 263.
There was no such departure. Catic USA notes “that
there were only two sides in this dispute,” but the

20a
Agreement contemplates the number of parties, not
the number of sides. The Agreement lists seven total,
signatory “Members.”28 For a dispute under the Agreement, “each Member that is a party to such Dispute
is . . . a ‘Disputing Member.’” And each Disputing
Member would have the opportunity to “name an Arbitrator (or otherwise agree in writing to the Arbitrator(s)
therefore chosen as its designated arbitrator).” This
case involves two sides, but, more importantly, it
features seven members; suppose Eris had tossed the
Apple of Discord into a Soaring Wind conference room,
prompting a free-for-all among the parties—the arbiter
selection process would have remained the same.
This court already noted that “AVIC [was] asking us
to rewrite their agreement’s arbitration provision to
require that every arbitration among these multiple
parties comprise only two ‘sides’ . . . [and] precisely
three arbitrators . . . .” AVIC Ina, 614 F. App’x at 219.
Catic USA has since clarified that its proffered reading
allows for more than two “sides” to a dispute (and more
than three arbitrators) but nevertheless requires each
“side” have equal say in arbitrator selection. But as
stated above, the Agreement contemplates the number
of parties, not the number of sides. Given that Catic
USA does not (and cannot) seriously question that
each Claimant is “a party to [the] Dispute,” it cannot
escape the conclusion that the Agreement’s written
procedure was followed.
Catic USA would therefore have us hold that
following the text of the Agreement in this case leads
to “absurd results.” Under the Agreement, Catic USA
28

CATIC (USA), also known as AVIC USA; Tang Energy
Group, Ltd.; Keith P. Young; Mitchell W. Carter; Jan Family
Interests, Ltd.; The Nolan Group, Inc.; Paul E. Thompson.

21a
posits, “ten minority shareholders . . . could unite
together to eject a majority shareholder that controls
90% of the LLC from membership . . . [by] appointing
ten of the eleven arbitrators to rubber-stamp its coup.”
As in this case, Catic USA submits, “the formation of
a stacked, unfair arbitration panel is an absurd result
to which no reasonable party would ever agree.”
But the risk of such an occurrence is precisely within
the plain terms to which Catic USA agreed. Catic USA
urges this court not to choose from among competing,
reasonable interpretations but to discard the plain
text of the Agreement out of so-called fairness. “It is
not the court’s role to rewrite the contract between
sophisticated market participants, allocating the risk
of an agreement after the fact, to suit the court’s sense
of equity or fairness.”29 One must assume that Catic
USA did not expect to be outnumbered in any dispute
falling under the Agreement; that its expectations
were frustrated does not render the Agreement absurd
or unfair.
2.
Federal courts are to enforce the NY Convention.30
Its Article V(1)(b) provides that a court may refuse to
recognize or enforce an award where “[t]he party
against whom the award is invoked was not given
proper notice of the appointment of the arbitrator or of
the arbitration proceedings or was otherwise unable to
present his case . . . .” This court has construed that
passage as “essentially sanction[ing] the application
29

Wal-Mart Stores, Inc. v. MG Life Ins. Co., 872 A.2d 611, 624
(Del. Ch. 2005), rev’d in part on other grounds, 901 A.2d 106 (Del.
2006).
30

9 U.S.C. § 201; see also Recognition and Enforcement of
Foreign Arbitral Awards, Dec. 29, 1970, 21 U.S.T. 2517.

22a
of the forum state’s standards of due process, in this
case, United States standards of due process.” Karaha
Bodas Co. v. Perusahaan Pertambangan Minyak Dan
Gas Bumi Negara, 364 F.3d 274, 298 (5th Cir. 2004)
(quotation marks omitted). The hearing must “meet[]
the minimal requirements of fairness—adequate notice,
a hearing on the evidence, and an impartial decision
by the arbitrator” once the parties have had “an
opportunity to be heard at a meaningful time and in
a meaningful manner.” Id. at 299 (quotation marks
omitted).
Catic USA’s Chinese affiliates claim that the arbitration proceedings violated due process, reasoning
that because the two sides appointed an unequal number
of arbitrators, the panel’s decision could not have been
impartial. That contention, when taken to its logical
conclusion, would require this court to invalidate any
arbitral award not issued by an evenly appointed panel.
We reject that notion. The Agreement was not a
contract of adhesion but a bespoke deal made between
extremely sophisticated parties. The Agreement did
not inherently favor one party or another; it just
so happened that Catic USA was outnumbered. The
agreed-upon selection process was followed to the letter:
Catic USA and Thompson selected the arbitrators and
received the process they were due.
C.
Catic USA contends that, even assuming the panel
was properly constituted, the award is improper.
Specifically, Catic USA claims that the panel exceeded
its authority by awarding speculative and punitive
damages in violation of the Agreement’s written terms.
Catic USA notes that the Agreement expressly foreclosed any liability among members or affiliates for

23a
“exemplary, punitive, special, indirect, consequential,
remote, or speculative damages,” and the Agreement
denied any arbitrator the power to award such damages.
Catic USA contends (1) that the panel’s estimation of
lost profits was speculative and (2) that by divesting
Catic USA of its LLC membership interest yet holding
it liable for the LLC’s total estimated lost profits, the
award was punitive. Catic USA suggests that, because
the award reflects an abuse of the panel’s authority,
this court vacate and remand for further proceedings.
An “arbitral action contrary to express contractual
provisions will not be respected on judicial review.”
Executone Info. Sys., Inc. v. Davis, 26 F.3d 1314,
1325 (5th Cir. 1994) (quotation marks omitted). The
Agreement explicitly stated that “[t]he Arbitrators
shall have no authority to award special, exemplary,
punitive or consequential damages.” Thus, the contract
itself “limited the arbitrator’s own authority.” Timegate,
713 F.3d at 805 n.17. We generally defer to arbitrators’
interpretation of their own authority, see Rain, 674
F.3d at 472, but if the panel exceeded its authority, “it
would be incumbent upon us to vacate [the] award, in
spite of the discretion typically granted to arbitral
decisions,” Bridas, 345 F.3d at 365.
1.
“[T]he standard remedy for breach of contract is
based upon the reasonable expectations of the parties
ex ante.” Siga Techs., Inc. v. PharmAthene, Inc., 132
A.3d 1108, 1130 (Del. 2015). Such damages “must be
proven with reasonable certainty, and no recovery can
be had for loss of profits which are determined to be
uncertain, contingent, conjectural, or speculative.” Id.
at 1131 (quotation marks omitted). At the same time,
“certain presumptions apply when evaluating harm
and loss. Where the injured party has proven the fact

24a
of damages . . , less certainty is required of the proof
establishing the amount of damages.” Id. (emphases
in original). Thus, “[r]esponsible estimates that lack
mathematical certainty are permissible so long as the
court has a basis to make a responsible estimate of
damages.” Del. Express Shuttle, Inc. v. Older, No.
19596, 2002 Del. Ch. LEXIS 124, at *60 (Del. Ch. Oct.
23, 2002). And on the margins, it is an “established
presumption that doubts about the extent of damages
are generally resolved against the breaching party.”
Siga, 132 A.3d at 1131.
The award is based on much more than speculation.
Having found that Catic USA breached the agreement
by investing (via an affiliate) at least $50 million in
wind-farm development in an outside entity, the arbitration panel was tasked with estimating claimants’
resulting lost profits, if any. The panel found that
Catic USA’s affiliated AVIC group would invest in any
given project only if it anticipated a minimum 15%
return; it then discounted that return to determine the
present value of the lost profits.
Catic USA does not contest that AVIC’s anticipated
rate of return was 15% or that the panel employed an
appropriate discount rate; instead, it attacks the
panel’s assumption that AVIC’s investment did (or
would) generate profits. It is true that, although the
amount of lost profits may be estimated, claimants
generally “must show that there would [have been]
some future profits” but for the breach. Id. at 1133
(emphasis added). But in this case, Catic USA has
refused to provide the relevant information, and it was
thus within the arbitration panel’s authority to infer
that AVIC’s investment was indeed profitable. See id.
at 1131 n.132 (noting that damages may be inferred

25a
when uncertainty results from the breaching party’s
own actions).
2.
“Historically, damages for breach of contract have
been limited to the non-breaching parties’ expectation
interest.” E.I. DuPont de Nemours & Co. v. Pressman,
679 A.2d 436, 445 (Del. 1996). “Punitive damages . . .
increase the amount of damages in excess of the promisee’s expectation interest . . . .” Id. at 446. The
Agreement explicitly denied arbitrators the authority
to award punitive damages. “Thus, if punitive damages
were indeed awarded in this case, it would be incumbent upon us to vacate such an award, in spite of the
discretion typically granted to arbitral decisions.”
Bridas, 345 F.3d at 365.
Catic USA contends that the panel issued what are
effectively punitive damages. Given the panel’s determination that Catic USA’s breach denied Soaring
Wind $62.9 million in lost profits, claimants would be
owed expectation damages of $31.45 million to reflect
their 50% interest in the company. But by awarding
the full $62.9 million while simultaneously divesting
Catic USA and Thompson of their equity interest,
Catic USA suggests, the panel granted the claimants
what is, in substance, double their expected damages.
The panel acknowledged that “[t]he lost profits set
forth in [its] award are due to [Soaring Wind] for
distribution to the Claimants through their percentages set forth in the [ ] Agreement.” Insofar as it
divested Catic USA and Thompson of their equity
interests, the award served not necessarily to compensate the claimants or the LLC but “to prevent [Catic]
USA and Thompson from profiting from their breaches.”

26a
Although the panel did not have the authority to
issue punitive damages, it did possess powers to grant
court-enforceable injunctive relief. The question thus
is whether the divestment constitutes permissible
injunctive (or equitable) relief or improper punitive
damages.
It is the former. The panel divested Catic USA and
Thompson of their interest in Soaring Wind to prevent
them from receiving incidental benefit for breaching
their duties, duties owed not only to the other members
of the LLC but also to the LLC itself. Unlike punitive
damages, which are based on a perceived reprehensibility of the breaching party’s actions or flow from a
desire to make examples of them, see E.I. DuPont,
679 A.2d at 445-46, the divestment operates to
achieve what the panel considered a fair result. Such
concern—that relief not only compensate parties
financially but also achieve a just outcome, ex aequo et
bono—is precisely a matter of equity.31 Catic USA’s
theory that the divestment effectively doubles the
damages—and is therefore substantively indistinguishable from punitive damages—is well taken, but, given
the broad scope of “equitable” relief,32 combined with
the deference we must grant the arbitration panel,33
we decline to set aside the divestment as punitive and
not equitable.
The judgment confirming the arbitration award is
AFFIRMED.

31

See 1 J. POMEROY, EQUITY JURISPRUDENCE § 363, at 8-9 (5th
ed. 1941).
32

See Great-W. Life & Annuity Ins. Co. v. Knudson, 534 U.S.
204,212-18 (2002).
33

See Rain, 674 F.3d at 472.

27a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed September 17, 2018]
————
Civil Action No. 3:15-CV-4033-K
————
SOARING WIND ENERGY, LLC, TANG ENERGY GROUP,
LTD., THE NOLAN GROUP, INC., MARY YOUNG
(INDIVIDUALLY AND AS INDEPENDENT EXECUTRIX
OF THE ESTATE OF KEITH P. YOUNG), MITCHELL W.
CARTER, and JAN FAMILY INTERESTS LTD.,
v.

Movants,

CATIC USA, INC.
(a.k.a. AVIC INTERNATIONAL USA, INC.),
Respondent.
————
AMENDED FINAL JUDGMENT
This Amended Final Judgment is entered pursuant
to the Court’s Order Confirming Arbitration Award of
August 9, 2018, in which the Court granted the
Movants’ motion to confirm the arbitration award, and
denied Respondent’s motion to vacate the arbitration
award. It is ORDERED, ADJUDGED and DECREED
that the arbitration award dated December 21, 2015 is
hereby confirmed as to Respondent AVIC International
USA, Inc. (“AVIC USA”). There are no further pending
claims in this case.

28a
It is ORDERED that:
1. The Court confirms the award to Soaring Wind
Energy, LLC (“SWE”) of damages against AVIC USA,
in the total amount of $62,900,000.00 USD, less AVIC
USA’s capital contribution in SWE, plus post judgment interest at the rate of 5% per year, beginning
from December 21, 2015.
2. The Court confirms the award to Tang Energy
Group, Ltd. (“Tang”) against AVIC USA, $897,730.72
USD for fees paid directly to the AAA/ICDR for
administrative fees and arbitrator compensation.
3. The Court confirms the award to Tang against
AVIC USA of $3,719,533.23 USD in reasonable
attorneys’ fees and expenses as of December 21, 2015.
4. The Court confirms the award to Tang against
AVIC USA of $1,200,000.00 USD in legal fees and
expenses Movants would reasonably incur in the event
Movants are required to obtain a judgment confirming
the arbitration award and effect service on multiple
defendants through the Hague Convention.
5. The Court confirms the award to Tang against
AVIC USA of $500,000.00 USD in legal fees and
expenses that Movants will reasonably incur if they
are required to attempt collection of the arbitration
award.
6. The Court confirms the award to Tang against
AVIC USA of $250,000.00 USD in legal fees and
expenses in the event Movants are successful in any
appeal of this Court’s judgment confirming the arbitration award.
7. The Court confirms the award to Tang against
AVIC USA of $50,000.00 USD in legal fees and
expenses in the event Movants are required to respond

29a
to a petition for writ of certiorari to the United States
Supreme Court.
8. The Court confirms the award to Tang against
AVIC USA of $150,000.00 USD in legal fees and
expenses in the event the United States Supreme
Court grants review and Movants are successful.
9. The Court confirms the award to Tang against
AVIC USA of $1,875,264.71 USD for Tang’s arbitration expenses including without limitation, experts’
fees and expenses, all costs associated with depositions,
mediation, arranging facilities, graphics, and trial
consultation.
10. The Court confirms the award that AVIC USA’s
membership interest in SWE is divested and belongs
to Tang, Jan Family Interests, Ltd. (“JFI”), The Nolan
Group (“Nolan”), Mitchell W. Carter (“Carter”) and
Keith P. Young (“Young”) in proportion to their
ownership interests in SWE.
Furthermore, it is ORDERED, ADJUDGED and
DECREED that all costs of court are taxed against the
party incurring the same.
SO ORDERED.
Signed September 17th, 2018.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

30a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed August 9, 2018]
————
Civil Action No. 3:15-CV-4033-K
————
SOARING WIND ENERGY, LLC, TANG ENERGY GROUP,
LTD., THE NOLAN GROUP, INC., MARY YOUNG
(INDIVIDUALLY AND AS INDEPENDENT EXECUTRIX OF
THE ESTATE OF KEITH P. YOUNG), MITCHELL W.
CARTER, and JAN FAMILY INTERESTS, LTD.,
Movants,
v.
CATIC USA, INC.
(a.k.a. AVIC INTERNATIONAL USA, INC.),
Respondent.
————
ORDER CONFIRMING ARBITRATION AWARD
Before the Court are: (1) Movants Soaring Wind
Energy, LLC, Tang Energy Group, Ltd., The Nolan
Group, Inc., Keith P. Young, Mitchell W. Carter,
and Jan Family Interests Ltd.’s Motion to Confirm
Arbitration Award Against Respondent AVIC International USA, Inc. and Motion to Confirm Arbitration
Award Against All Other Respondents (Doc. No. 1);
and (2) Respondent AVIC International USA, Inc.’s
Motion to Vacate Arbitration Award (Doc. No. 157).
The Court has carefully reviewed the motions, responses,
replies, the extensive record, the applicable law, and

31a
the arbitration award. The Court finds no grounds
upon which it must vacate, modify, or correct the
arbitration award as to Respondent AVIC USA, Inc.
(“AVIC USA”). See 9 U.S.C. § 9-11. The Court must
confirm the arbitration award against AVIC USA
because the arbitrators’ ruling as to the liability of
AVIC USA “‘draws its essence’ from the Soaring Wind
Energy Agreement. Accordingly, the Court GRANTS
Movants’ Motion to Confirm Arbitration Award Against
Respondent AVIC International USA, Inc. and DENIES
Respondent AVIC USA’s motion to vacate the arbitration award.
I. Factual and Procedural Background
In 2008, Soaring Wind Energy, LLC (“SWE”) was
created with a Limited Liability Company Agreement
(“the Agreement” or “the SWE Agreement”). The
members of SWE are Respondent AVIC USA, nonparty Paul E. Thompson (“Thompson”), and Movants
Tang Energy Group, LLC (“TEG”), Keith P. Young,
Mitchell W. Carter, Jan Family Interests, Ltd., and
The Nolan Group, Inc. (collectively “Movants”). AVIC
USA held a 50% membership in SWE, while the five
Movants held the other 50% membership in varying
percentages. The Agreement defined the purpose and
nature of SWE’s business:
The purpose and nature of the business to
be conducted by the Company shall be to
provide worldwide marketing of wind energy
equipment, services and materials related to
wind energy including, but not limited to,
marketing wind turbine generator blades and
wind turbine generators and developing wind
farms (the “Business”), and to engage in any
other business or activity that now or hereafter may be necessary, incidental, proper,

32a
advisable or convenient to accomplish the
foregoing purposes (including the borrowing
of money and the investment of funds) and
that is not forbidden by the law of the
jurisdiction in which the Company engages in
that business.
The Agreement also contains a Dispute Resolution
section (“Arbitration Provision”) requiring disputes to
be resolved in binding arbitration. The Arbitration
Provision of the Agreement provides for the following
process:
(a) The Disputing Member desiring to initiate arbitration in connection with any Dispute
shall notify the other Disputing Members in
writing, which notice shall provide the name
of the Arbitrator appointed by the Disputing
Member, demand arbitration and include a
statement of the matter in controversy.
(b) Within 15 days after receipt of such
demand, each other Disputing Member
receiving notice of the Dispute shall name an
Arbitrator. . . . The Arbitrators so selected
shall within 15 days after their designation
select an additional Arbitrator. . . . In the
event that there are more than two Disputing
Members to the Dispute, then unless otherwise agreed by the Disputing Members, the
Arbitrators selected by the Disputing Members
shall cause the appointment of either one or
two Arbitrators as necessary to constitute an
odd number of total Arbitrators hearing the
Dispute.
It defines “Disputing Member” as “each Member that
is a party to such Dispute.” “Member” is defined as

33a
“either a Class A Member or a Class B Member, or any
Person hereafter admitted to the Company as a
member as provided in this Agreement, but such term
does not include any Person who has ceased to be a
member in the Company.”
In June 2014, TEG filed a Demand for Arbitration,
joined by the other Movants, asserting a claim for breach
of Agreement against the Respondents—Signatories
AVIC USA and Thompson as well as the Non-Signatory
Respondents Aviation Industry Corporation of China,
China Aviation Industry General Aircraft Co., Ltd.,
AVIC International Holding Corp., AVIC International
Renewable Energy Corp., and CATIC TED, Ltd. (collectively “Non-Signatories”). The Non-Signatories are
foreign companies. After the arbitration demand was
made, each SWE member selected an arbitrator for a
total of seven (7) arbitrators being selected—one each
by AVIC USA and Thompson, as well as one by each
of the five Movants. Following the process set out in
the Arbitration Provision, those seven arbitrators then
selected two additional arbitrators, resulting in a
nine-member arbitration panel (“the Panel”) in the
proceeding. The Panel later permitted SWE to
intervene as a party to the Arbitration. The NonSignatory Respondents objected to any attempt to
subject them to arbitration, and provided notice that
they would not participate in the arbitration.
On August 5, 2014, after the Panel had been
composed but before an arbitration award had issued,
AVIC USA filed a complaint for declaratory judgment,
seeking the Court’s intervention related to the composition of the Panel and also a stay of the arbitration
proceedings. AVIC Int’l USA, Inc. v. Tang Energy Grp.,
Ltd., Civil Action No. 14-CV-2815-K (“AVIC USA I
case”) (Doc. No. 1). The Court granted Defendant

34a
TEG’s motion to dismiss, finding the Court had no
jurisdiction to address AVIC USA’s claims or grant the
relief requested. AVIC Int’l USA, Inc. v. Tang Energy
Grp., Ltd., Civil Action No. 14-CV-2815-K, 2015 WL
477316, at 4-5 (N.D. Tex. Feb. 5, 2015). The Fifth
Circuit affirmed this Court’s ruling. AVIC Int’l USA,
Inc. v. Tang Energy Grp., Ltd., 614 F. App’x 218, 219
(5th Cir. 2015) (“AVIC USA I appeal”).
On September 12, 2014, again before an arbitration
award had issued, Ascendant Renewable Energy
Corporation (“Ascendant”), a named Respondent in
the arbitration but a non-signatory to the SWE Agreement, filed a complaint for declaratory judgment.
Ascendant Renewable Energy Corp. v. Tang Energy
Grp., Ltd., Civil Action No. 14-CV-3314-K (“Ascendant
case”) (Doc. No. 1). Ascendant sought a stay of the
arbitration and a declaration from the Court regarding
its party status to the arbitration, including whether
the Panel or a court must determine if Ascendant was
a proper party to the arbitration as a non-signatory to
the SWE Agreement which contained the arbitration
provision. Id. (Doc. No. 1). On August 4, 2015, the
Court granted Ascendant’s motion for summary
judgment, declaring:
(1) whether Ascendant, a non-signatory to
the Agreement, can be subject to arbitration
based on the arbitration clause of the Agreement is for a court, not the arbitration panel,
to decide because Ascendant disputes the
very existence of an agreement between these
parties; and (2) because the existence of any
agreement between these parties is in dispute,
any determination by the arbitration panel
as to the jurisdiction over Ascendant is not
controlling on a court.

35a
Ascendant Renewable Energy Corp. v. Tang Energy
Grp., Ltd., Civil Action No. 14-CV3314-K, 2015 WL
4713240, at * 3 (N.D. Tex. Aug. 4, 2015). The Court
denied as moot the requested stay. No appeal was
taken in that matter.
The arbitration hearing occurred August 10-14,
2015. On December 21, 2015, the Panel issued their
Final Award. The panel concluded, in relevant part,
that: (1) the SWE members vested the Panel with
authority to determine their own jurisdiction, including arbitrability of any claim or defense, such as any
dispute related to the interpretation or construction of
any provision in the Agreement; (2) AVIC USA’s
“Affiliates”, as defined in the Agreement, engaged in
the “Business” of SWE in violation of the Agreement’s
covenant not to compete; (3) AVIC USA as a Signatory
was liable for its Affiliates’ breach of the Agreement;
(4) the Movants were entitled to damages for lost
profits relating to the breach and AVIC USA should be
divested of its membership interest in SWE; (5) SWE
properly intervened to assert its own claims for
damages; (6) SWE was entitled to $62.9 million in
damages and TEG was entitled to arbitration fees,
attorneys’ fees, and expenses (up through a final
appeal to the United States Supreme Court) allocated
against all Respondents except Thompson; and (7) the
Movants were the “prevailing Members” as defined in
the Agreement.
Before the Court now are the Movant’s motion to
confirm the arbitration award and the AVIC USA’s
motion to vacate the arbitration award.
II. Applicable Law
There is a strong federal policy favoring arbitration,
as reflected in the Federal Arbitration Act (“FAA”). See

36a
Hall St. Assocs., L.L.C. v. Mattel, Inc., 552 U.S. 576,
586-590 (2008). “Judicial review of an arbitration
award is extraordinarily narrow and [the courts] should
defer to the arbitrator’s decision when possible.” Antwine
v. Prudential Bache Sec., Inc., 899 F.2d 410, 413 (5th
Cir. 1990); see Rain CII Carbon, LLC v. ConocoPhillips
Co., 674 F.3d 469, 471-72 (5th Cir. 2012); Brabham v.
A.G. Edwards & Sons Inc., 376 F.3d 377, 385 (5th Cir.
2004)(“Our established rules of deference foreclose
all but the most limited review.”). The FAA permits a
district court to vacate an arbitration award in these
very limited circumstances:
(1) where the award was procured by corruption, fraud, or undue means;
(2) where there was evident partiality or
corruption in the arbitrators, or either of them;
(3) where the arbitrators were guilty of
misconduct in refusing to postpone the hearing, upon sufficient cause shown, or in refusing
to hear evidence pertinent and material to the
controversy; or any other misbehavior by
which the rights of any party have been
prejudiced; or
(4) where the arbitrators exceeded their
powers, or so imperfectly executed them that
a mutual, final, and definite award upon the
subject matter submitted was not made.
9 U.S.C. § 10(a). These are the exclusive grounds on
which a court may vacate an arbitration award under
the FAA. Hall St. Assocs., 552 U.S. at 586-590 (holding
“§§ 10 and 11 provide exclusive regimes for the review
provided by the [FAN”); see Citigroup Glob. Mkts.,
Inc. v. Bacon, 562 F.3d 349, 355 (5th Cir. 2009). An
arbitration award may not be vacated for “mere

37a
mistake of fact or law.” Rain CII Carbon, 674 F.3d at
472 (internal quotation marks omitted).
The party seeking vacatur of an arbitration award
bears the burden of proof, and the reviewing court
must decide any uncertainties or doubts in favor of
sustaining the award. Brabham, 376 F.3d at 385. In
reviewing an arbitration award, the court applies the
“essence” test. See Timegate Studios, Inc. v. Southpeak
Interactive, L.L.C., 713 F.3d 797, 802 (5th Cir. 2013);
Executone Info. Sys., Inc. v. Davis, 26 F.3d 1314, 1320
(5th Cir. 1994). The court must confirm an arbitration
award “as long as the arbitrator’s decision ‘draws its
essence’ from the contract,” in other words “the arbitrator’s decision is rationally inferable from the letter
or purpose of the underlying agreement.” Timegate
Studios, 713 F.3d at 802 (quoting Executone, 26 F.3d
at 1320). “[T]he question is whether the arbitrator’s
award was so unfounded in reason and fact, so unconnected with the wording and purpose of the . . .
agreement as to manifest an infidelity to the obligation of an arbitrator.” Executone, 26 F.3d at 1325
(internal quotations omitted). It is irrelevant whether
the reviewing court disagrees with the arbitrator’s
interpretation of the contract. Timegate Studios, 713
F.3d at 802. The reviewing court considers only the
arbitrators’ resulting decision and “does not review the
language used by, or the reasoning of, the arbitrators
in determining whether their award draws its essence
from the contract.” Executone, 26 F.3d at 1325 (internal quotations omitted). “Because the parties have
contracted to have disputes settled by an arbitrator
chosen by them rather than by a judge, it is the
arbitrator’s view of the facts and of the meaning of the
contract that they have agreed to accept. Courts thus
do not sit to hear claims of factual or legal error by an
arbitrator as an appellate court does in reviewing

38a
decisions of lower courts.” United Paperworkers Int’l
Union v. Misco, Inc., 484 U.S. 29, 37-38 (1987).
The arbitrators’ powers and authority are “‘dependent
on the provisions under which the arbitrators were
appointed.’” Brook v. Peak Int’l, Ltd., 294 F.3d 668, 672
(5th Cir. 2002)(quoting Szuts v. Dean Witter Reynolds,
Inc., 931 F.2d 830, 831 (11th Cir. 1991)). “Whether an
arbitrator has exceeded his powers is tied closely to the
applicable standard of review”—that being whether
the arbitrator’s decision “draws its essence” from the
underlying contract. Timegate Studios, 713 F.3d at
802. The court looks to “whether the arbitrator’s award
‘was so unfounded in reason and fact, so unconnected
with the wording and purpose of the [contract] as to
“manifest an infidelity to the obligation of an arbitrator.”’” Id. (quoting Brotherhood of R.R. Trainmen v.
Cent. of Ga. Ry. Co., 415 F.2d 403, 412 (5th Cir. 1969)).
“[A]s long as [an honest] arbitrator is even arguably
construing or applying the contract and acting within
the scope of his authority,’ the fact that ‘a court is
convinced he committed serious error does not suffice
to overturn his decision.’ E. Associated Coal Corp. v.
United Mine Workers of Am., 531 U.S. 57, 62 (2000)
(internal citations omitted). The reviewing court must
resolve all doubts in favor of arbitration. Executone, 26
F.3d at 1320-21.
The Convention on the Recognition and Enforcement
of Foreign Arbitral Awards (“the Convention”) applies
“if the [arbitration] award arises out of a commercial dispute and at least one party is not a United States citizen.”
Asignacion v. Rickmers Genoa Schiffahrtsgesellschaft
mbH & Cie KG, 783 F.3d 1010, 1015 (5th Cir. 2015).
Arbitration awards governed by the Convention are
enforced under the FAA. 9 U.S.C. § 201. Just as review
is exceedingly narrow under the FAA, the Convention

39a
does not permit a reviewing court to “refuse to enforce
the award solely on the ground that the arbitrator may
have made a mistake of law or fact.” See Asignacion,
783 F.3d at 1015. A court must confirm the arbitration
award unless the party opposing confirmation meets
its burden of establishing a reason under Article V of
the Convention for the court to deny enforcement of
the arbitral award. See id. at 1015-1016.
III. Application of the Law to the Facts
A. Selection and Composition of Arbitration
Panel
AVIC USA first insists the arbitration award must
be vacated because the Panel was selected in violation
of the Agreement’s terms and, alternatively, the
composition of the Panel violates public policy and due
process.
1. Did the Arbitrators’ Appointment Violate
the SWE Agreement?
AVIC USA contends the Panel exceeded their
powers, as defined in Section 10, because they were
“not selected in accordance with the provisions of the
Agreement,” so the award must be vacated. AVIC USA
argues that the clear language of the Agreement
requires the appointment of one arbitrator per side,
not one arbitrator per member; this was AVIC USA’s
understanding of the selection provision and it would
never “agree[ ] to nor contemplate[ ] arbitrating a twosided dispute in which one side chose five arbitrators
and the other side chose two.”
a) Procedural Challenge for the Panel
Regardless of how AVIC USA tries to frame this
argument, it comes down to a “challenge[ ] that essentially [goes] to the procedure of arbitration.”‘ Adam

40a
Techs. Int’l S.A. de C.V. v. Sutherland Glob. Servs.,
Inc., 729 F.3d 443, 452 (5th Cir. 2013)(quoting Gulf
Guar. Life Ins. Co. v. Conn. Gen. Life Ins. Co., 304 F.3d
476, 488 (5th Cir. 2002)). AVIC USA’s argument turns
on the fairness of the selection process. Such “procedural questions” are presumed to be for an arbitrator
to decide. Adam Techs. Int’l, 729 F.3d at 452 (citing
Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79,
84 (2002)). AVIC USA has advanced no compelling
argument or evidence to establish otherwise.
Article XIII of the SWE Agreement addresses the
parties’ agreement on Dispute Resolution. Section
13.1 provides, in relevant part, the Arbitration Provision “shall apply to any controversy, dispute or claim
arising under or related to this [SWE] Agreement . . .
including (a) any dispute regarding the construction,
interpretation, performance, validity or enforceability
of any provision of this [SWE] Agreement . . . .” The
parties agreed to first attempt an informal resolution
of any dispute then, if that negotiation failed, the
parties agreed to submit the dispute to binding arbitration. See SWE Agmt., Secs. 13.2 and 13.3 at p. 46.
The SWE Agreement specifically sets out the arbitrator selection process and incorporates the rules and
procedures of the American Arbitration Association.
The presumption that the arbitrators must decide any
procedural question, including the arbitrator selection
process, clearly applies in this case. See Howsam, 537
U.S. at 84. The arbitrators found that the “panel is
composed in a manner provided by the unambiguous
agreement of the parties as set forth in Article XIII of
the SWE Agreement.” They also found that the parties
“clearly and unmistakably empowered this panel to
determine whether this arbitration involves a controversy, dispute, or claim arising under or related to the
SWE Agreement . . . including any dispute regarding

41a
the construction, interpretation, performance, validity
or enforceability of any provision of the SWE Agreement.” The arbitrators’ conclusion on this issue is
binding and is not for this Court to review on the basis
of a procedural challenge, such as the parties agreed
otherwise. See also Adam Techs. Int’l, 729 F.3d at 452
(“Adam’s appellate argument that the Howsam presumption disappears because of Adam’s interpretation
that the parties agreed otherwise is unavailing.”). AVIC
USA must establish a statutory reason for vacatur
related to the composition of the panel that the Court
may consider in its very narrow review. b)
b) The Panel Did Not Exceed Their
Power
The parties to an arbitration agreement may agree
by contract to the arbitrator selection process. Brook
v. Peak Int’l., Ltd., 294 F.3d 668, 672 (5th Cir. 2002).
When the arbitration agreement provides for the appointment method of the arbitrators, the FAA specifically
requires that the agreed method “shall be followed.” 9
U.S.C. § 5; see id. at 672-73; see also Volt Info. Scis.,
Inc. v. Bd. of Trs. of Leland Stanford Junior Univ., 489
U.S. 468, 479 (1989)(recognizing “the FAA’s primary
purpose [is] ensuring that private agreements to arbitrate are enforced according to their terms” because
“[a]rbitration under the [FAA] is a matter of consent,
not coercion, and parties are generally free to structure their arbitration agreements as they see fit.”).
Claiming the arbitrators exceeded their powers,
AVIC USA first contends the arbitrators were not
selected in accordance with the Arbitration Provision
because the Panel was “dominated by [TEG] appointees” and AVIC USA never agreed to a selection
provision which would allow such a lop-sided panel in
a dispute. Next, AVIC USA argues the Arbitration

42a
Provision requires a panel of three arbitrators in any
scenario and asks the Court to “give effect to the plain
and objectively reasonable meaning of the arbitrator
selection provision for this dispute as understood
by AVIC USA: one arbitrator per side plus a third
arbitrator as a tie-breaker.” Finally, AVIC USA contends
the arbitration selection provision was misinterpreted
because the Non-Signatories were not allowed to select
arbitrators. As a result of these factors, AVIC USA
alleges that the Court’s refusal to vacate the award
issued by this arbitration panel as it was composed
will cause “an absurd and fundamentally unjust result.”
AVIC USA attempts to characterize its arguments
as being centered on an arbitration panel appointed in
violation of the method provided for in the parties’
arbitration agreement, therefore requiring vacatur.
However, the record does not bear this out. The
Arbitration Provision does indeed clearly provide for a
method of selecting the arbitrators, but it is not the
method alleged by AVIC USA. Presented with a
similar, if not identical, argument in the AVIC USA I
appeal, the Fifth Circuit so astutely noted:
Simply put, when [AVIC USA’s] position
is reduced to its bare essentials, AVIC [USA]
is asking us to rewrite their agreement’s
arbitration provision to require that every
arbitration among these multiple parties
comprise only two “sides”. It is apparent from
the plain wording of that provision, however,
that the agreement contemplates the possibility of there being three or more “sides” among
the several parties to the agreement. More to
the point, AVIC’s strained interpretation of
the arbitration provision would mandate that
there be precisely three arbitrators in any

43a
and every instance, no more and no fewer—
one selected by one “side,” a second selected
by the other “side,” and the third selected by
the first two. The unambiguous wording of
the arbitration provision eschews such a reading: The agreement expressly contemplates
the possibility of (1) an even number of arbitrators (an impossibility under AVIC’s proposed,
three-only arbitrators interpretation) and (2)
adding either one or two more arbitrators to
achieve an odd number (also an impossibility
under a three-only arbitrator situation).
AV-IC Int’l USA, 614 F. App’x. at 219 (emphasis in the
original). It is readily apparent to this Court that the
Fifth Circuit’s summary is true and applicable even
now as AVIC USA takes the same position.
As SWE Members, AVIC USA and the Movants
contracted in their Arbitration Provision for a specific
appointment method of the arbitrators in the event of
a dispute. The FAA specifically mandates that if an
appointment process is agreed-to, the agreed method
“shall be followed.” 9 U.S.C. § 5; see Brook, 294 F.3d
at 672 -73; see also Volt Info. Scis., 489 U.S. at 479
(recognizing “the FAA’s primary purpose [is] ensuring
that private agreements to arbitrate are enforced
according to their terms” because “[a]rbitration under
the [FAA] is a matter of consent, not coercion, and
parties are generally free to structure their arbitration
agreements as they see fit.”). The method by which
these arbitrators were selected was in accordance with
the exact process agreed to by the parties in their
Arbitration Agreement. AVIC USA has established
nothing to the contrary. The Panel did not exceed their
powers and the Court will not vacate the arbitration
award on these grounds.

44a
2. Will Violations of Public Policy and Due
Process Support Vacatur?
AVIC USA argues in the alternative that even if the
Arbitration Agreement permitted this particular process, the resulting panel was “stacked” which violates
public policy and requires vacatur of the award. Public
policy is no longer a recognized, valid ground for
vacating an arbitration award under the FAA. See
Citigroup, 562 F.3d at 358. The United States Supreme
Court held that grounds for vacatur are limited to
those specifically set forth in Section 10 of the FAA.
Hall St. Assocs., L.L.C., 522 U.S. at 586. A court may
not vacate an arbitration award on common law
grounds, such as public policy, because they are not
specifically provided for in the statute. See Citigroup,
562 F.3d at 358 (any “non-statutory ground for setting
aside an [arbitration] award must be abandoned and
rejected.”); Am. Postal Workers Union, AFL-CIO v. US.
Postal Serv., 3:09-CV-1084-B , 2010 WL 1962676, at *2
(N.D. Tex. May 14, 2010)(Boyle, J.)(“[W]hile public
policy was once recognized as a common law ground
for vacating an arbitration award, in light of Hall
Street and its progeny, it [is] no longer an adequate
basis for vacatur.”). AVIC USA cites to no case law
post-Hall Street which would permit this Court to
review the arbitration award on public policy grounds.
This argument is outside the narrow scope of review
the Court is permitted to conduct under the FAA.
Accordingly, the Court will not consider the merits of
this argument and will not vacate the arbitration
award on this common law basis.
In a single sentence footnote, AVIC USA contends
this arbitration panel violates public policy under
Article V of the Convention and requires the award be
vacated. The party seeking vacatur bears the burden

45a
of proving an Article V reason precludes confirmation
of the award; “[a]bsent ‘a convincing showing’ that one
of these narrow exceptions applies the arbitral award
will be confirmed.” In re Arbitration Between Trans
Chem. Ltd. and China Nat. Machinery Import &
Export Corp., 978 F. Supp. 266, 309 (S.D. Tex.
1997)(citing Imperial Ethiopian Gov’t v. Baruch-Foster
Corp., 535 F.2d 334, 336 (5th Cir. 1976)). Although
public policy may support vacatur under Article V of
The Convention, AVIC USA submits no actual argument on this point, provides no citations in support,
and fails to even reference which specific section of
Article V applies. AVIC USA failed to meet its burden
to establish vacatur is required under Article V of the
Convention. See id..
Finally, AVIC USA claims the process of composing
this Panel violates due process because it is in contravention to the objective of the selection process and the
idea of a neutral panel, resulting in “the appearance
that the arbitration process can be and was rigged.”
However, this is essentially where the argument ends.
Beyond making this claim in a sentence or two, AVIC
USA fails to put forth any substantive argument on
this point or provide citations to case law in support.
To the extent AVIC USA asserts due process as grounds
for vacatur under the FAA, the argument would fail
for the same reasons as public policy violations. Common
law grounds are no longer valid to support vacatur
under the FAA. See Citigroup, 562 F.3d at 358. AVIC
USA does not reference Article V of The Convention in
this argument, but even if it did, the argument would
fail. AVIC USA made no showing, let alone “a convincing showing,” that a narrow exception under Article V
applies. See Trans Chem. Ltd., 978 F. Supp. at 309.
The Court will not consider this due process argument
as a basis for vacating the arbitration award.

46a
In conclusion, the Court cannot vacate the arbitration award on any of the aforementioned grounds
related to the selection and composition of the Panel
as asserted by AVIC USA. See Brabham, 376 F.3d at
385 (“Given these constraints, judicial review of an
award’s rationality must be confined to situations in
which the party challenging the award can prove
that clearly applicable law or the parties’ contract
indisputably dictates a contrary result.”).
B. Expansion of Issues Identified or Submitted
to Arbitration Panel
AVIC USA argues the Panel exceeded its authority
when it identified an “ambiguity” in the SWE Agreement that none of the parties identified or submitted
to the panel. Specifically, AVIC USA contends the
Panel read Section 6.10 to include the term “Affiliate”,
as defined and used in the Agreement, when that
was not in dispute, thereby effectively rewriting the
contract and allowing the panel to find AVIC USA
liable on this unjustified interpretation.
Among their many findings, the Panel concluded:
62. The extent of the exclusive arrangement
agreed to by the Members as set out in the
Agreement is ambiguous. Section 6.10 appears
to apply only to Members. On the other hand,
Section 6.11 prohibits any Member, it Representatives and Affiliates from engaging in
the “Business” of SWE except through SWE.
Section 6.12 prohibits Class A Members and
their Affiliates from “participating” in wind
farm land development projects except through
entities owned jointly by SWE and CATIC.
The Agreement’s confidentiality provision
prohibits Members and their Affiliates from

47a
revealing confidential information about the
company, the Members, Affiliates or the
Agreement. The Chicago Agreement clearly
states that “SWE will be the exclusive vehicle
for both Tang and CATIC interest in the wind
industry.” The great weight of the evidence
supports a construction that Members, their
Affiliates and Representatives will only conduct the “Business” through SWE.
65. AVIC USA itself did not violate the
contractual provision to refrain from engaging in the Business of SWE except through
SWE.
66. However, AVIC USA’s affiliates as defined
by the SWE Agreement, competed against
SWE and engaged in the “Business” of SWE
thereby violating the SWE Agreement’s exclusive arrangement. Specifically, AVIC HQ
AVIC International, AVIC IRE and Ascendant,
are “Affiliates” of AVIC USA because they
directly or indirectly controlled AVIC USA
and all are under the common control of AVIC
HQ. As a result, AVIC USA breached the
SWE Agreement by its Affiliates engaging in
the “Business” of SWE.
Final Award at pp. 12-13.
The Panel found an ambiguity in reading Sections
6.10, 6.11, and 6.12, along with other provisions, in
an attempt to define the exclusivity of the parties’
Agreement on conducting wind energy-related “Business”. In reading the Agreement’s provisions together,
the Panel found that “[t]he SWE Agreement requires
Members and their Representatives and Affiliates to
conduct the ‘Business’ of SWE solely through SWE or

48a
its Controlled Companies.” There is no citation to any
specific section of the Agreement as the basis for this
finding and AVIC USA never identifies any liability
finding by the Panel based specifically on a breach of
Section 6.10. In fact, the Panel’s determinations make
it clear that other provisions also prohibited Members
and Affiliates from competing with SWE Business,
and these could arguably have provided the basis for
the liability determination. The Court’s review of the
award reveals that the Panel simply did not make the
liability determination as to AVIC USA as it has
alleged. This argument does not support vacatur.
AVIC USA’s argument essentially amounts to
assertions that the Panel’s interpretation was flawed.
This Court may not second-guess the panel’s conclusions on any issues involving contract interpretation
in this very narrow review. See Am. Laser Vision, P.A.
v. Laser Vision Inst., L.L.C., 487 F.3d 255, 260 (5th
Cir. 2007), overruled on other grounds by Hall St.
Assocs., 552 U.S. at 584-86 (“We will not second-guess
multiple, implicit findings and conclusions underpinning the award. We do not decide if the award was
free from error.”); Executone, 26 F.3d at 1325 (the
reviewing court considers only the arbitrators’ resulting decision and “does not review the language used
by, or the reasoning of, the arbitrators in determining
whether their award draws its essence from the
contract.”); see also E. Associated Coal, 531 U.S. at 62
(“[A]s long as [an honest] arbitrator is even arguably
construing or applying the contract and acting within
the scope of his authority,’ the fact that ‘a court is
convinced he committed serious error does not suffice
to overturn his decision.’”); McKool Smith, P.C. v.
Curtis Int’l, Ltd., 650 F. App’x. 208, 211 (5th Cir.
2016)(“Under this [extraordinarily narrow] review, an
award may not be set aside for a mere mistake of

49a
fact or law.”). This arbitration award clearly draws
its essence from the SWE Agreement, defining the
“Business” arrangement’s degree of exclusivity in
order to determine whether a breach occurred and by
whom, both of which were central issues to the
arbitration. See Timegate Studios, 713 F.3d at 802-803
(“[A]n arbitrator has not exceeded his powers unless
he has utterly contorted the evident purpose and
intent of the parties—the ‘essence’ of the contract,”
and the Court must confirm it even if in disagreement
with the panel’s interpretation.).
The Court cannot vacate the arbitration award on
these grounds.
C. Misconduct by the Arbitration Panel
AVIC USA contends the Panel engaged in misconduct in multiple instances, requiring the Court to
vacate the arbitration award.
1. Did the Panel Ignore This Court’s
Previous Order?
Citing to this Court’s order in the Ascendant case,
AVIC USA argues that the Court “determined that
the panel had no authority to adjudicate whether
Ascendant (or any other non-signatory, by extension)
is bound by the Agreement.” Nevertheless, AVIC USA
argues the Panel “impermissibly ignored this Court’s
prior ruling” in determining the Non-Signatories are
the alter egos of AVIC USA and therefore, “are bound
by the Agreement.” AVIC USA contends this disobedience of a court order constitutes misconduct
which prejudiced AVIC USA, and the award must be
vacated. See 9 U.S.C. § 10(a) (3) (grounds for vacatur
of award include “any other misbehavior by which the
rights of any party have been prejudiced”).

50a
In the Ascendant case, the Court “declar[ed] that
Ascendant’s party status to the arbitration can only be
determined by a court, not an arbitrator” because nonsignatory Ascendant attacked the very existence of
any agreement to arbitrate with Tang or any other
respondent. Ascendant Renewable Energy Corp., Civ.
Action No. 3:14-CV-3314-K, 2015 WL 4713240, at *3.
The Court then declared that if an arbitration panel
did make a determination as to jurisdiction over or
party status of Ascendant, that decision would be owed
no deference and would not be “controlling on a court”
reviewing an arbitration award. Id. (Ascendant is not
a party to the instant case.)
Nowhere in that order did the Court prohibit or
forbid the Panel from making any determination regarding jurisdiction over or party status of Ascendant in
relation to the Agreement on any theory, including
alter ego. Furthermore, the Court also did not declare
or otherwise order that this Court must decide
Ascendant’s party status before any arbitration may
proceed. The Court simply declared Ascendant’s right
for a court to “resolve whether an agreement to arbitrate exists that would require Ascendant to participate
in the underlying arbitration,” and confirmed that if
the Panel did make such a determination, the reviewing court would owe the Panel’s finding no deference
and would not be bound by it. The Court did not opine
or make any ruling as to whether an agreement to
arbitrate did indeed exist or whether some alternative
theory could bind Ascendant to arbitrate; neither issue
was before the Court in that declaratory judgment action.
AVIC USA contends the Panel disobeyed the order
“[b]y taking the non-signatory alter ego question away
from this Court,” and this constitutes misconduct.
This argument is meritless as the Panel did not “take

51a
away” this issue from the Court. Citing clear Fifth
Circuit precedent, the Court declared in the Ascendant
case that a reviewing court owes no deference to and
is not bound by any such finding by arbitrators. No
where did the Court order that the Panel could not
hear the issue of or make a determination regarding
the jurisdiction over and/or party status of Ascendant;
rather, the Court declared simply that an arbitrator’s
findings would not be binding on a reviewing court in
an instance where the existence of an agreement to
arbitrate was in dispute. The Panel did not ignore this
Court’s order in the Ascendant case.
The Court concludes AVIC USA did not establish the
Panel committed any misconduct under this theory,
therefore the Court cannot vacate the arbitration
award on this basis.
2. Did the Panel Make Adverse Inferences
Against AVIC USA?
AVIC USA also argues the arbitration panel committed misconduct when it made “adverse inferences
against AVIC USA based solely on the non-signatories’
absence from the arbitration.” Again citing the order
in the Ascendant case, AVIC USA claims the Court
“rul[ed] that the non-signatories had no obligation to
participate in the [arbitration] proceedings” yet, the
Panel determined the Non-Signatories’ participation
was required and, when they did not participate,
punished AVIC USA.
As previously discussed, the Court did not rule
or otherwise determine in the Ascendant case that
the Non-Signatories were not required to participate
in the arbitration as AVIC USA alleges. Ascendant,
which is not a party to the instant action, was the only
Non-Signatory to appear in that declaratory judgment

52a
action. The Court declared Ascendant’s rights under
the controlling law, specifically that it was for a court,
not an arbitrator, to decide Ascendant’s party status
because it attacked the existence of any agreement to
arbitrate with Tang or any other party, and, if the
arbitrator did make such a determination, it would not
be controlling on a court reviewing the arbitration
award. There was never a ruling from this Court that
Ascendant, the only non-signatory to appear before it,
had no obligation to participate in the arbitration
proceedings, as AVIC USA claims. That issue was not
before the Court. AVIC USA has misconstrued or
misinterpreted the Court’s ruling in the Ascendant
case, and this argument fails to the extent the “adverse
inference” argument relies on this misinterpretation.
AVIC USA contends that it was “punished” by the
Panel when they found AVIC USA liable based on
adverse inferences the Panel made as a result of the
Non-Signatories’ refusal to participate. AVIC USA
alleges the damages award is at least some indication
of how “the panel’s ‘adverse’ view of the evidence
affected its findings.” The only specific adverse inference AVIC USA references is the following sentence:
“As a result, the panel has opted to infer that Xu
Hang’s statement in CX 330 that AVIC International
has invested $50 USD million in wind power projects
in the United States is accurate without any additional evidence.” AVIC USA argues there was no
actual evidence to support any damages award and, in
fact, there was uncontested evidence rebutting Xu
Hang’s statement.
At the heart of this argument, AVIC USA is ultimately complaining about: (1) the arbitration panel’s
decision to make an adverse inference pursuant to
their authority under the AAA rules and language in

53a
the SWE Agreement, as interpreted by the Panel; and
(2) the weight the Panel chose to give the evidence.
The Court cannot vacate the arbitration award based
on errors in interpretation or application of the law, or
mistakes in factfinding. See United Paperworkers,
484 U.S. at 38; McKool Smith, 650 F. App’x. at 211.
Moreover, arbitrators have broad discretion in making
evidentiary rulings, and a court generally does not
review those rulings. Int’l Chem. Workers Union v.
Columbian Chems. Co., 331 F.3d 491, 497 (5th Cir.
2003)(citing Amalgamated Meat Cutters & Butcher
Workmen of N. Am. v. Neuhoff Bros., 481 F.2d 817, 820
(5th Cir. 1973)(“[T]he arbitrator has great flexibility
and the courts should not review the legal adequacy of
his evidentiary rulings.”)). AVIC USA did not meet its
burden to establish the panel committed misconduct
in this instance to support vacatur of the award.
3. Did the Panel Improperly Determine NonSignatories Participated in Arbitration?
AVIC USA claims the Panel committed misconduct
in making adverse inferences based on the NonSignatories’ “willful disobedience” in their selective
participation in the arbitration discovery. This argument relates to AVIC USA’s previous argument
regarding the Panel’s adverse inferences. Here, AVIC
USA argues the Panel’s basis for the adverse inferences, the Non-Signatories’ “willful disobedience”,
constitutes misconduct.
It is well-established that “as long as [an honest]
arbitrator is even arguably construing or applying the
contract and acting within the scope of his authority,”
the reviewing court must affirm the award. E. Associated
Coal, 531 U.S. at 62 (internal citations omitted). In
Paragraph 128 of the award, the Panel noted the
authority upon which they relied in drawing the

54a
adverse inferences, including language from the
Agreement. The Court cannot conclude that the Panel
exceeded their powers by “utterly contort[ing] the
evident purpose and intent of the parties—the ‘essence’
of the contract.” See Timegate Studios, 713 F.3d at
802-03. AVIC USA failed to meet its burden to prove
the panel committed misconduct to justify vacatur of
the award.
D. Panel Exceeding Its Powers
AVIC USA argues the arbitration panel exceeded
its powers in awarding damages and attorneys’ fees
which are expressly prohibited by the Agreement, and
in exercising jurisdiction over the derivative SWE
claims.
The arbitrators’ powers and authority are “dependent on the provisions under which the arbitrators were
appointed.” Brook, 294 F.3d at 672 (internal quotations omitted). In deciding whether an arbitrator has
exceeded his powers, the court looks to “whether the
arbitrator’s award ‘was so unfounded in reason and
fact, so unconnected with the wording and purpose
of the [contract] as to “manifest an infidelity to the
obligation of an arbitrator.”‘ Timegate Studios, 713
F.3d at 802 (quoting Bhd. of R.R. Trainmen, 415 F.2d
at 412). “[A]n arbitrator has not exceeded his powers
unless he has utterly contorted the evident purpose
and intent of the parties—the ‘essence’ of the contract.” Id. at 802-03. It is well-established that
“‘as long as [an honest] arbitrator is even arguably
construing or applying the contract and acting within
the scope of his authority,’ the fact that ‘a court is
convinced he committed serious error does not suffice
to overturn his decision.’ E. Associated Coal, 531 U.S.
at 62 (internal citations omitted).

55a
1. Did the Panel Award Damages Expressly
Prohibited by the Agreement?
AVIC USA contends the Panel’s award of $62.9
million in lost profits violates specific language of the
Agreement which prohibits consequential, speculative,
and remote damages; therefore, the panel exceeded
their powers.
In support of its argument, AVIC USA cites to
Section 17.10 of the Agreement which provides:
17.10 No Consequential or Punitive Damages. IN NO EVENT SHALL ANY MEMBER
OR ANY OF ITS RESPECTIVE REPRESENTATIVES OR AFFILIATES BE LIABLE
TO THE COMPANY OR TO ANY OTHER
MEMBER OR ITS REPRESENTATIVES
OR AFFILIATES FOR ANY EXEMPLARY,
PUNITIVE, SPECIAL, INDIRECT, CONSEQUENTIAL, REMOTE OR SPECULATIVE
DAMAGES.
SWE Agreement at p. 55, 11 17.10. AVIC USA first
argues that this damages award constitutes consequential damages as Delaware law clearly provides
that “lost profits” are consequential damages. (SWE is
a Delaware limited liability company.) What AVIC
USA fails to clarify is that well-established Delaware
law provides that “lost profits” on “collateral business
arrangements” are considered consequential damages.
See eCommerce Indus., Inc. v. MWA Intelligence, Inc.,
C.A. No. 7471-VCP, 2013 WL 5621678, at * 47 (Del.
Ch. Sept. 30, 2013)(quoting Tractebel Energy Mktg.,
Inc. v. AEP Power Mktg., Inc., 487 F.3d 89, 109 (2d Cir.
2007)). “By contrast, lost profits are not considered
consequential damages when ‘profits are precisely what
the non-breaching party bargained for, and only an

56a
award of damages equal to lost profits will put the nonbreaching party in the same position he would have
occupied had the contract been performed.’” eCommerce
Indus., C.A. No. 7471 -VCP, 2013 WL 5621678, at *47
(principle applies in context of non-compete provision
which was central to the non-breaching party’s bargainedfor agreement).
In making this award, the Panel clearly stated that
these “lost profit” damages were the direct result of
the breach of the parties’ Agreement not to compete
directly on wind power project(s). This breach was not
related to a “collateral business arrangement”, but
was, at the least, a very important part of what the
parties bargained for in this Agreement. See id. (“With
respect to a non-compete provision or agreement, I
conclude that the profits of the product line or business
that is being protected from competition constitute
the benefit for which the protected party bargained.
Furthermore, lost profits on the part of the nonbreaching party are the direct and natural consequence of breaching a non-compete provision.”). The
Court disagrees that Delaware law automatically
categorizes these damages as consequential and finds
AVIC USA did not establish the Panel exceeded their
authority.
AVIC USA next argues the “lost profits” award is
“wholly speculative” because it is based solely on adverse
inferences whereas the “actual unrebutted evidence”
establishes there was no such investment. As the Court
discussed supra, AVIC USA did not meet its burden
related to its adverse inferences arguments. AVIC
USA’s argument that the award was purely speculative because it is based on these adverse inferences
must fail. The Panel indicated in the arbitration award
the “lost profits” damages arose from breach of the

57a
Agreement, and included how they arrived at it in
light of the Agreement and the evidence they considered. The Court cannot agree with AVIC USA that this
award was “wholly speculative” or a “complete guess”.
The Court concludes that the award draws its
essence from the Agreement. See Timegate Studios,
713 F.3d at 802 (irrelevant whether reviewing court
disagrees with the arbitrator’s interpretation of the
contract); Executone, 26 F.3d at 1325. Accordingly,
AVIC USA failed to meet its burden to establish the
Panel had no authority under the Agreement to award
these damages, thereby exceeding their powers and
requiring vacatur.
2. Did the Panel Award Punitive or Special
Damages by Divesting AVIC USA’s
Interest in SWE?
Next, AVIC USA argues the Panel exceeded its
powers in divesting AVIC USA of its interest in
SWE because this amounts to punitive or exemplary
damages which are expressly prohibited under the
Agreement. AVIC USA also argues the divestiture of
its interest in SWE was “patently unreasonable”
because the Panel expressly found that AVIC USA
itself did not breach the Agreement.
As with the previous argument, the Court cannot
agree that divesting AVIC USA of its interest in SWE
was punitive or special damages. The Panel did not
characterize the divestiture as “punitive” or “special”
damages in the award, and AVIC USA provides no
persuasive argument or case law establishing such a
divestiture is considered punitive or special damages.
In Executone, the Fifth Circuit reaffirmed it prior
holding that the arbitrators’ choice of remedy is afforded
more deference than their interpretation of the contract.

58a
Executone, 26 F.3d at 1325; see also Timegate, 713
F.3d at 803. “The single question is whether the
award, however arrived at, is rationally inferable from
the contract.’” Executone, 26 F.3d at 1325 (quoting
Anderman/Smith Operating Co. v. Tenn. Gas Pipeline
Co., 918 F.2d 1215, 1219 n. 3 (5th Cir. 1990)). A
remedy is outside the arbitrators’ jurisdiction only
where “there is no rational way to explain the remedy
handed down by the arbitrator as a logical means of
furthering the aims of the contract.” Executone, 26
F.3d at 1325 (internal quotations omitted). The Panel
determined the lost profits award of $62.9 million was
due to SWE for distribution to its Members. The Panel
also noted that the divestiture was necessary to
prevent AVIC USA, a member of SWE, from profiting
from the breach of the SWE Agreement. The Court
finds the divestiture is rationally inferable from the
SWE Agreement, therefore it meets the “essence” test.
See Executone, 26 F.3d at 1325. Accordingly, AVIC
USA failed to meet its burden to establish the panel
had no authority under the Agreement to award these
damages, thereby exceeding their powers and requiring
vacatur.
3. Did the Panel Improperly Award Attorneys’
Fees to SWE?
AVIC USA contends the Panel exceeded its authority in awarding TEG past and future attorneys’ fees
along with costs against AVIC USA. On this point,
AVIC USA makes three specific arguments. First,
although the Agreement allows “prevailing Members”
to recover court costs, fees, and expenses, including
attorneys’ fees, AVIC USA argues the Agreement
specifically requires the arbitrators to “determine that
compelling reasons exist for allocating all or a portion
of such costs and expenses to one or more than

59a
Disputing Members.” Because the Panel did not make
this determination or identify compelling reasons for
this allocation, AVIC USA contends the award must
be vacated.
In allocating attorneys’ fees and arbitration expenses,
the Panel cites to Section 13.4 of the Agreement which
provides that the “prevailing Members . . . shall
be entitled to recover from the other Member or
Members . . . all court costs, fees and expenses of such
arbitration, including reasonable attorneys’ fees.”
AVIC USA does not dispute that the Agreement allows
for the recovery of attorneys’ fees and expenses.
Instead, AVIC USA takes aim at the Panel’s failure to
reference Section 13.3(k) which, according to AVIC
USA, requires the panel to identify a “compelling”
reason in order to award attorneys’ fees and costs
against another Disputing Member. This argument
attacks the Panel’s interpretation of the Agreement
and their authority under the specific section addressing allocation of these costs. The Court may not vacate
the award on these grounds. Timegate Studios, 713
F.3d at 802.
Second, AVIC USA argues the allocated fees and
expenses must be from a “Disputing Member” to
another “Disputing Member”. AVIC USA asserts that
SWE was award the damages, but SWE is not a
“Disputing Member”, and the fees and costs were
awarded to TEG, a “Disputing Member”; yet, the Panel
made no finding as to whether the costs and fees being
allocated were TEG’s or SWE’s. This argument centers
on an interpretation of the Agreement which is within
the panel’s jurisdiction. This Court will not, and
cannot, second-guess the panel’s reasons for allocating
the attorneys’ fees and expenses as it did. Even if the
Court disagreed with the panel’s interpretation of the

60a
Agreement, the Court cannot vacate an award on this
basis. Timegate Studios, 713 F.3d at 802.
As a final argument on fees and expenses, AVIC
USA contends no “Disputing Member” prevailed over
AVIC USA. This argument hinges in part on AVIC
USA’s earlier argument in Section III.B regarding
liability based on a rewriting of Section 6.10. The
Court has already concluded that argument fails;
therefore to the extent this argument relies on vacatur
under that Section 6.10 argument, it too fails. AVIC
USA argues alternatively that regardless of that prior
argument, TEG is still not a prevailing party because
all but one of its claims were dismissed and TEG
recovered less than 1% of the damages it sought. As
with the previous arguments, this argument attacks
the Panel’s interpretation of “prevailing party” as
defined and used in the Agreement. AVIC USA simply
disagrees with the Panel’s conclusion. This argument
does not provide a basis for vacating the arbitration
award. See id.
4. Did the Panel Fail to Account for Any
Return on the Investment?
AVIC USA argues any damages award should have
included a deduction for AVIC USA’s return on investment (“ROI”) for wind development projects pursuant
to the terms of the Agreement. AVIC USA contends it
was entitled to some amount of ROI deduction for the
capital contribution it would have made and because
there is no way to determine the specific amount (as
it was undefined in the Agreement), the entire award
is speculative and in violation of the Agreement’s
provisions.
As stated previously many times, this Court is very
limited it is review of the arbitration award. The Court

61a
may review only “whether the award, however arrived
at, is rationally inferable from the contract.” Executone,
26 F.3d at 1325 (internal quotations omitted). “[P]erhaps
most importantly, even if the arbitrators incorrectly
calculated the damage award, an arbitrator’s erroneous interpretation of law or facts is not a basis for
vactur of an award.” Pfeifle v. Chemoil Corp., 73 F.
App’x 720, 722-722 (5th Cir. 2003). The law is clear on
this and AVIC USA’s argument fails. Any error in
failing to account for an ROI does not provide a basis
for the Court to vacate this award.
5. Did the Panel Improperly Assert Jurisdiction Over Derivative SWE Claims?
In its final argument for vacatur, AVIC USA asserts
the Panel exceeded its powers in allowing TEG to
intervene on SWE’s behalf and because SWE was not
a proper party to the arbitration, the $62.9 million
awarded to SWE must be vacated. Specifically,
AVIC USA argues that the Agreement requires a
Supermajority (>66%) of Class A membership interests to approve any decision outside the ordinary course
of SWE’s business. Because AVIC USA owned 50% of
the Class A membership interests, it was necessarily
required to agree to SWE’s participation in the arbitration, but TEG never sought or secured AVIC USA’s
consent. Therefore, SWE’s motion to intervene should
have been denied and the award should be vacated.
AVIC USA’s argument is essentially this—because
AVIC USA did not authorize this legal action against
itself, the Panel exceeded it powers in permitting
SWE to intervene, and therefore this award must be
vacated. While this argument is absurd, it ultimately
fails just as numerous of its other arguments. AVIC
USA objected on these same grounds during arbitration when SWE petitioned to intervene; the Panel,

62a
however, decided SWE was a proper party to the
arbitration because “[t]he management committee of
SWE took action in accordance with article VI of
the SWE Agreement authorizing SWE’s claims.” The
Panel clearly interpreted the Agreement in ruling that
SWE was a proper claimant with standing and was
permitted to intervene. The Court must affirm the
award “as long as the arbitrator’s decision ‘draws its
essence’ from the contract”, resolving all doubts in
favor of arbitration. Timegate, 713 F.3d at 802. AVIC
USA failed to meet its burden to prove that the Panel
exceeded their powers in “utterly contort[ing] the evident purpose and intent of the parties—the ‘essence’
of the contract.” See id. at 802-803. The Court concludes the Panel’s decision draws its essence from
the Agreement, and therefore, the award may not be
vacated on these grounds. See Anderman/Smith,
918 F.2d at 1219 n.3.
IV. Conclusion
For the reasons previously stated, the Court GRANTS
the Movants’ motion to confirm the arbitration award,
and DENIES AVIC USA’s motion to vacate the arbitration award. The arbitration award dated December
21, 2015 is hereby confirmed as to Respondent
AVIC International USA, Inc. The Court will issue a
separate final judgment.
SO ORDERED.
Signed August 9th, 2018.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

63a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed August 9, 2018]
————
Civil Action No. 3:15-CV-4033-K
————
SOARING WIND ENERGY, LLC, TANG ENERGY
GROUP, LTD., THE NOLAN GROUP, INC.,
MARY YOUNG (INDIVIDUALLY AND
AS INDEPENDENT EXECUTRIX OF THE ESTATE
OF KEITH P. YOUNG), MITCHELL W. CARTER,
and JAN FAMILY INTERESTS LTD.,
Movants,

v.

CATIC USA, INC. (A.K.A. AVIC INTERNATIONAL
USA, INC.), AVIATION INDUSTRY CORPORATION
OF CHINA, CHINA AVIATION INDUSTRY GENERAL
AIRCRAFT CO. LTD., AVIC INTERNATIONAL
HOLDING CORPORATION, AVIC INTERNATIONAL
RENEWABLE ENERGY CORP., ASCENDANT
RENEWABLE ENERGY CORP., and CATIC TED
LTD. (a.k.a. AVIC INTERNATIONAL TED LTD.),
Respondents.
————
ORDER SEVERING
Movants’ Motion to Confirm Arbitration Award
Against Respondent AVIC International USA, Inc.
and Motion to Confirm Arbitration Award Against All
Other Respondents (Doc. No. 1) is pending before the
Court. Also pending before the Court are the Motions

64a
to Vacate Arbitration Award filed by Respondents
AVIC International USA Inc. (Doc. No. 157), Aviation
Industry Corporation of China and China Aviation
Industry General Aircraft Co. Ltd. (Doc. No. 161),
AVIC International Holding Corp. (Doc. No. 202),
and AVIC International Renewnable Energy Corporation (Doc. No. 232). The Court stayed this case as to
Respondents Aviation Industry Corporation of China,
China Aviation General Aircraft Co., Ltd., AVIC International Holding Corporation, and AVIC International Renewable Energy Corporation pending the
Court’s determination of the Movants’ Motion to
Confirm Arbitration Award Against Respondent AVIC
International USA, Inc.
The Court may sever any claim against a party, even
properly joined parties, into a separate action and
proceed with it as a discrete, independent action. See
also Allied Elevator, Inc. v. E. Tex. State Bank, 965
F.2d 34, 36 (5th Cir. 1992); Blum v. Gen. Elec. Co., 547
F. Supp.2d 717, 722 (W.D. Tex. 2008). The Court
concludes it need not reach the other Respondents
motions to vacate (most notably those arguments
related to their joint and several liability pursuant to
the arbitration award based on an alter-ego theory)
before determining whether to confirm or vacate the
arbitration award as to Respondent AVIC International USA, Inc., the signatory to the underlying
agreement. Therefore, the Court ORDERS that the
Motion to Confirm Arbitration Award Against Respondents Aviation Industry Corporation of China,
China Aviation General Aircraft Co., Ltd.,
AVIC International Holding Corporation, and AVIC
International Renewable Energy Corporation be severed and filed in a newly opened civil action, pursuant
to FED. R. CIV. P. 21 (a court has broad discretion to

65a
sever claims against a party or to order separate trials
for joined parties). See also Allied Elevator, 965 F.2d
at 36 (severance under Rule 21 creates two separate
actions).
The Clerk is hereby DIRECTED to sever and copy
all the docket entries of this case in CM/ECF and open
a new civil action. The new style of this case shall be
Soaring Wind Energy, LLC, Tang Energy Group, Ltd.,
The Nolan Group, Inc., Mary Young, Mitchell W.
Carter, and Jan Family Interests Ltd. (Movants) v.
Aviation Industry Corporation of China, China Aviation General Aircraft Co., Ltd., AVIC International
Holding Corporation, and AVIC International Renewable Energy Corporation (Respondents).
This newly opened action is hereby stayed and
administratively closed pending resolution of Soaring
Wind Energy, LLC, et al. v. AVIC International USA,
Inc., 3:15-CV-4033-K.
SO ORDERED.
Signed August 9th, 2018.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

66a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed February 5, 2015]
————
Civil Action No. 3:14-CV-2815-K
————
AVIC INTERNATIONAL USA, INC.
and PAUL THOMPSON,
v.

Plaintiffs,

TANG ENERGY GROUP, LTD., KEITH P. YOUNG,
MITCHELL W. CARTER, JAN FAMILY INTERESTS,
LTD., and THE NOLAN GROUP, INC.,
Defendants.
————
JUDGMENT
This Judgment is entered pursuant to the Court’s
Memorandum Opinion and Order of this same date, in
which the Court granted Defendants’ Motion to Dismiss.
It is therefore, ORDERED, ADJUDGED and
DECREED that Plaintiffs takes nothing by their suit
against Defendants, and that Plaintiff’s claims are
DISMISSED with prejudice, with all costs taxed
against Plaintiff.
SO ORDERED.
Signed February 5th, 2015.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

67a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed February 5, 2015]
————
Civil Action No. 3:14-CV-2815-K
————
AVIC INTERNATIONAL USA, INC.
and PAUL THOMPSON,
Plaintiffs,
v.
TANG ENERGY GROUP, LTD., KEITH P. YOUNG,
MITCHELL W. CARTER, JAN FAMILY INTERESTS, LTD.,
and THE NOLAN GROUP, INC.,
Defendants.
————
MEMORANDUM OPINION AND ORDER
Before the Court are: (1) Plaintiff AVIC International USA, Inc.’s (“AVIC”) Motion to Stay Arbitration
(Doc. No. 16); (2) Defendant Tang Energy Group LTD’s
(“Tang”) Amended Motion to Dismiss (Doc. No. 27); (3)
Plaintiff Paul Thompson’s (“Thompson”) Motion for
Discovery (Doc. No. 34); (4) Plaintiffs’ Request for
Court Consideration of Further Evidence in Support of
Motion to Stay Arbitration (Doc. No. 45); (5) Defendant
Tang’s Motion to Strike (Doc. No. 47); and (6) Plaintiff
AVIC’s Motion to Strike the Purported Expert Witness
Statements Filed by Tang Energy Group, Ltd. in
Support of its Opposition to Motion to Stay (Doc. No.

68a
70). Having carefully considered the motions, responsive briefing, appendices, applicable law, and record
when relevant, the Court GRANTS Defendant Tang’s
motion to dismiss.
I. Factual and Procedural Background
In 2008, Plaintiffs AVIC and Thompson (collectively
“Plaintiffs”) entered into the Limited Liability Company Agreement of Soaring Wind Energy, LLC (“the
Agreement”) with Defendants Tang, Keith P. Young
(“Young”), Mitchell W. Carter (“Carter”), Jan Family
Interests, LTD. (“JFI”), and The Nolan Group, Inc.
(“TNG”) (collectively “Defendants”). The Agreement
contains a Dispute Resolution section (“Arbitration
Provision”) requiring disputes to be resolved in binding arbitration. The Arbitration Provision of the
Agreement provides for the following process:
(a) The Disputing Member desiring to initiate arbitration in connection with any Dispute shall notify the other Disputing Members in writing, which notice shall provide the
name of the Arbitrator appointed by the
Disputing Member, demand arbitration and
include a statement of the matter in controversy.
(b) Within 15 days after receipt of such
demand, each other Disputing Member
receiving notice of the Dispute shall name an
Arbitrator. . . . The Arbitrators so selected
shall within 15 days after their designation
select an additional Arbitrator. . . . In the
event that there are more than two Disputing
Members to the Dispute, then unless otherwise agreed by the Disputing Members, the
Arbitrators selected by the Disputing

69a
Members shall cause the appointment of
either one or two Arbitrators as necessary to
constitute an odd number of total Arbitrators
hearing the Dispute.
It defines “Disputing Member” as “each Member that
is a party to such Dispute.”
In June 2014, after alleged breaches of the Agreement by Plaintiffs, Tang filed a Demand for Arbitration, Designation of Arbitrator, and Statement of
Matter in Controversy with the American Arbitration
Association (“AAA”), based on the Arbitration Provision of the Agreement. After providing notice to the
members to the Agreement, each member to the
dispute, including Plaintiffs, then selected an
arbitrator. This resulted in a panel of seven (7)
arbitrators being selected–one by each of the two
Plaintiffs and one by each of the five Defendants.
Those seven arbitrators then selected two additional
arbitrators, thereby creating a nine member arbitration panel (“the Panel”) in the AAA proceeding.
Plaintiffs filed this lawsuit on August 5, 2014,
seeking a declaratory judgment from this Court.
Plaintiffs contend that the Panel as it currently exists
“deviates” from the arbitrator selection provisions set
forth in the Arbitration Provision of the Agreement.
Plaintiffs specifically argue that the arbitrator selection provision authorizes Defendants to collectively
select one arbitrator for their “side” and Plaintiffs to
collectively choose one arbitrator for their “side”, then
those two arbitrators select a third arbitrator.
Plaintiffs also argue that the current Panel fails to
comply with the constitutional requirement that
disputes be resolved by an impartial decisionmaker
because the “deck is stacked” against Plaintiffs.
Plaintiffs contend that the Panel as it currently is

70a
comprised “is inherently unfair and not neutral” and
ask the Court to order the Panel be reconstituted
according to the “correct” arbitrator selection process
authorized in the Arbitration Provision, which Plaintiffs argue is one arbitrator for Defendants collectively
and one for Plaintiffs collectively, with a third arbitrator selected by those two arbitrators.
II. Tang’s Motion to Dismiss for Lack of Subject
Matter Jurisdiction
Tang argues in its motion that this Court does not
have jurisdiction under the Federal Arbitration Act
(“FAA”) to review Plaintiffs’ claims until an arbitration award has issued. Specifically, Tang contends
Plaintiffs’ claims do not fall within the very limited
jurisdiction granted to courts under the FAA to
intervene in the arbitral process. Defendants Young,
Carter, JFI, and TNG join in Tang’s motion to dismiss.
Plaintiffs respond that this Court does have jurisdiction to entertain their challenges to the Panel because
the current Panel violates Plaintiffs’ rights to an
impartial decisionmaker and Plaintiffs are asking to
reconstitute the Panel.
A. Applicable Law
A case may be dismissed for lack of subject matter
jurisdiction under rule 12(b)(1). FED. R. CIV. P.
12(b)(1). The court must first address a motion to
dismiss for lack of subject matter jurisdiction before
any other challenge in order to determine jurisdiction
before addressing the validity of a claim. Moran v.
Kingdom of Saudi Arabia, 27 F.3d 169, 172 (5th Cir.
1994). In ruling on a Rule 12(b)(1) motion, the court
“‘is free to weigh the evidence and satisfy itself as to
the existence of its power to hear the case.’” Stiftung v.
Plains Marketing, L.P., 603 F.3d 295, 297 (5th Cir.

71a
2010)(quoting Williamson v. Tucker, 645 F.2d 404, 413
(5th Cir.), cert. denied, 454 U.S. 897(1981)). In
considering a Rule 12(b)(1) motion, the court may look
solely to the complaint, the complaint along with
undisputed facts, or the complaint with undisputed
facts and the court’s resolution of disputed facts.
Williamson, 645 F.2d at 413. The party asserting
subject matter jurisdiction bears the burden of proving
it on a Rule 12(b)(1) motion. Stiftung, 603 F.3d at 297;
see Castro v. US, 608 F.3d 266, 268 (5th Cir. 2010).
The Supreme Court has declared that the Federal
Arbitration Act (“FAA”), 9 U.S.C. § 1, et seq. “is a
congressional declaration of a liberal policy favoring
arbitration.” Moses H. Cone Memorial Hospital v.
Mercury Construction Corp., 460 U.S. 1, 24 (1983).
Federal policy strongly favors the enforcement of
arbitration agreements. Dean Witter Reynolds Inc. v.
Byrd, 470 U.S. 213, 217 (1985); Texaco Exploration
and Prod. Co. v. AmClyde Engineered Prods. Co., Inc.,
243 F.3d 906, 909 (5th Cir. 2001). Furthermore, the
FAA “‘expressly favors the selection of arbitrators by
parties rather than courts.’” BP Exploration Libya
Ltd. v. ExxonMobil Libya Ltd., 689 F.3d 481, 490 (5th
Cir. 2012)(quoting Shell Oil Co. v. CO2 Comm., Inc.,
589 F.3d 1105, 1109 (10th Cir. 2009)).
A court’s jurisdiction to intervene in the arbitration
process before an award has been issued is very
limited under the Federal Arbitration Act (“FAA”).
Gulf Guar. Life Ins. Co. v. Conn. Gen. Life Ins. Co., 304
F.3d 476, 486 (5th Cir. 2002). Congress’s intent with
the FAA was to move parties out of the courts and into
arbitration promptly and efficiently; but Congress also
“recognized that judicial intervention may be required
in certain circumstances” to achieve this goal. Id. To
that end, the FAA provides, in relevant part:

72a
If in the agreement provision be made for a
method of naming or appointing an arbitrator
or arbitrators or an umpire, such method
shall be followed; but . . . if for any other
reason there shall be a lapse in the naming of
an arbitrator . . ., then upon the application of
either party to the controversy the court shall
designate and appoint an arbitrator or
arbitrators . . . .
9 U.S.C. § 5. Although Congress provided for judicial
intervention when an impasse in the arbitrator
selection process has occurred, the FAA makes clear
that the parties must adhere to their contractual
arbitrator selection procedure if one exists. Id. at 491
(quoting Pac. Reins. Mgmt. Corp. v. Ohio Reins. Corp.,
814 F.2d 1324, 1327 (9th Cir. 1987)). However, as part
of its very limited jurisdiction, a court may select an
arbitrator, upon application of a party, in three
situations:
(1) if the arbitration agreement does not provide a method for selecting arbitrators; (2) if
the arbitration agreement provides a method
for selecting arbitrators but any party to the
agreement has failed to follow that method;
or (3) if there is “a lapse in the naming of an
arbitrator or arbitrators.”
BP Exploration, 689 F.3d at 491. The Fifth Circuit has
defined “lapse” under 9 U.S.C. § 5 as “a lapse in time
in the naming of the arbitrator or in the filling of a
vacancy on a panel of arbitrators, or some other
mechanical breakdown in the arbitrator selection
process.” Id. at 491-92.

73a
B. Application of the Law to the Facts
In this case, there is no dispute that there is an
agreement to arbitrate between these parties or that
these claims fall within the scope of that agreement.
See Gulf Guar., 304 F.3d at 486 (“Courts are limited to
determinations regarding whether a valid agreement
to arbitrate exists and the scope and enforcement of
the agreement, including the arbitrability of given
underlying disputes.”) Instead, Plaintiffs focus solely
on the selection and composition of the Panel. Plaintiffs argue the Court has jurisdiction here because
there has been a “lapse” in this arbitration process.
Plaintiffs contend the “lapse” is an “impasse” that has
been reached by their refusal to arbitrate before the
current Panel, “where the deck is stacked against
them.” Therefore, under 9 U.S.C. § 5, the Court must
order the Panel be reconstituted.
Plaintiffs bear the burden of proving jurisdiction
does in fact exist. Arena v. Graybar Elec. Co., Inc., 669
F.3d 214, 223 (5th Cir. 2012). Plaintiffs attempt to
characterize their claims against Defendants as a
“lapse” in the arbitrator selection process, thereby
authorizing the Court to intervene under its very
limited jurisdiction authorized by the FAA. Plaintiffs
also contend the Court has jurisdiction because the
current Panel amounts to a “stacked deck” against
Plaintiffs and gives the appearance of bias, violating
their constitutional rights to an impartial decisionmaker. First, the facts establish there was no
lapse in time of naming an arbitrator, in filling a
vacancy on the panel of arbitrators, or “some other
mechanical breakdown” of the arbitrator selection
process to satisfy the definition of “lapse” under 9
U.S.C. § 5 by the Fifth Circuit. See BP Exploration,
689 F.3d at 491. Each party to this action named an

74a
arbitrator, with no resulting delay; there was, in fact,
no impasse in the arbitrator selection process at all.
Plaintiffs claim the “mechanical breakdown” came
when they refused to arbitrate before the current
Panel. Neither the specific language of the FAA or
Fifth Circuit caselaw defines “lapse” to include a
party’s refusal to participate in arbitration. The
arbitration is pending before the American Arbitration
Association with a panel of party-chosen arbitrators.
The facts simply belie Plaintiffs’ claim that a “mechanical breakdown in the arbitrator selection process”
occurred. See Gulf Guar., 304 F.3d at 491-92 (emphasis added). Therefore, the Court has no jurisdiction on
that basis. See 9 U.S.C. § 5; BP Exploration, 689 F.3d
at 491.
Next, Plaintiffs’ arguments that the Court has jurisdiction because their constitutional rights are being
violated are really just a challenge to the process used
to select the arbitrators and to the alleged resulting
unfairness of that process to Plaintiffs. Plaintiffs claim
that their right to an impartial decisionmaker is being
violated by the Panel as it’s currently comprised
because Defendants chose more arbitrators than did
Plaintiffs. Therefore, the Panel is inherently unfair
and amounts to a “stacked deck” against Plaintiffs.
Again, Plaintiffs’ allegations boil down to fairness
of the arbitrator selection process set forth in the
Arbitration Provision. Complaints about the arbitrator selection process, including fairness, “essentially
go to the procedure of arbitration.” Gulf Guar., 304
F.3d at 488. It is well settled that such procedural
challenges are for an arbitrator to decide. Adam Techs.
Int’l S.A. de C.V. v. Sutherland Global Servs., Inc., 729
F.3d 443, 452 (5th Cir. 2013)(citing Howsam v. Dean
Witter Reynolds, Inc., 537 U.S. 79, 84 (2002)); Gulf
Guar., 304 F.3d at 487. This Court has no authority

75a
under the FAA to entertain these challenges before an
arbitration award has issued. Adam Techs., 729 F.3d
at 452; Gulf Guar., 304 F.3d at 488.
Even if the Court had jurisdiction to hear Plaintiffs’
claims, the Court has no jurisdiction to grant Plaintiffs’ requested relief. Plaintiffs ask the Court to
reconstitute the Panel, which amounts to removing
the current arbitrators. The record establishes that
the Panel has already been comprised and the
arbitration is currently before the AAA, although no
arbitration award has yet issued. Under the FAA,
courts have no authority to remove an arbitrator prior
to an arbitration award being made. Gulf Guar., 304
F.3d at 489-90; see Adam Techs., 729 F.3d at 452. The
Fifth Circuit held that “even where arbitrator bias is at
issue, the FAA does not provide for removal of an
arbitrator from service prior to an award, but only for
potential vacatur of any award.” Gulf Guar., 304 F.3d
at 490 (emphasis added). Despite Plaintiffs’ argument
to the contrary, this Court has no authority under the
FAA “to remove an arbitrator for any reason” before
an arbitration award has been issued. See id.
The Court finds that it has no jurisdiction under
the FAA to entertain Plaintiffs’ claims prior to an
arbitration award issuing, where Plaintiffs challenge
the arbitrator selection process and alleged resulting
unfairness. Furthermore, the Court has no jurisdiction
under the FAA to reconstitute the Panel, as requested
by Plaintiffs.
III. Conclusion
The Court finds it has no jurisdiction under the FAA
to address Plaintiffs’ claims and grant the requested
relief. Therefore, the Court grants Defendant Tang’s
motion to dismiss, which all other Defendants have

76a
joined. Plaintiffs’ case against all Defendants is hereby
dismissed.
SO ORDERED.
Signed February 5th, 2015.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

77a
APPENDIX H
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed August 25, 2015]p
————
No. 15-10190
Summary Calendar
D.C. Docket No. 3:14-CV-2815
————
AVIC INTERNATIONAL USA, INCORPORATED,
Plaintiff-Appellant
v.
TANG ENERGY GROUP, LIMITED; KEITH P. YOUNG;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; THE NOLAN GROUP, INCORPORATED,
Defendants-Appellees
————
Appeal from the United States District Court for the
Northern District of Texas, Dallas
————
Before WIENER, HIGGINSON, and COSTA,
Circuit Judges.
————
JUDGMENT
This cause was considered on the record on appeal
and the briefs on file.
It is ordered and adjudged that the judgment of the
District Court is affirmed.

78a
IT IS FURTHER ORDERED that plaintiff-appellant
pay to defendants-appellees the costs on appeal to be
taxed by the Clerk of this Court.

79a
APPENDIX I
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed August 25, 2015]
————
AVIC INTERNATIONAL USA, INCORPORATED,
Plaintiff-Appellant
v.
TANG ENERGY GROUP, LIMITED; KEITH P. YOUNG;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; THE NOLAN GROUP, INCORPORATED,
Defendants-Appellees
————
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:14-CV-2815
————
Before WIENER, HIGGINSON, and COSTA, Circuit
Judges.
PER CURIAM:*
Plaintiff-Appellant AVIC International USA, Incorporated (“AVIC”), one of two original plaintiffs in the
district court,1 seeks reversal of the district court’s
Judgment of February 5, 2015, which dismissed those
*

Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.
1

Plaintiff Paul Thompson filed a motion for discovery but has
not joined AVIC as an Appellant to this court.

80a
plaintiffs’ motion to stay the arbitration that was
already pending before the American Arbitration
Association (“AAA”), but had not yet commenced. The
district court dismissed their action after concluding
that, under the Federal Arbitration Act (“FAA”), it did
not have jurisdiction to consider AVIC’s claims that
the arbitration panel, as selected and presently existing, “deviates” from the arbitration provisions of the
parties’ agreement and fails to meet the constitutional
requirement of impartiality. The court ruled that it
could not address such complaints before the arbitration panel renders its decision.
Our review of the district court’s Memorandum
Opinion and Order and the record on appeal, including
the briefs of the parties, and their excerpts, satisfies
us that the district court ruled correctly, committing
no error – reversible or otherwise. The agreement at
issue was entered into by sophisticated and experienced parties on advice of highly qualified counsel;
that agreement contains their carefully crafted
arbitration provision; one or more of the parties validly
invoked arbitration in compliance with that provision;
several of the parties to the agreement – not just two
“sides” – followed by appointing one arbitrator each;
and, as noted, arbitration is now before the panel
comprising those arbitrators and is presumably
proceeding pursuant to the rules and procedures of the
AAA.
As noted by the district court, AVIC has failed to
demonstrate that, as it claims, there has been a “lapse”
in the appointment of arbitrators. In BP Exploration
Lybia Ltd. v. ExxonMobil Lybia, Ltd.,2 we defined that
term as “a lapse in time in the naming of the arbitrator
2

689 F.3d 481, 491-92 (5th Cir. 2012)

81a
or in the filling of a vacancy on a panel of arbitrators,
or some other mechanical breakdown in the arbitrator
selection process.” AVIC’s allegations do not identify
any occurrences that meet that definition. Simply put,
when its position is reduced to its bare essentials,
AVIC is asking us to rewrite their agreement’s arbitration provision to require that every arbitration among
these multiple parties comprise only two “sides.” It is
apparent from the plain wording of that provision,
however, that the agreement contemplates the possibility of there being three or more “sides” among the
several parties to the agreement. More to the point,
AVIC’s strained interpretation of the arbitration
provision would mandate that there be precisely three
arbitrators in any and every instance, no more and no
fewer – one selected by one “side,” a second selected by
the other “side,” and the third selected by the first two.
The unambiguous wording of the arbitration provision
eschews such a reading: The agreement expressly
contemplates the possibility of (1) an even number of
arbitrators (an impossibility under AVIC’s proposed,
three-only arbitrators interpretation) and (2) adding
either one or two more arbitrators to achieve an odd
number (also an impossibility under a three-only
arbitrator situation).
All that aside, we agree with the analysis of the
district court and its conclusions that at this stage of
the ongoing arbitration proceedings, a stay to deal
with the issues advanced by AVIC would be premature, and that any resolution of AVIC’s objections to
the makeup of the arbitration panel must await
completion of the arbitration process. For essentially
the reasons expressed by the district court, its
Judgment is, in all respects,
AFFIRMED.

82a
APPENDIX J
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed August 4, 2015]
————
Civil Action No. 3:14-CV-3314-K
———
ASCENDANT RENEWABLE ENERGY CORPORATION,
Plaintiff,
v.
TANG ENERGY GROUP, LTD., KEITH P. YOUNG,
MITCHELL W. CARTER, JAN FAMILY INTERESTS,
LTD., THE NOLAN GROUP, INC. and
SOARING WIND ENERGY, LLC.,
Defendants.
————
MEMORANDUM OPINION AND ORDER
Before the Court are: (1) Defendant Tang Energy
Group, Ltd.’s (“Tang”) Motion for Summary Judgment
(Doc. No. 18); (2) Plaintiff Ascendant Renewable
Energy Corporation’s (“Ascendant”) Cross-Motion for
Summary Judgment (Doc. No. 42); (3) Non-party AVIC
International USA, Inc.’s (“AVIC”) Motion to Intervene for the Limited Purpose of Moving to Disqualify
Counsel and to Strike Pleadings Filed by Disqualified
Counsel (Doc. No. 58); and (4) Ascendant’s Motion for
Protection and to Stay Arbitration (Doc. No. 65). After
careful consideration of all pending motions, the
responsive briefing, the relevant record, and the
applicable law, the Court DENIES AVIC’s motion to

83a
intervene and DENIES as moot Ascendant’s motion
for protection and stay. For the following reasons, the
Court DENIES Tang’s motion for summary judgment
and GRANTS in part and DENIES in part as moot
Ascendant’s motion for summary judgment.
I. Factual and Procedural Background
The following facts are not disputed by the parties.
On June 13, 2014, Defendant Tang initiated an arbitration proceeding against eight respondents pursuant to the arbitration clause of the Limited Liability
Company Agreement of Soaring Wind Energy, LLC
(“Agreement”). Plaintiff Ascendant is one of the named
respondents, but is not a signatory to the Agreement.
Before the arbitration panel, Ascendant objects to the
arbitration arguing there is no jurisdiction because
Ascendant is a non-signatory to the Agreement, and
Ascendant will not consent to or participate in the
arbitration. Also before the arbitration panel, Tang
has asserted that under a theory of alter ego, Ascendant is subject to the arbitration clause of the Agreement.
Ascendant filed this declaratory judgment action,
asking this Court to declare: (1) the issue of whether
Ascendant, a non-signatory, is a proper party to the
arbitration cannot be determined by the arbitration
panel; (2) the issue of whether Ascendant, a nonsignatory, is a proper party to the arbitration can only
be determined by a court of law; (3) no determination,
finding, or decision made in arbitration as to jurisdiction over or as to the party-status of Ascendant is
valid, binding, effective, or controlling; and (4) a stay
of all arbitration proceedings until this case is decided.
Defendants Tang, Mitchell W. Carter (“Carter”), Jan
Family Interest, Ltd. (“JFI”), The Nolan Group, Inc.
(“Nolan”) and Soaring Wind Energy, LLC (“Soaring

84a
Wind”) filed a counterclaim for declaratory judgment
asking this Court to declare: (1) the arbitration panel
has authority, right and jurisdiction to determine
whether Ascendant is a proper party to the arbitration
and whether jurisdiction exists over Ascendant in the
arbitration, subject to independent judicial review;
and (2) alternatively, should the Court rule that neither the AAA nor any arbitration panel can consider
Ascendant’s objection to jurisdiction, then Defendants
seek leave to join remaining AVIC entities as thirdparty defendants and seek a declaration that all AVIC
entities are proper parties to arbitration. In his
counterclaim for declaratory judgment, Defendant
Keith P. Young also asks that should the Court declare
the arbitration panel cannot consider Ascendant’s
objection to jurisdiction, that the Court declare that
Ascendant is a proper party to the arbitration.
Although all the Defendants have joined in Tang’s
summary judgment motion, the Court will refer to the
collective motion as “Tang’s motion.”
II. Analysis
A. Applicable Law
Summary judgment is appropriate when the pleadings, affidavits and other summary judgment evidence
show that no genuine issue of material fact exists, and
the moving party is entitled to judgment as a matter
of law. FED.R.CIV.P. 56(c); Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). A dispute of a material fact
is “genuine” if the evidence is such that a reasonable
jury could return a verdict in favor of the nonmoving
party. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). All evidence and reasonable inferences
must be viewed in the light most favorable to the
nonmovant, and all disputed facts resolved in favor of
the nonmovant. See United States v. Diebold, Inc., 369

85a
U.S. 654, 655 (1962); Boudreaux v. Swift Transp. Co.,
Inc.., 402 F.3d 536, 540 (5th Cir. 2005).
The Declaratory Judgment Act, 28 U.S.C. § 2201(a),
“is an enabling act, which confers discretion on the
courts rather than an absolute right on a litigant.”
Wilton v. Seven Falls Co., 515 U.S. 277, 287 (1995).
“The Declaratory Judgment Act has been understood
to confer on federal courts unique and substantial
discretion in deciding whether to declare the rights of
litigants.” Id. at 286. “In the declaratory judgment
context, the normal principle that federal courts
should adjudicate claims within their jurisdiction
yields to considerations of practicality and wise judicial administration.” Id. at 289.
The Supreme Court has declared that the Federal
Arbitration Act (“FAA”), 9 U.S.C. § 1, et seq. “is a
congressional declaration of a liberal policy favoring
arbitration.” Moses H. Cone Memorial Hospital v.
Mercury Construction Corp., 460 U.S. 1, 24 (1983).
Further, federal policy strongly favors the enforcement of arbitration agreements. Dean Witter Reynolds
Inc. v. Byrd, 470 U.S. 213, 217 (1985); Texaco Exploration and Production Co. v. AmClyde Engineered
Products Co., Inc., 243 F.3d 906, 909 (5th Cir. 2001).
However, because arbitration is necessarily a matter
of contract, courts may require a party to submit a
dispute to arbitration only if the party has expressly
agreed to do so. Personal Security & Safety Sys. Inc. v.
Motorola Inc., 297 F.3d 388, 392 (5th Cir. 2002)( citing
AT&T Tech., Inc. v. Communications Workers of Am.,
475 U.S. 643, 648 (1986)). Although there is a strong
federal policy favoring arbitration, the court does not
defer to this policy when making the initial determination about the existence of an agreement to arbitrate.
Sherer v. Green Tree Servicing LLC, 548 F.3d 379, 381

86a
(5th Cir. 2008)(internal citations omitted); Will-Drill
Res., Inc. v. Samson Res. Co., 352 F.3d 211, 214 (5th
Cir. 2003).
B. Application of the Law to the Facts
Controlling law is very clear that the threshold issue
of whether Ascendant, a non-signatory to the contract
containing the arbitration clause, is bound to arbitrate
is for a court, not an arbitrator, to determine in the
first instance. It is undisputed that Ascendant is not a
signatory to the Agreement. The Fifth Circuit has held
that “[when] the very existence of any agreement [to
arbitrate] is disputed, it is for the courts to decide at
the outset whether an agreement was reached.” WillDrill, 352 F.3d at 218-19 (“[W]here the very existence
of an agreement is challenged, ordering arbitration
could result in an arbitrator deciding that no agreement was ever formed [and] [s]uch an outcome would
be a statement that the arbitrator never had any
authority to decide the issue.”). Ascendant, an
undisputed non-signatory to the Agreement, attacks
the very existence of an agreement to arbitrate with
Tang or any other respondent. The Fifth Circuit has
expressly held that a court, not an arbitrator, must
resolve whether an agreement to arbitrate exists that
would require Ascendant to participate in the
underlying arbitration. Id; see DK Joint Venture 1 v.
Weyand, 649 F.3d 310, 317 (5th Cir. 2011). Furthermore, the Fifth Circuit has expressly held that when
a dispute centers on whether the parties actually
entered into an agreement at all, like this one, a court
would owe no deference to any decision by the arbitrator as to jurisdiction over or party-status of Ascendant.
See DK Joint Venture, 649 F.3d at 317.
The Court finds Tang’s arguments unpersuasive.
Every case Tang cites in support of its argument

87a
involves a petition or motion to confirm or vacate an
arbitration award; the arbitrator’s about whether a
non-signatory was bound by the arbitration clause was
addressed for the first time by a court after the
conclusion of the arbitration. In this case, Ascendant
filed this declaratory action in response to being
named a respondent in the Arbitration and has
objected to and not participated in the Arbitration;
this case was not filed in response to any action taken
by the arbitration panel. Also, alternative theories of
binding Ascendant to the arbitration clause under the
Agreement are not before this Court.
The Court grants Ascendant’s cross-motion for summary judgment declaring that Ascendant’s party
status to the arbitration can only be determined by a
court, and not an arbitrator, and no determination by
the arbitration panel as to jurisdiction over or partystatus of Ascendant is controlling on a court. In its
motion for summary judgment, Ascendant also moved
to stay all actions related to the arbitration pending
the outcome of this case which the Court denies as
moot. The Court denies Tang’s motion for summary
judgment. All other relief not specifically addressed
herein is expressly denied.
III. Conclusion
AVIC’s motion to intervene is denied and Ascendant’s motion for protection and stay is denied as moot.
Tang’s motion for summary judgment is denied.
Ascendant’s motion for summary judgment is granted
as to: (1) whether Ascendant, a non-signatory to the
Agreement, can be subject to arbitration based on the
arbitration clause of the Agreement is for a court, not
the arbitration panel, to decide because Ascendant
disputes the very existence of an agreement between
these parties; and (2) because the existence of any

88a
agreement between these parties is in dispute, any
determination by the arbitration panel as to the
jurisdiction over Ascendant is not controlling on a
court. Ascendant’s requested relief of a stay of the arbitration action pending outcome of this case is denied
as moot.
SO ORDERED.
Signed August 4th, 2015.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

89a
APPENDIX K
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed February 4, 2020]
————
No. 18-11192
————
SOARING WIND ENERGY, L.L.C.; TANG ENERGY
GROUP, LIMITED; THE NOLAN GROUP INCORPORATED;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; MARY M. YOUNG, Individually and
as the Independent Executrix of the
Estate of Keith P. Young, Jr., Deceased,
Plaintiffs-Appellees
versus
CATIC USA INCORPORATED, also known as
AVIC International USA, Incorporated;
AVIC INTERNATIONAL HOLDING CORPORATION;
AVIC INTERNATIONAL RENEWABLE ENERGY
CORPORATION; AVIATION INDUSTRY
CORPORATION OF CHINA; CHINA AVIATION
INDUSTRY GENERAL AIRCRAFT COMPANY LIMITED,
Defendants-Appellants
————
Appeal from the United States District Court
for the Northern District of Texas
————
ON PETITION FOR REHEARING EN BANC
————
(Opinion 1/7/2020, 5 Cir.,

,

F.3d

)

90a
Before DAVIS, SMITH, and COSTA, Circuit Judges.
PER CURIAM:
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is
DENIED.
() Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is
DENIED.
ENTERED FR THE COURT:
/s/ Jerry Smith
UNITED STATED CIRCUIT JUDGE

91a
APPENDIX L
INTERNATIONAL CENTRE FOR
DISPUTE RESOLUTION
International Arbitration Tribunal
[Filed December 22, 2015]
————
Case No. 01-14-0001-4150
————
TANG ENERGY GROUP, LTD., SOARING WIND
ENERGY, LLC, JAN FAMILY INTERESTS, LTD.,
THE NOLAN GROUP, INC., KEITH P. YOUNG,
MITCHELL W. CARTER,
Claimants,
vs.
CATIC USA, INC., a/k/a AVIC INTERNATIONAL
USA, INC., AVIC INTERNATIONAL HOLDING CORP.,
AVIATION INDUSTRY OF CHINA, CHINA AVIATION
INDUSTRY GENERAL AIRCRAFT CO., LTD.,
AVIC INTERNATIONAL RENEWABLE ENERGY CORP.,
ASCENDANT RENEWABLE ENERGY CORP.,
AVIC INTERNATIONAL TRADE & ECONOMIC
DEVELOPMENT, PAUL E. THOMPSON,
Respondents.
————
FINAL AWARD
The Panel:
Hon. Glen Ashworth, Joseph Byrne,
Richard Capshaw, Hon. Jeff Kaplan, Hon.
John Marshall, Gregory Shamoun, William Toles,
Hon. Mark Whittington, and Steven Aldous.

92a
The panel of arbitrators1 presided over the oral
hearing of the above-referenced matter held in Dallas,
Texas, on August 10-14, 2015. The parties submitted
post-oral-hearing briefs and proposed findings of fact
and conclusions of law. This Final Award includes
findings of fact and conclusions of law as required by
the contract between the parties,2 and is based upon
the testimony and documentary evidence presented by
the parties at the hearing and the evidence submitted
to the panel subsequent to the hearing. The parties’
objections to post-hearing evidentiary submissions are
overruled. The panel will consider all evidence submitted and give the evidence the weight the panel deems
appropriate as required by Section R-34(b) of the AAA
Commercial Arbitration Rules. Having received and
considered only the appropriate evidence, having read
and considered the written arguments of counsel,
having heard and considered the oral arguments of
counsel, and having reviewed, considered and followed
the applicable law, the undersigned now enter the
following Final Award as majority decision:

1

The majority of the panel who signed this award includes
Joseph Byrne, Richard Capshaw, Hon. John Marshall, Gregory
Shamoun, William Toles, and Steven Aldous. The three arbitrators who did not concur with the award include Hon Mark
Whittington, Hon, Jeff Kaplan, and Hon. Glen Ashworth. This
final award is signed and notarized by those arbitrators who
approved of the award in accordance with Section R-46. Those
who dissented signed electronically.
2

The contract referred to is the Soaring Wind Agreement,
which is discussed at length in this Award.

93a
Abbreviations
The following terms and definitions apply to this
award:
“CX” means Claimants’ Exhibit followed by the exhibit
number.
“AX” means Respondent AVIC USA Exhibit followed
by the exhibit number.
“TX” means Respondent Thompson Exhibit followed
by the exhibit number.
“SWE” or “Soaring Wind” means Soaring Wind
Energy, LLC.
“SWE Agreement” refers to the contract between
members of SWE.
“Tang” means Tang Energy Group, Ltd.
“Jan” means Jan Family Interest, Ltd.
“Nolan” means The Nolan Group, Inc.
“Young” means Keith P. Young.
“AVIC HQ” means Aviation Industry Corporation of
China Group Company.
“AVIC USA” means AVIC International USA, Inc.
f/k/a CATIC (USA)
“AVIC International” means AVIC International
Holding Corp.
“Ascendant” refers to respondent Ascendant Renewable Energy Corp.
“AVIC IRE” refers to respondent AVIC International
Renewable Energy Corp.
“AVIC TED” refers to respondent AVIC International
T.E.D., Ltd., f/k/a CATIC TED, Ltd.

94a
“CATIC” refers to the China National Aero-Technology Import & Export Company.
“CAIGA” refers to respondent China Aviation Industry General Aircraft Co., Ltd.
“Thompson” refers to respondent Paul E. Thompson.
OVERVIEW
Tang, Nolan, Young, Carter, and Jan, filed a
Demand for Arbitration with the AAA on June 13,
2014 (“Demand”). Subsequently, Tang filed a claim on
behalf of Soaring Wind. This Final Award refers to
them collectively as “Claimants.” The Demand referenced paragraph 13.2(a) of the SWE Agreement as the
contractual basis for arbitration of the claims set forth
in the Demand. Each of the Claimants (other than
Soaring Wind) is a member of SWE.
The Demand named as respondents CATIC USA,
Inc., Aviation Industry of China (“AVIC”), China Aviation Industry General Aircraft, Co., Ltd. (“CAIGA”),
AVIC International Holding Corp., AVIC International USA, Inc., AVIC International Renewable Energy Corp., Ascendant Renewable Energy Corp.,
CATIC T.E.D., Ltd., and Paul E. Thompson. CATIC
USA, Inc. changed its name to AVIC International
USA, Inc. sometime prior to the Demand and is
referred to in this Final Award only as AVIC USA.
“Respondents” refers to these entities and Thompson
collectively. Among those named as Respondents in
the Demand, AVIC USA and Thompson are members
of SWE. The remaining respondents—AVIC, CAIGA,
AVIC IRE, Ascendant, CATIC T.E.D., and AVIC
International (referred to collectively as the “NonSignatories”)—did not sign the SWE Agreement.
Claimants allege that the arbitration provision in
the SWE Agreement binds the Non-Signatories to

95a
arbitrate in this proceeding under several legal theories including alter ego. The Non-Signatories either
sent letters to the AAA/ICDR or filed pleadings
objecting to Claimants’ attempt to include the NonSignatories in the arbitration. In addition, the NonSignatories provided the AAA/ICDR notice that those
entities did not intend to participate in the arbitration.
Claimants’ live pleading is Tang’s Verified Fourth
Amended Statement of Matters in Controversy dated
April 6, 2015, with the addition of the remedy of
disgorgement as asserted in Tang’s Verified Fifth
Amended Statement of Matters in Controversy filed
August 7, 2015.3
AVIC USA’s live pleading at the time of the hearing
is its Second Amended Answer, Affirmative Defenses,
Counterclaim and Reservation of Rights dated May 7,
2015. Thompson’ live pleading is his Fifth Amended
Answer, Affirmative Defenses, Objections to Designation of Arbitrators, Counterclaim, Reservation of
Rights and Designation of Arbitrator dated April 30,
2015.
In addition to the arbitration, at least three lawsuits
were filed related in some way to the subject matter of
the arbitration. Ascendant Renewable Energy Corp. v.
Tang Energy Group, Ltd., et. al., (Case No. 3:14-CV03314-K, in the Northern District of Texas, Dallas
Division), in which Ascendant sought a declaratory
judgment with respect to whether it could be compelled to arbitrate, whether arbitrability of claims
against it is for judicial rather than arbitral determination, that the arbitration panel could make no
determinations regarding Ascendant, and that the
3

See Order 26, allowing the addition of the remedy of disgorgement.

96a
arbitration should be stayed. The Honorable Ed
Kinkeade entered his memorandum opinion and order
dated August 4, 2015, granting Ascendant’s motion for
summary judgment in two respects—(1) “whether
Ascendant, a non-signatory to the Agreement, can be
subject to arbitration based on the arbitration clause
of the Agreement is for a court, not the arbitration
panel, to decide because Ascendant disputes the very
existence of an agreement between these parties; and
(2) because the existence of any agreement between
the parties is in dispute, any determination by the
arbitration panel as to the jurisdiction over Ascendant
is not controlling on a court.”4 No appeal followed that
order.
AVIC International USA, Inc., and Paul Thompson
v. Tang Energy Group, Ltd., et. al., (Case No. 3:14-cv02815-K, in the Northern District of Texas, Dallas
Division) in which AVIC USA and Thompson sought
an order staying the arbitration and an order that the
arbitration panel be reconstituted to a total of three
arbitrators, one selected by each “side,” and one “neutral” arbitrator selected by the other two arbitrators.
Defendants sought dismissal of the case based upon
lack of subject matter jurisdiction. The Honorable Ed
Kinkeade granted Defendants’ motion to dismiss on
February 5, 2015, finding “it has no jurisdiction under
the FAA to address Plaintiffs’ claims and grant the
requested relief.”5 AVIC USA appealed that order to
the Fifth Circuit. The Fifth Circuit affirmed Judge
Kinkeade’s order in a per curiam opinion.6

4

See DE 93; 3-14-CV-03314-K.

5

DE 123, 3:14-CV-02815-K.

6

See 15-10190; filed 9/16/2015.

97a
In addition to the foregoing, the panel is aware that
AVIC USA filed a lawsuit in Delaware Chancery Court
challenging Tang’s assertion of claims in this arbitration on behalf of SWE as unauthorized by the SWE
Agreement and sought declaratory and injunctive
relief.7 The panel has no information on the outcome
of this proceeding.
FINDINGS OF FACT
General
1. AVIC was formerly the Ministry of Aviation
Industry in China. The first Aviation Industry Corporation was created in 1993, and the former Ministry
was abolished in 1999. All of China’s state-run aviation industry operates under the direction of AVIC
HQ, which sits at the top of a pyramid of companies.
AVIC HQ is one of 112 companies owned by the
Chinese government through the State Asset Supervision and Administration Commission (“SASAC”).
AVIC HQ is one of 45 corporations controlled through
SASAC which evolved from industrial ministries within the Chinese government and which still enjoy a
“rank” within the government equal to vice-ministerial status. The top management of AVIC HQ is
appointed by the Organization Department of the
central Chinese Communist Party. AVIC HQ is the top
level of one of the nine centrally run defense industry
conglomerates in China.
2. AVIC HQ has 19 primary business units including CATIC, AVIC International, and CAIGA. AVIC
HQ has always maintained a controlling interest in
its first tier subsidiaries. These first level subsidiaries
also have, in many cases, subsidiaries of their own.
7

In the Court of Chancery State of Delaware, No. 11182.

98a
AVIC HQ regularly appoints the Chairman and the
members to the Boards of Directors to the subsidiaries. In addition, AVIC HQ controls appointment of
many of the key management personnel to its first tier
subsidiaries. The first tier subsidiaries consider themselves AVIC HQ companies that follow AVIC HQ
strategic advice.
3. CATIC was formerly part of the industrial ministry that later became a subsidiary of AVIC HQ. CATIC
is primarily engaged in the import and export of
military and military use products. AVIC International is a first tier subsidiary of AVIC HQ and was
formerly a subsidiary of CATIC, at which time it was
known as CATIC Trade and Development Company
(CATIC TED). In 1995, AVIC International spun out
of CATIC and became a direct subsidiary of AVIC HQ,
making CATIC and AVIC International both international subsidiaries of AVIC HQ. On November 6, 2008,
AVIC HQ reorganized into its current form. In addition, AVIC HQ or at AVIC HQ’s direction, reorganized
its subsidiaries causing CATIC to concentrate in the
military products arena and to have its civilian products arena to come under AVIC International. Among
the non-military segments devoted to AVIC International was alternative energy. Several months later,
China Aviation Industry General Aircraft Co., Ltd.
(CAIGA) was created as an AVIC HQ subsidiary to
compete in the general aviation sector. AVIC HQ has
continuously reorganized in an effort to create competitive companies with strong corporate governance.
All of the reorganizations have been top down, directed
by AVIC HQ.
4. AVIC HQ’s reorganization in the 2008-9 timeframe accompanied a new business development strategy in which AVIC HQ subsidiaries became partners.

99a
As set forth above, AVIC International took responsibility for non-military operations of CATIC and AVIC
HQ directed AVIC International to be solely responsible for development of the wind power sector, which
AVIC HQ’s CEO identified as a focal point for AVIC
HQ. In order to carry this directive out for AVIC HQ,
AVIC International created AVIC International Renewable Energy Corp. (AVIC IRE) in July 2010. AVIC
International made AVIC IRE responsible for
vigorously developing the renewable energy industry
for AVIC HQ.
5. The historical relationship between Tang and
AVIC, began in 1997 when they signed a joint venture
agreement to build a gas-fired power plant at the western end of the Great Wall. In the early 2000s, Patrick
Jenevein (“Jenevein”) and other investors in his group
made an investment in an entity in China named
Zhong Hang (Baoding) Huiteng Wind Power Equipment Co. Ltd. (also known as “HT Blade”). The entity
through which Jenevein and his group invested in HT
Blade was named Tang Wind Energy LP, which
subsequently became Tang Wind Energy Hong Kong.
Some of the other investors in HT Blade included
Baoding Huiyang Aviation Propeller Factory and
China Aviation Industry Gas Turbine Power (Group)
Company, both of which were subsidiaries of AVIC
HQ. HT Blade is a manufacturer of wind turbine
blades and apparently is a successful venture.
6. In 2007, because of its successful investment in
HT Blade and the development of several wind power
projects, Tang, Jenevein, and some of its investors
decided to create a business to develop wind farms and
promote the sale of wind power equipment as part of
the development. Out of this idea came the creation of

100a
Soaring Wind Energy. AVIC HQ expressed an interest
in being part of Soaring Wind Energy.
The Memorandum of Understanding
7. In order to carry out their desire to create a
company to promote wind power and develop wind
power projects, AVIC USA, a subsidiary of AVIC
International, and Tang entered into a Memorandum
of Understanding (the “MOU”) effective January 28,
2008, to set out the terms by which they would
establish a limited liability company named Soaring
Wind Energy. Although the MOU states that it is
between AVIC USA (formerly CATIC USA) and Tang
Energy Group, Ltd., the agreement also references
CATIC, which at the time was CATIC TED, the precursor to AVIC International, as an equity participant
and is signed by Liu Rongchun on behalf of “CATIC.”
At the time, Mr. Rongchun was Vice President of AVIC
International and held no position with AVIC USA.
8. The MOU is the precursor to the SWE Agreement.
9. The MOU states that “SWE will be the exclusive
vehicle for both Tang and CATIC8 interest in the wind
industry” and that the geographical area will “initially
include North America, Central America and South
America. Expansion to Europe, Africa, and Asia is
designated for future expansion.”9
10. The MOU also provides that CATIC USA will be
responsible for different aspects of the business and
that “CATIC offices and employees in China will be
available for support as needed.” Tang was to be
8
9

As previously stated, CATIC became AVIC International.

The quotes in this Award of the various agreements are
quoted verbatim without noting the grammatical deficiencies.

101a
responsible for general management as well as “wind
farm development.” The MOU identifies Thompson as
the person to fill the role as SWE’s general manager.
11. MOU recites that wind farm development projects will have separate budgets with CATIC USA as
the primary source for development funds.
12. The MOU further states that “[i]t is not a
binding document and there will be no damages to the
parties if the LLC is not established.”
The Soaring Wind Energy Agreement
13. In accordance with the MOU, Soaring Wind
Energy (SWE) was created effective June 1, 2008.
14. SWE is a limited liability company organized
under the laws of the State of Delaware.
15. CX 2 is the operative agreement setting forth
the terms for membership in SWE.
16. The members of SWE are Tang, Nolan, Jan,
Young, Carter, AVIC USA, and Thompson (Thompson
signed as a Class B Member) (collectively “Members”).
17. Some definitions in section 1.1 of the SWE
Agreement are relevant to this dispute include the
following:
“Affiliate” means with respect to any Person,
any other Person that directly or indirectly
Controls, is Controlled by, or is under
common Control with that first Person.
“Control” means the possession, directly or
indirectly, through one or more intermediaries, of either of the following: (i) in the case of
a corporation, more than 50% of the outstanding voting securities thereof; (ii) in the case of
a limited liability company, partnership,

102a
limited partnership or venture, the right to
more than 50% of the distributions therefrom
(including liquidating distributions); (iii) in
the case of a trust or estate, including a
business trust, more than 50% of the beneficial interest therein; and (iv) in the case of
any other Entity, more than 50% of the
economic or beneficial interest therein; or (v)
in the case of any Entity, the power or authority, through the ownership of voting securities, by contract or otherwise, to exercise a
controlling influence over the management of
the Entity.
“Member” means either a Class A Member or
a Class B Member, or any Person hereafter
admitted to the Company as a member as
provided in this Agreement, but such term
does not include any Person who has ceased
to be a member in the Company.
“Person” means any natural person or Entity.
18. Section 2.3 of the SWE Agreement provides that
“[t]he purpose and nature of the business to be
conducted by the Company shall be to provide
worldwide marketing of wind energy equipment,
services and materials related to wind energy including, but not limited to, marketing wind turbine
generator blades and wind turbine generators and
developing wind farms (the “Business”), and to engage
in any other business or activity that now or hereafter
may be necessary, incidental, proper, advisable or convenient to accomplish the foregoing purposes (including the borrowing of money and the investment of
funds) and that is not forbidden by the law of the
jurisdiction in which the Company engages in that
business.

103a
19. Section 2.7 of the SWE Agreement states that
the term of the company is from commencement until
dissolved or terminated in accordance with the terms
of the Agreement.
20. Section 6.8 of the SWE Agreement provides in
part that no Member shall be required to devote full
time to Company business and the “Members expressly acknowledge and agree hereby that their
relationship to the Company and each other is strictly
contractual in nature and is not that of partners, joint
venturers or any similarly situated persons and is not
fiduciary in nature. No Member shall take, or cause or
permit its Affiliates, Officers, employees or agents
to take, any action that would bind or obligate the
Company in any manner not expressly authorized by
this Agreement. Each Member may grant or withhold
their consent, approval or vote, in their sole discretion,
as directed or otherwise determined by such Member,
without regard to the interests of the other Members,
it being understood that each such Member shall have
no fiduciary duty or other duty to represent or act in
the best interests of the other Members.”
21. Section 6.10 of the SWE Agreement provides
that each Member “agrees that during the term of this
Agreement, each shall only conduct activities constituting the Business in and through the Company and
its Controlled subsidiaries.”
22. Section 6.11 of the SWE Agreement provides:
Except as restricted by Section 6.10, each of
the Members and its respective Affiliates
shall be free to engage in other businesses or
activities and to receive the income and benefits thereof (and neither the Company nor any
other Member shall have any interest therein

104a
by reason of this Agreement), and no Member
shall have any duty or obligation to present to
the Company or any other Member any such
other business opportunities that are outside
the scope of the Business. Subject to the
terms of this Agreement, nothing in this
Agreement shall restrict any Member from
establishing, independently or with other
Persons, any business in any part of the
world, other than the Business, and each
Member acknowledges and agrees that the
other Member and its Representatives and
Affiliates, and the managers, directors, employees or other representatives of such other
Members or its Representatives or Affiliates
serving as Managers of the Company (any
such Person being referred to herein as a
“Designee”) or as Officers of the Company
(any such Person being referred to herein
as a “Common Officer”) may engage in any
business other than the Business. Further,
there is no contractual, legal or other requirement on any Member or its Affiliates, Designees, Common Officers or any other Person to
offer any business opportunity or participation in any business opportunity, other than
the Business, to the Company, and each
Member acknowledges and agrees that all
Members and their respective Affiliates, Designees, Common Officers and other Persons
have the right to pursue any business opportunity or activity that does not consist of the
Business. Each Member recognizes that the
other Members and their respective Affiliates, Designees, Common Officers and other
Persons (a) participate and will continue to

105a
participate in businesses other than the Business, directly and through their respective
Affiliates, (b) may have interests in, participate with, and maintain seats on the boards
of directors of or serve as managers or
employees of other Persons engaged in such
other businesses (other than the Business)
and (c) may develop business opportunities
outside of the Business for themselves and
their Affiliates and such other Persons. Subject to the terms of this Agreement, each
Member (i) acknowledges and agrees that
neither a Member, its Affiliates, Designees,
Common Officers nor any such other Person
shall be restricted or prohibited, by the
relationships that exist between or among the
Members and the Company, or by a Member’s
or its Affiliates’ designees serving as a Manager of the Company or Common Officer, from
engaging in any business other than the
Business, (ii) acknowledges and agrees that
neither a Member nor its Affiliates, Designees, Common Officers nor any such other
Person shall have any obligation to offer the
Company or any of its Affiliates any business
opportunity other than with respect to the
Business, and (iii) waives any claim that any
business opportunity pursued by a Member or
any of its Affiliates, Designees, Common
Officers or any such Person constitutes a
corporate opportunity of the Company or any
of its Affiliates that should have been presented to the Company, unless such business
opportunity was pursued in violation of the
terms of this Agreement.

106a
23. Section 6.12 provides:
“Each of the Class A Members hereby covenant and agree that neither they nor their
Affiliates or Representatives will participate
in wind farm land development projects (each
a “Project”) except through an entity owned
by both the Company and CATIC (each a
“Project Entity”), the governing documents of
which shall provide that (a)
(a) CATIC shall contribute 100% of the
capital to the Project Entity required to fund
such Project;
(b) Distributions made by the Project Entity,
whether distributions of available cash or
distributions of proceeds in connection with
the sale of a Project or in liquidation, shall be
made in the following order of priority unless
agreed otherwise in writing by a Supermajority Interest of the Members based upon Secondary Sharing Ratios: (i) first, to CATIC
until the sum of all distributions made to
CATIC equals an amount which equates to
(A) the return of all capital contributions
made by CATIC plus (B) an amount equal
to 25% of the aggregate amount of capital
contributions made by CATIC, and then (ii)
all remaining amounts (on liquidation, sale of
assets, distributions of available cash or
otherwise, to the Company).”
24. Section 8.2 provides in part that “Each Member
shall indemnify . . . the other Members, and their
Managers, directors, officers, employees, agents,
Affiliates and Representatives from all claims, losses,
damages, liabilities, costs and expenses of whatever

107a
nature, including reasonable attorney’s fees, incurred
by them, arising out of . . . (b) any breach by the
indemnifying Member or any of its Representatives or
Manager designees of any obligation or representation
or warranty contained in the Agreement.”
25. Section 8.4 of the SWE Agreement relates to
confidentiality and generally prohibits Members and
their Affiliates from revealing to third parties confidential or proprietary information of the Company and
its Members except under certain conditions.
26. Section 9.1 of the SWE Agreement provides that
a “Member shall be in default if. . . (b) such Member
otherwise fails to perform any of its material obligations or breaches a material representation, warranty
or agreement under, or its Representatives fail
to comply with the terms of this Agreement or any
guaranty entered into pursuant to, this Agreement . . .
If a Member is in Default, the other Members and the
Company shall have all rights and remedies available
at law and in equity with respect to such breach,
including the remedies of specific performance and
injunctive relief.”
27. Article XIII of the SWE Agreement contains an
agreement to arbitrate “any controversy, dispute, or
claim arising under or related to this Agreement
(whether arising in contract, tort or otherwise, and
whether arising at law or in equity), including (a) any
dispute regarding the construction, interpretation,
performance, validity or enforceability of any provision of this Agreement, and (b) the applicability of this
Article XIII to a particular dispute.”
28. Section 13.1 of the SWE Agreement provides
that with respect to a particular dispute, “each Mem-

108a
ber that is a party to such Dispute is referred to herein
as a ‘Disputing Member.’”
29. Section 13.2 of the SWE Agreement describes
the procedure that “shall” be followed to attempt to
resolve a “Dispute.” The section states “the Disputing
Member shall provide written notice to the other
Disputing Members of the matter in Dispute,” the
executive officers of the Disputing Members meet in a
good faith attempt to resolve the Dispute, and only
then may an arbitration be initiated.
30. Section 13.3 (a) and (b) requires the “Disputing
Member” initiating arbitration to notify the other
“Disputing Members” of the arbitrator appointed by
the “Disputing Member” and the demand for
arbitration and statement of matters in controversy.
Within 15 days, “each other Disputing Member” shall
name an arbitrator. In the event there are more than
two “Disputing Members” to the dispute, the arbitrators selected by the “Disputing Members” shall cause
the appointment of either one or two arbitrators as is
necessary to create an odd number of total arbitrators.
31. Section 13.3 (e) provides that the Commercial
Arbitration Rules of the AAA will apply to the
arbitration unless otherwise stated in the SWE
Agreement.
32. Section 13.3 (f) provides in part that the
“Disputing Members” shall make their witnesses
available in a timely manner for discovery and if a
“Disputing Member” fails to comply with discovery
requests, the arbitrators may take such failure to
comply into consideration in reaching their decision.
33. Section 13.3 (i) provides that any decision by a
majority of the arbitrators shall be final and binding
with no right of appeal.

109a
34. Section 13.3 (j) provides that the statute of
limitations will be tolled from the date of the notice of
a Dispute is provided to the Disputing Members.
35. Section 13.3 (l) provides that the arbitrators
shall have no authority to award special, exemplary,
punitive or consequential damages.
36. Section 13.4 provides that the prevailing Member(s) in arbitration are entitled to recover court costs,
fees and expenses, including reasonable attorney’s
fees.
37. Section 17.8 of the SWE Agreement provides
that the agreement is governed by the laws of the
State of Delaware.
38. The SWE Agreement does not require capital
contributions from the members beyond the initial
capital requirements set out in Exhibit A to the
Agreement.
39. Section 17.11 of the SWE Agreement provides
that the Agreement constitutes the entire agreement
among the Members and supersedes all prior agreements among them with respect to the subject matter
hereof.
40. The notable changes from the MOU to the SWE
Agreement are that AVIC USA is the only AVIC
affiliated entity with an equity interest in SWE and its
profit interest is 50% rather than a lesser amount set
forth in the MOU for any “AVIC” entity.
41. CX 2 is not the first version of the SWE
Agreement. It is a corrected version substituting
Nolan for Jenevein individually and Young in place of
Tersus Energy PLC. However, there is no evidence of
any other changes between the initial version and CX
2. All of the parties agreed that CX 2 contains the same

110a
material terms as the original agreement other than
the names of two of the members. Although Thompson
contends that his signature on CX 2 is a forgery, he
admits that he signed an agreement to create SWE
and that the terms of CX 2 are materially the same as
the version he signed.
42. All members of SWE paid their initial capital
requirements set forth in Exhibit A to the Agreement.
43. All members of SWE had the opportunity to
review the SWE Agreement prior to signing the
Agreement.
44. All members of SWE signed the SWE Agreement freely and voluntarily.
45. The SWE Agreement was not procured through
artifice or fraud on the part of any Member.
46. All members of SWE agreed to the material
terms of CX 2.
The Chicago Agreement
47. On April 28, 2009, Tang and AVIC TED signed
an agreement entitled “Preliminary Agreement for
Wind Power Project Development” (the “Chicago
Agreement”). The agreement recites in part that
“CATIC-TED” wishes to participate in the development of wind power industry in the United States” and
“has experience in oversea projects development” and
has “sales and after-sales service capacity and related
resources in the United States.” The agreement also
states, “Tang has been committed in energy industry
and has professional staff to develop wind power
projects in the United States.” The agreement recites
that in consideration of the mutual covenants in the
agreement and other consideration, “both sides agree

111a
to cooperate for develop wind power projects in the
United States . . ..”
The Chicago Agreement further states:
“Both sides agree to develop wind power projects together through cooperation and finish
the development of wind power projects
for total capacity of 200 Megawatt within
5 years after this preliminary agreement
becoming effective. “CATIC-TED” will totally
finance 300,000,000.00 US Dollars in wind
power projects development, in which
200,000,000.00 US Dollars will be used to
purchase related wind power equipments
from China, 100,000,000.00 US Dollars will
be used to purchase services including, transportation, warranty services, after-sales services, operation services and related spare
parts and consumables parts.
Due to the specialty of wind power projects
and related equipments, the 200 Megawatt
wind power project is not a single project but
composed of several projects. The total capacity of these projects is 200 Megawatt with 5%
tolerances. The above wind power projects
include Cohasset project, Plymouth project,
Ratheon and other projects which now being
estimated by both sides. The total capacity of
these projects is 45 Megawatt and they
constitute the first phase of the whole
program.”
48. The Chicago Agreement called for Tang to
perform a “preliminary assessment” for projects in the
United States, but CATIC TED would be responsible
for the “entire project development.”

112a
49. Bian Tao signed the Chicago Agreement on
behalf of CATIC TED and Jenevein signed on behalf of
Tang. At the time he signed the Chicago Agreement, it
is unclear whether Mr. Tao was an officer of AVIC
International or CATIC TED, or whether those two
were one and the same. Some evidence suggests that
CATIC TED had already been folded into AVIC International as part of the 2008-9 reorganization. Xu Hang
of CATIC TED authored the Chicago Agreement.
50. The Chicago Agreement is part of the sequence
of agreements between the Tang “side” and the AVIC
“side”, which began with the MOU, followed by the
SWE Agreement, and completed by the Chicago
Agreement.
51. Although the Chicago Agreement is difficult to
read and poorly worded at times, its language imposes
no affirmative duty on CATIC TED to agree to any
specific wind power project in sufficiently definite
terms.
Cirrus Aircraft
52. Technical similarities exist between aviation
and wind power technologies. In April of 2009, Cirrus
Aircraft informed Jenevein that Cirrus was interested
in expanding into wind-turbine blade manufacturing.
53. Tang alerted AVIC USA to the possible opportunities presented through some association or acquisition of Cirrus Aircraft.
54. AVIC USA could make no decision on Cirrus
Aircraft and had to report the opportunity to AVIC
entities up the chain of AVIC companies. The evidence
is unclear whether Sherman Zhang of AVIC USA took
the matter up with AVIC International or AVIC HQ.

113a
55. After Tang and CATIC TED held a signing
ceremony for the Chicago Agreement in April of 2009,
Tang escorted a delegation of AVIC officials to Duluth,
Minnesota to meet the officials with Cirrus Aircraft
and tour its facilities.
56. AVIC executives invited Jenevein to Paris,
France in June 2009, to the Paris Air Show to meet
with Cirrus management, to answer additional questions concerning Cirrus Aircraft and discuss AVIC’s
acquisition of the company.
57. In July of 2009, AVIC HQ created CAIGA, a
wholly owned AVIC “subsidiary,” to make the Cirrus
Aircraft acquisition, which closed in June of 2011.
58. After the Paris meeting, Jenevein did not hear
from AVIC about the Cirrus Aircraft acquisition until
after it closed.
59. There is no evidence in the record that Cirrus
Aircraft manufactured wind-turbine blades after the
CAIGA acquisition of Cirrus Aircraft.
Breach of Contract by AVIC USA and Thompson
60. The Members of SWE agreed in the SWE
Agreement that the “Business” is worldwide marketing of wind energy equipment, services and materials
related to wind energy and includes development of
wind farms.
61. The Members of SWE agreed that SWE would
be the exclusive vehicle through which its Members
would conduct activities constituting the “Business.”
62. The extent of the exclusive arrangement agreed
to by the Members as set out in the Agreement is
ambiguous. Section 6.10 appears to apply only to
Members. On the other hand, Section 6.11 prohibits
any Member, its Representatives and Affiliates from

114a
engaging in the “Business” of SWE except through
SWE. Section 6.12 prohibits Class A Members and
their Affiliates from “participating” in wind farm land
development projects except through entities owned
jointly by SWE and CATIC. The Agreement’s confidentiality provision prohibits Members and their
Affiliates from revealing confidential information
about the company, the Members, Affiliates or the
Agreement. The Chicago Agreement clearly states
that “SWE will be the exclusive vehicle for both Tang
and CATIC interest in the wind industry.” The great
weight of the evidence supports a construction that
Members, their Affiliates and Representatives will
only conduct the “Business” through SWE.
63. With regard to Class B Members of SWE, the
SWE Agreement also prohibits them from engaging in
the “Business” of SWE except through SWE. The SWE
Agreement’s use of the term “participating” in 6.12 is
different from the phrase “activities constituting the
Business” and the “Business” as used in Sections 6.10
and 6.11. The term “participating” as used in Section
6.12 means taking an equity position in a Project as
defined by the SWE Agreement.
64. The SWE Agreement requires Members and
their Representatives and Affiliates to conduct the
“Business” of SWE solely through SWE or its
Controlled Companies.
65. AVIC USA itself did not violate the contractual
provision to refrain from engaging in the Business of
SWE except through SWE.
66. However, AVIC USA’s affiliates as defined by
the SWE Agreement, competed against SWE and
engaged in the “Business” of SWE thereby violating
the SWE Agreement’s exclusive arrangement. Specifi-

115a
cally, AVIC HQ, AVIC International, AVIC IRE and
Ascendant, are “Affiliates” of AVIC USA because they
directly or indirectly controlled AVIC USA and all are
under the common control of AVIC HQ. As a result,
AVIC USA breached the SWE Agreement by its
Affiliates engaging in the “Business” of SWE.
67. Thompson violated the SWE Agreement by
engaging in the “Business” of SWE on behalf of
Ascendant.
68. Sections 6.10, 6.11, and 6.12 do not limit former
employees of SWE in their professional mobility or
restrict former employees from soliciting SWE’s customers. Sections 6.10, 6.11, and 6.12 by their terms
relate to Members and their Representatives and
Affiliates. As a result, the provisions are not covenants
not to compete.
Theft of Trade Secrets
69. Section 8.4 of the SWE Agreement prohibits
Members and their Affiliates from disclosing any
confidential or proprietary information of the other
Members or of SWE to third parties.
70. Claimants failed to produce evidence of any
specific confidential or proprietary information that
any other Member or its Affiliates provided to a third
party.
71. Claimants failed to identify any information
that derives independent economic value from not
being generally known or readily ascertainable by
proper means, which Claimants provided any Respondent. While Claimants demonstrated a benefit to
Respondents’ access to Claimants contacts and general knowledge, those facts alone are insufficient to
show the information was a trade secret.

116a
Tortious Interference
72. Claimants’ assertion of tortious interference
with existing contracts is an alternative allegation to
its alter ego claims. As a result of the panel’s decision
on alter ego, it will not consider the claims for tortious
interference of existing contracts.
73. With respect to Claimants’ allegation of tortious
interference with prospective business opportunities,
Claimants offered no evidence that they had a reasonable probability of entering into a business relationship with Wind Tex related to what became the Cirrus
1 project without financing from AVIC. Further,
Claimants offered no evidence that intentional interference by Respondents is what caused Claimants
from entering into a business relationship with Wind
Tex.
Breach of Fiduciary Duty
74. Section 6.8 (b) of the SWE Agreement disclaims
any fiduciary duty between Members or between
Members and the Company. The Members “expressly
acknowledge and agree hereby that their relationship
to the Company and each other is strictly contractual
in nature and is not that of partners, joint venturers
or any similarly situated persons and is not fiduciary
in nature.”
75. Claimants failed to offer any evidence of a
fiduciary relationship between them and any of the
Respondents outside of the SWE arrangement, other
than that which may have existed while Thompson
was a managerial employee of SWE prior to his termination. However, Claimants failed to produce any
evidence of a breach of a fiduciary duty by Thompson
while he held such a position.

117a
Unjust Enrichment
76. A contract exists between Claimants and Respondents governing the relationship between the
parties with respect to the claims alleged.
Single Business Enterprise/Alter Ego
77. The evidence overwhelmingly shows that AVIC
HQ, AVIC International, AVIC IRE, AVIC TED, and
Ascendant operated as one entity with respect to the
MOU, SWE Agreement, and the Chicago Agreement.
AVIC HQ exercised such complete control over the
other entity Respondents in this case the AVIC Respondents operate as one entity.
78. The Organization Department of the central
Chinese Communist Party (“CCP”) appoints the top
management of AVIC HQ. Among the AVIC Respondents, it is undisputed that officers of parent companies
frequently serve as officers and/or directors of subordinate units. By virtue of its controlling interest in its
subsidiaries, AVIC HQ appoints its own managers to
key positions in the subsidiaries, including the Chairman and members of the Board of Directors and the
Board of Supervisors to insure compliance with its
directives. The leadership of AVIC HQ has its own
personnel department that makes the personnel appointments for its subsidiary units. Lin Zuoming, the
Chairman of AVIC HQ, is also a member of the Central
Committee of the CCP.
79. All of China’s state-run aviation industry operates under the direction of AVIC HQ, which sits at the
top of a pyramid of subsidiary companies. AVIC HQ is
one of 112 companies owned by the Chinese government through the State Asset Supervision and Administration Commission (“SASAC”).

118a
80. SASAC represents the Chinese government in
overseeing the management of assets, personnel and
operations of State Owned Entities (SOEs), like AVIC
HQ and its subsidiaries. SOE leaders are treated like
government officials. AVIC HQ previously argued to
the Sixth Circuit that it is a part of the Chinese
Government.10 AVIC HQ follows the policy guidance
from an organization called the State Administration
for Science Technology Industry for National Defense
(SASTIND). In 2007, SASTIND directed AVIC to get
involved in alternative energy including wind power.
In response, AVIC HQ established a project group
designed to take responsibility for wind power development and Xu Hang was the head of that group. Lin
Zuoming, the CEO of AVIC HQ, also stated that the
resources of the entire AVIC group would be employed
to develop wind power.
81. The MOU came about as a direct result of AVIC
HQ’s desire to compete in the wind power industry as
directed by SASTIND. Although the MOU was facially
an agreement between Tang and CATIC USA, the
agreement also proposed that CATIC receive an equity
10

Global Tech. Inc. v. Yubei (Xinxiang) Power Steering Sys.
Co., 2015 U.S. App. LEXIS 21147, *8-9 (6th Cir. 2015) (“The
People’s Republic of China (“PRC”) owns AVIC. The company has
a business license for both military products and “general business items,” including automobile parts. AVIC’s business license
shows a stamp of the official seal of the State Administration for
Industry and Commerce of the People’s Republic of China, and
the license states that AVIC is “Owned by the Whole People.”
AVIC is a Fortune 500 company, with over 400,000 employees
and $23 billion in annual revenue, directly owned by China’s
State Council (the chief administrative authority of the Chinese
central government). The State Council’s State-Owned Assets
Supervision and Administration Commission supervises and
manages the state-owned assets of enterprises like AVIC.”)

119a
interest in the new company. A CATIC officer signed
the MOU. CATIC USA had no experience in the wind
power business at the time the MOU was signed and
it did not have the financial ability to fund wind power
development projects except through its parent company or companies.
82. The SWE Agreement was a continuation of
AVIC HQ’s directive from SASTIND. The original idea
for SWE came from Tang and CATIC TED or AVIC
HQ were the AVIC entities indicating a desire to be
part of the business. Further, the MOU states that
SWE would be the exclusive vehicle for Tang and
CATIC in the wind power industry. When AVIC USA
signed the SWE Agreement, it was doing so on orders
from AVIC HQ.
83. AVIC HQ has a finance section, it has an
accounting section, it has an audit section, but it has
no sales or products of its own. AVIC HQ uses these
sections to govern the access to resources of its subsidiaries and its subsidiaries of subsidiaries by determining how much the subsidiaries can retain of their
funds, by assisting them with access to credit from
state-owned banks and by distributing quotas for bond
and equity money raising. For instance, Xu Hang
testified to the effect that AVIC International used
money from AVIC TED to capitalize AVIC IRE. Prof.
deLisle, AVIC USA’s expert, indicated that AVIC HQ–
which all parties agree engages in no commercial
activity independent of its subordinate units – has
“powerful design, research and development, and
product manufacturing abilities.”
84. AVIC HQ’s subsidiaries readily acknowledge
that they are controlled by AVIC HQ. AVIC International’s shareholder introduction states that it is
controlled by AVIC HQ. AVIC IRE’s web site describes

120a
itself as a unit directly subordinate to AVIC HQ. For
further example, Sherman Zhang, AVIC USA’s president, stated, “. . . we have a division in charge of
International Affair[s] . . . AVIC has an international
affairs division,” which he suggested might assist
Tang in resolving its complaints. Xu Hang, stated
AVIC USA was responsible for the networks of AVIC
Group and who described AVIC USA on March 25,
2015, as “just really an office” from which Sherman
tries to support “the entire group . . . AVIC group,”
providing “information or support or assistance ... for
anything they want.” Sherman Zhang acted as a
spokesman of AVIC Group and commented publicly on
Cirrus Aircraft sales trends, the merits of AVIC IHC’s
corporate acquisitions, and held himself out as a
representative of AVIC Group generally. AVIC HQ
owns a controlling interest in AVIC International,
which in turn owns 100% of AVIC IRE. AVIC IRE, in
turn, owns 100% of Ascendant.
85. AVIC HQ capitalizes its subsidiaries and directs
the transfer of assets, including securities and cash,
from one subsidiary to another and from subsidiaries
to AVIC HQ itself. Prof. deLisle noted that “the way
that group companies of this type generally operate
where funding/financing is provided from higher levels
to lower levels. And in some of these entities the
financial side in the sense of the providing of capital
for projects by lower-level entities is subject to a
degree of central control.” He also testified that “[i]t’s
a special set of rules for state-owned assets. And there
are limits to the degree to which entities subject to the
state-owned assets, regulations, and laws can acquire
or dispose of property and assets outside of China. So
there are limits. They do not even . . . have complete
authority to do exactly as they wish with all of their
[own] property.” Prof. Naughton and Col. Stokes

121a
testified that one particular AVIC entity oversees the
financing of the subordinate units, and that this fact
is acknowledged in credit rating letters from Moody’s
and Fitch. SASAC must approve all joint venture
investments made by AVIC subsidiaries overseas.
AVIC HQ assigns employees to specific subsidiaries
with no input from the subsidiary to which the
employee is assigned, and transfers employees from
one subsidiary to another without consulting the
employee or the subsidiary. At any given time, multiple employees will have multiple roles with different
subsidiaries simultaneously. For example, CAIGA
admits that it operates “under the strategic guidance
of AVIC,” and that it owner-controlled by AVIC HQ as
its majority shareholder, and its Chairman, Qu
Jingwen, is a career AVIC employee and was concurrently the chairman of AVIC Harbin Aircraft Industry
Group, another AVIC HQ subsidiary. As another
example, Peng Bo sent emails as a Deputy Director for
both AVIC IRE and Ascendant. Thompson states that
Tiger Lu was an Ascendant employee but was never
on Ascendant’s payroll and AVIC IRE employees were
assigned to Ascendant. Xu Hang stated that Sherman
Zhang, the President of AVIC USA, is paid by AVIC
International.
86. Xu Hang stated in an interview that he was the
head of a “project group [ ] set up specifically by AVIC
Group HQ to take responsibility solely for development of the wind power sector.”
87. AVIC HQ’s CEO at the time, now Chairman of
AVIC HQ (Lin Zuoming), was quoted: “[D]evelopment
of non-aviation civilian products is a strategic
[decision] for the scientific development of AVIC
Group, and wind power will be a focal point for the
Group’s future development. There are many common-

122a
alities between aviation and wind power technologies,
. . . developing wind power sector will draw on all
the capabilities of AVIC in order to maintain the
development of the entire value chain.”
88. Employees of AVIC subsidiaries present themselves as agents of the AVIC Group.
89. AVIC HQ maintains clear ownership control
over its subsidiaries, even when it allows other entities
to own non-controlling interests. Even in situations
where it does not own a controlling interest on its own,
AVIC HQ uses subsidiaries to maintain control. As an
example, AVIC HQ unilaterally decided that it should
own a 25% interest in HT Blade. To make room
for AVIC HQ’s interest, its subsidiary shareholders,
Baoding Huiyang Aviation Propeller Factory and
China Aviation Industry Gas Turbine Power (Group)
Company, simply relinquished the necessary percentage of their own interests without consideration. Subsequently, even though AVIC HQ was only a 25%
owner, it appointed the Chairman of the Board of
Directors for HT Blade. AVIC HQ caused HT Blade to
pay Baoding Huiyang Aviation Propeller Co., Ltd. (an
AVIC subsidiary) $8 million from HT Blade’s account
without the consent or approval of the shareholders of
HT Blade so that Huiyang could meet its payroll.
90. AVIC HQ charges a “service coordination fee”
from HT Blade and from its other subsidiaries without
any legal basis for doing so, without an agreement
authorizing the fee and without offering any consideration in exchange for the fee.
91. AVIC HQ, AVIC International, or AVIC IRE
made all the hiring and firing decisions for AVIC IRE’s
subsidiary Ascendant. AVIC HQ, AVIC International
or AVIC IRE presented Thompson, the President of

123a
Ascendant, with a business plan for Ascendant and
instructed him to sign it. Thompson stated that
he recalled Xu Hang saying that “big AVIC” would
decide what opportunities identified by Sherman
Zhang would go to which AVIC entity. According to
Thompson, “some entity at the very top of the chain
decides where they go – or who takes advantage,” and
Cirrus Aircraft was an example of that. Thompson
indicated that he was “waiting around for months”
until the [Chinese] government approved the funding
of Ascendant. During that time, AVIC International
provided Ascendant with U.S. dollars from an AVIC
entity in Hong Kong. Xu Hang of AVIC IRE informed
Thompson that Mr. Peng and Mr. Lu would work for
Ascendant in project development without Thompson’s
input.
92. Thompson testified in his deposition that AVIC
IRE loaned Ascendant $800,000, and that Ascendant
was only able to repay AVIC IRE when AVIC IRE
bought stock from Ascendant for $1 million. The
“leaders” of AVIC IRE decided that Ascendant had to
loan AVIC Energy Cambodia $250,000.00 and dictated
the terms of the loan for Thompson to include in a
resolution from Ascendant. Thompson stated that
Ascendant’s loan to AVIC Cambodia was a bridge until
the “Chinese government” approved funding for that
enterprise. On a temporary basis, therefore, AVIC
IRE financed AVIC Cambodia using the money in
Ascendant’s account.
93. Baoying Wang, the President of AVIC IRE,
directed Thompson as the President of Ascendant to
accelerate the registration of AVIC International
Canada Enterprises, Inc. so that AVIC IRE could
capture a portion of the Canadian market even though
the Canadian enterprise was supposed to be a sub-

124a
sidiary of Ascendant. Xu Hang on behalf of AVIC IRE
directed Thompson of Ascendant to pay for the
attendance of AVIC IRE employees to Canada’s
Wind Energy Association meeting because “AVIC
Canada” had no funds. CX 303. Xu Hang also directed
Thompson to sign documents transferring Ascendant’s
shares in AVIC International Canada Enterprises,
Inc. to AVIC International without any compensation
to Ascendant.
94. Thompson received a bonus in 2012 of $50,000
even though Ascendant’s profits for that year were
approximately $5,700. Thompson’s employment agreement defined “AVIC” to include “any proprietorship,
partnership, limited liability company, or corporation
controlled directly or indirectly by it.”
95. With regard to SWE, it was directed by both
AVIC USA and AVIC International to present proposals for projects under the agreement to Xu Hang at
AVIC International rather than Sherman Zhang at
AVIC USA. Sherman Zhang stated that a non-specific
“team” that includes people in China who are not
employees of AVIC USA, who would support AVIC
USA and Soaring Wind in carrying out the SWE
Agreement. AVIC USA could not agree to finance any
SWE projects because its capital was inadequate.
Jenevein testified that Sherman Zhang agreed that
$700,000 in capital set aside for SWE would never be
enough to finance the development of a wind farm.
AVIC USA (through SWE) could engage in no wind
energy business without the approval of AVIC International, AVIC TED, and later AVIC IRE.
96. Ascendant could do no work without the
approval of AVIC IRE. By way of example, Ascendant
could not sign a contract with WindTex, a Texas
company controlled by Mr. DeWolf, unless both

125a
Thompson and DeWolf travel from Texas to Beijing for
the signing.
97. Among the AVIC Respondents, the parents
sometimes pay the salaries and expenses of the
subordinate units.
98. Further, the timing of events demonstrates the
control AVIC HQ wielded over its subsidiaries particularly with regard to the dispute before the panel. In
2007, SASTIND directed AVIC HQ to get involved in
alternative energy including wind power. In response,
AVIC HQ established a project group designed to take
responsibility for wind power development and Xu
Hang was the head of that group. As a result, CATIC
TED and Tang entered into the MOU. Mr. Rongchun
was Vice President of CATIC TED and held no position
with AVIC USA. The MOU led to the SWE Agreement
signed by CATIC USA and Tang. Shortly thereafter,
or about the same time, AVIC HQ began its reorganization. As part of that reorganization, Wu
Guangchuan was named the Chairman of AVIC
International. Sherman Zhang stated it succinctly:
“when leadership change[s], management change[s],”
and “the new leaders don’t care about the commitments” their predecessors made to their partners. In
an apparent shift in strategy, AVIC International
created AVIC IRE in 2010. AVIC IRE was created
“according to the strategy of AVIC [HQ] to vigorously
develop the renewable energy industry.” Liu
Rongchun, the individual who signed the MOU with
Tang, became the founding chairman of AVIC IRE,
and was given the mission to explore renewable
energy projects throughout the world. AVIC IRE
decided to do this without the participation of SWE. In
2011, AVIC IRE created Ascendant to compete with
SWE in the wind energy arena. After AVIC HQ set the

126a
strategic goal and AVIC International created AVIC
IRE and set its mission, AVIC USA and AVIC TED no
longer had authority from AVIC HQ to engage in wind
power development on behalf of AVIC. AVIC HQ used
it subsidiaries and its control over its subsidiaries to
commit a fraud and work an injustice on Claimants.
AVIC HQ dominated its subsidiaries in the transactions at issue in this case, namely, directing the
establishment of SWE and the subsequent establishment of a new subsidiary (and its Texas-based subsidiary Ascendant) intended to compete directly and
effectively against SWE. AVIC HQ and its wholly
owned subsidiaries created additional subsidiaries in
an attempt to get around its promises made in the
SWE Agreement to Claimants.
Damages
99. The Members of SWE bargained for the mutual
and exclusive worldwide marketing of wind energy
equipment, services and materials related to wind
energy including the development of wind farms.
100. By November 3, 2013, AVIC IRE, by its own
admission, had invested $50 million in wind power
projects in the United States. The evidence establishes
that AVIC IRE and/or Ascendant and/or single asset
entities created by those entities developed the Ralls
Wind Farm, and Cirrus Wind I. In addition, AVIC
IRE’s web site details a 1.5 megawatt turbine project
in Minnesota, 10 sets of 1 megawatt turbines in
Lubbock, Texas, and a 1 megawatt turbine in Tooele,
Utah. Independent evidence is lacking as to whether
the individually identified wind projects are part of the
$50 USD million investment by AVIC IRE in wind
power projects in the United States.

127a
101. In addition to the United States, AVIC IRE
reported on its web site that it developed wind power
projects in Bulgaria, Mongolia, Romania, New
Zealand, Australia, Canada, Brazil, Chile, and South
Africa.
102. Other than identifying a project in 2012 in
Bulgaria named “Somovit,” describing an installed
capacity of 4.5 megawatts, AVIC IRE’s web site’s reference to wind projects in countries other than the
United States does not set forth any specifics. Further,
Claimants were unable to present evidence of specific
wind power projects undertaken by AVIC IRE outside
of the United States other than the Bulgaria project.
103. AVIC IRE considered 15% to be its minimum
anticipated return on investment before it would
undertake any given project if financing is the sole
measure of profitability. AVIC IRE would not finance
a wind power project unless it anticipated a 15%
return on its investment.
104. 9.25%, determined based upon the Buildup
Method, is an appropriate discount rate for AVIC
IRE’s $50 USD million investment in wind power
projects in the United States to calculate the present
value of future damages. In addition, the Buildup
Method for determining an appropriate discount rate
is generally accepted and recognized methodology for
determining the discount rate to be applied.
105. The lifespan of wind farm development projects that come to fruition is anywhere from 25 to 30
years. Although the lifespan of wind farms is anywhere from 25 to 30 years, there is very little evidence
in the record as to the time that investors maintain
their equity position in any given wind farm
development.

128a
106. The present value of cumulative potential
return on $50 USD million in capital investment using
the 15% minimum return on investment and a discount rate of 9.25%, after deducting the initial $50
USD million investment, is $62.9 USD million after 10
years, $94.7 USD million after 15 years, $131 USD
million after 20 years, and $174.8 USD million after
25 years. The present value of the return on the $50
USD million investment is what Claimants bargained
for and only an award of some amount of these lost
profits will put Claimants in the same position they
would have occupied had the SWE Agreement not
been breached by AVIC USA and its Affiliates.
107. Claimants contend that they expended significant capital in reliance on the promises made by AVIC
USA in the SWE Agreement. A portion of the reliance
damages sought by Claimants relates to the Flat
Water and Corpus Christi projects. The evidence
shows that Claimants presented those projects to
AVIC USA and AVIC USA, either directly or through
non-action, chose not to participate in those projects.
If Claimants chose to pursue those projects further,
they did so on their own because the SWE Agreement
did not require AVIC USA to participate in particular
projects. In addition, in terms of the operating expenses allegedly funded by the Claimants for the
benefit of SWE, Claimants failed to show the allocation of those expenses and whether Claimants would
have incurred those expenses absent the existence of
the SWE Agreement.
108. Section 9.1 of the SWE Agreement provides in
part that “[1]f a Member is in Default, the other
Members and the Company shall have all rights and
remedies available at law and in equity with respect
to such breach, including the remedies of specific

129a
performance and injunctive relief.” AVIC USA’s
breaches of the SWE Agreement constitute a default
of the agreement making it no longer reasonably
practicable for the Members to carry on the business
of SWE in conformity with the SWE Agreement.
109. The lost profits set forth in this award are
due to SWE for distribution to the Claimants through
their percentages set forth in the SWE Agreement.
However, in order to prevent AVIC USA and
Thompson from profiting from their breaches of the
SWE Agreement, they should be prohibited from
receiving any profit from any award to SWE. This is
true with respect to Thomson even though we are not
ordering him to pay any damages. On the other hand,
AVIC USA contributed $350,000.00 USD as an initial
capital contribution to SWE. Thompson made no capital contribution to SWE. AVIC USA and Thompson’s
equity interest in SWE should be divested, but AVIC
USA should receive a credit for its capital contribution
to SWE.
Attorney’s Fees and Arbitration Expenses
110. Paragraph 13.4 of the SWE Agreement provides that the prevailing Members in any arbitration
or litigation are entitled to recover “all court costs, fees
and expenses of such arbitration (or litigation),
including reasonable attorneys’ fees.”
111. Claimants are the prevailing Members in this
arbitration.
112. The administrative fees of the AAA/ICDR
amount to $85,800.00 USD. The arbitrator compensation totals $900,893.85 USD. Claimants have incurred
a total of $897,730.72 USD for fees paid directly to the
AAA/ICDR for administrative fees and arbitrator
compensation.

130a
113. Tang paid or agreed to pay the reasonable
attorney’s fees and expenses of the other Claimants.
For all Claimants, Tang has incurred a total of
$3,719,533.23 USD in reasonable attorneys’ fees and
expenses as of the issuance of this Final Award.
114. In the event Claimants are required to obtain
a judgment confirming this Final Award and effect
service on multiple defendants through the Hague
Convention, we find Claimants will reasonably incur a
total of another $1,200,000.00 USD in legal fees and
expenses.
115. In the event Claimants are required to collect
a judgment, we find Claimants will reasonably incur a
total of another $500,000.00 USD in legal fees and
expenses.
116. In the event Claimants are required to successfully prosecute or defend against an appeal of the
District Court’s judgment to the Fifth Circuit or any
other circuit court of appeals, we find Claimants will
reasonably incur a total of another $250,000.00 USD
in legal fees and expenses for that appeal. In the event
Claimants are required to prosecute or defend against
a petition for review to the United States Supreme
Court, Claimants will reasonably incur a total of
$50,000.00 USD in legal fees and expenses. In the
event the United States Supreme Court grants review
of any appeal, we find that Claimants will reasonably
incur an additional $150,000.00 USD in legal fees and
expenses.
117. In addition, Tang has incurred additional
expenses directly related to this arbitration in the
amount of $1,875,264.71 USD, including without limitation, experts’ fees and expenses, all costs associated

131a
with depositions, mediation, arranging facilities,
graphics, and trial consultation.
118. We find that AVIC USA and Thompson are not
prevailing Members under the SWE Agreement and
that no factual circumstances exists which would
compel the panel to award them attorney’s fees or
expenses.
Jurisdiction and Composition of the Panel
119. The Members of SWE agreed that “any controversy, dispute, or claim arising under or related to this
Agreement (whether arising in contract, tort or
otherwise, and whether arising at law or in equity),
including (a) any dispute regarding the construction,
interpretation, performance, validity or enforceability
of any provision of this Agreement, and (b) the applicability of this Article XIII to a particular dispute” would
be submitted to binding arbitration. All of the claims
raised by all of the parties in this arbitration come
within the scope of this agreed arbitration provision.
120. Claimants sent notice of its claims to
Respondents on May 14, 2014, describing the matters
in dispute between Claimants and AVIC USA and its
affiliates. The notice complied with section 13.2 of the
SWE Agreement insofar as Claimants’ allegations
against all Respondents other than Thompson.
121. Claimants notice failed to describe the “matter
in dispute” with regard to Thompson. Although
the notice letter complained of “AVIC’s” hiring of
Thompson, a member of SWE, it failed to set forth
complaints about Thompson’s actions as opposed to
AVIC’s actions.
122. Claimants initiated this arbitration on June
13, 2014, by filing the Demand with the AAA/ICDR.

132a
123. The Members of SWE agreed to arbitrate the
disputes before the panel in accordance with the AAA
Commercial Arbitration Rules.
124. The Members appointed the arbitrators in
accordance with the terms of the SWE Agreement and
AAA Commercial Arbitration Rules without a lapse in
that process.
125. The composition of the panel is in accord with
the SWE Agreement.11
126. The Members agreed that the arbitrators
would have the power to rule on panel’s jurisdiction,
including the arbitrability of any claim or defense by
incorporating Section R-7 of the AAA Commercial
Arbitration Rules.
127. The Non-Signatories were properly served
with the Arbitration Demand in this matter and have
had due notice of all proceedings before the panel.
Despite this, the Non-Signatories chose to not participate directly. It is clear to the panel that the NonSignatories participated in some respects in this
arbitration through its subsidiary AVIC USA and
to an extent through Thompson. AVIC USA and
Thompson claimed in response to many discovery
requests by Claimants that they did not have possession, custody or control over documents and
witnesses relevant to these proceedings. Despite these
claims, Ms. Wu Lili, the current President of AVIC
IRE, wrote a letter responding to certain questions
presented to her by counsel for Thompson. In addition,
11

Although not binding in a “law of the case” sense, the panel
notes that its reading of the SWE Agreement with respect to the
appointment of arbitrators is consistent with the opinion of Judge
Kinkeade in 3:14-cv-2815 and a panel of the Fifth Circuit, 1510190.

133a
Xu Hang, Vice President of AVIC IRE, testified
“voluntarily” when asked by Thompson after Claimant’s served their damage report in May of 2015. Prior
to that time, Claimants sought to depose Xu Hang
without success. At his deposition, Xu Hang claimed
he was represented in the deposition by Thompson’s
counsel and refused to testify, on counsel’s advice,
whether he was aware that Claimants sought his
deposition. Even so, Xu Hang admitted that his
attorney’s fees for his voluntary deposition where
being paid by AVIC IRE. In addition, Xu Hang made
himself available to speak with AVIC USA’s damages
expert who testified at the hearing.
128. Further, the Non-Signatories refusal to produce documents in this case to Claimants is in
contravention of Orders from the panel. Section R-23
of the AAA Commercial Arbitration permits the panel,
in an effort to achieve a fair, efficient and economical
resolution of the case, in the case of willful noncompliance with any order issued by the panel, to draw
adverse inferences, exclude evidence and other submissions, and/or make special allocations of costs or
an interim award of costs arising from such noncompliance. In addition, the SWE Agreement, section
13.3 (f), permits the panel to consider discovery noncompliance into account in reaching a decision. In a
typical case, Claimants would be able to discover the
factual basis for its claims that Respondents breached
the agreement by entering into X agreement, or financing Y wind project, or making Z equity investment. Respondents’ refusal to participate in discovery,
except when Respondents felt it was to their benefit,
prevented Claimants from getting the information to
prove X, Y, and/or Z. As a result, the panel has opted
to infer that Xu Hang’s statement in CX 330 that AVIC
International has invested $50 USD million in wind

134a
power projects in the United States is accurate
without any additional evidence.
Defenses Limitations
129. Claimants did not discover facts constituting
the basis of their claims in this case sufficient to put a
person of ordinary intelligence and prudence on
inquiry prior to May 14, 2011.
130. The facts constituting the basis of Claimant’s
causes of action were concealed by Respondents and
were not inherently discoverable by Claimants.
Standing
131. To the extent AVIC USA contends that SWE
is not a proper party to this arbitration, the panel
determines that SWE is a proper Claimant. The
management committee of SWE took action in
accordance with article VI of the SWE Agreement
authorizing SWE’s claims.
Estoppel, Unclean Hands, Forgery, Waiver, Latches,
Duress, Forgery
132. Tang offered the Members investment in Tang
wind farm development projects known as Flat Water
and Corpus Christi. AVIC USA chose not to participate in those projects through its silence when the
opportunity was presented.
133. Respondents failed to present any evidence
that Claimants intentionally waived a known right to
proceed against Respondents.
134. Respondents failed to present any evidence
that any Claimant executed a written waiver of any
part of the SWE Agreement as required by section
17.12 of the Agreement.

135a
135. Respondents failed to present any evidence
that Claimants unreasonably delayed asserting their
claims, or that Respondents changed their course of
action in a detrimental way in reliance on Claimants’
delays in action.
136. Respondents failed to present any evidence
that any Respondent signed the SWE Agreement
against his or her will.
137. The limitations on conducting the business
of SWE placed upon Members of SWE are not
restrictions on former employees of SWE in their
professional mobility and do not restrict former
employees from soliciting SWE’s customers. Sections
6.10, 6.11, and 6.12 by their terms relate to Members
and their Representatives and Affiliates. As a result,
the provisions are not covenants not to compete.
Counterclaims
138. AVIC USA contends that Tang breached the
SWE Agreement by continuing to receive distributions
related to its equity investment in HT Blade. HT Blade
was created in 2001, and was an impetus for the
parties to create SWE. Tang Energy Hong Kong is the
owner of the 25% interest in HT Blade. As a result, the
claim could only be made that Tang violated the
agreement through an affiliate. However, the same
would be true for AVIC because AVIC HQ and two of
its subsidiaries also hold interests in HT Blade. If the
parties to the SWE Agreement intended for their
investments in HT Blade to be part of the pooling of
interest reflected in the SWE Agreement, they would
have explicitly said so.
139. AVIC USA is not a prevailing party under the
SWE Agreement.

136a
140. Thompson is not a prevailing party under the
SWE Agreement.
CONCLUSIONS OF LAW
1. Article XIII of the SWE Agreement is unambiguous and may be construed as a matter of law.
2. Article XIII of the SWE Agreement relevant to
this arbitration is not fairly susceptible to different
interpretations.
3. The arbitration panel is composed in the manner
provided by the unambiguous agreement of the parties
as set forth in Article XIII of the SWE Agreement.
4. The arbitration panel has the power to decide the
disputes raised in this arbitration by virtue of Article
XIII of the SWE Agreement.
5. The SWE Members clearly and unmistakably
empowered this panel to determine whether this
arbitration involves a controversy, dispute, or claim
arising under or related to the SWE Agreement
(whether arising in contract, tort or otherwise, and
whether arising at law or in equity), including any
dispute regarding the construction, interpretation,
performance, validity or enforceability of any provision of the SWE Agreement
6. Extrinsic evidence may not be used to interpret
the intent of the parties or vary the terms of an
unambiguous provision of a contract. Eagle Industries
v. DeVilbiss Health Care, 702 A.2d 1228, 1232 (Del.
1997).
7. A contract is not ambiguous simply because the
parties disagree concerning its intended construction.
Eagle Industries v. DeVilbiss Health Care, 702 A.2d
1228, 1232 n. 8 (Del. 1997).

137a
8. The “Business” of Soaring Wind as set forth in
paragraph 2.3 of the SWE Agreement is unambiguous
and may be construed as a matter of law. The definition of the “Business” of SWE is worldwide marketing
of wind energy equipment, services and materials
related to wind energy and includes development of
wind farms.
9. The MOU is a preliminary agreement to agree
between CATIC T.E.D. and Tang. See AVIC USA HRG
EXH 169; See, e.g., Aveta Inc. v. Bengoa, 986 A.2d
1166, 1186 (Del. Ch. 2009) (agreement lacking material terms is unenforceable); Tractebel Energy Marketing, Inc. v. AEP Power Marketing, Inc., 487 F.3d 89, 95
(2d Cir. 2007) (“[A] mere agreement to agree, in which
a material term is left for future negotiations, is unenforceable.”). “[O]ne of the central tenets of contract law
is that a contract must be reasonably definite in its
terms to be enforceable.” Scarborough v. State, 945
A.2d 1103, 1112 (Del. 2008).
10. Delaware’s three-year statute of limitations
applies to all Claimants’ causes of action against
Thompson and AVIC USA.
11. The parol evidence rule bars “evidence of additional terms to a written contract, when that contract
is a complete integration of the agreement of the
parties.”
12. The SWE Agreement is an integrated agreement.
13. The determination of whether one entity is the
alter ego of another under federal common law
requires a finding that (1) the non-signatory exercised
complete control over the signatory with respect to the
transaction at issue, and (2) such control was used to
commit a fraud or wrong that injured the claimants.

138a
Bridas S.A.P.I.C. v. Gov‘t of Turkmenistan, 345 F.3d
347, 359 (5th Cir. 2003) (Bridas I). The elements of
alter ego under Delaware law is substantially the
same as the elements under federal common law.
14. This panel concludes (1) that AVIC HQ used
related entities in the form of its subsidiaries and their
subsidiaries to pursue its interests in renewable energy for the benefit of itself and those related entities,
and (2) that it would be unjust to require Claimants to
treat them other than as one entity; and we conclude
that AVIC HQ, AVIC International, AVIC IRE, AVIC
TED, CAIGA, and Ascendant are the alter egos of
AVIC USA with respect to the SWE Agreement. In
this case, we conclude that AVIC IRE was bound by
the agreements of AVIC IHC and AVIC USA, and it
follows that AVIC USA and AVIC IHC and AVIC HQ
are liable for any conduct of AVIC IRE (or any other
AVIC affiliate) that breached those agreements.
15. The panel concludes that (1) AVIC HQ exercises
such complete dominion and control over the other
AVIC Respondents that they all operate as a single
economic entity, and (2) AVIC HQ used its control over
its subsidiaries to commit a fraud or injustice against
Claimants, and there was an overall element of
injustice that injured Claimants.
16. We further conclude that based on AVIC HQ’s
role in its subsidiaries’ conduct, the local, relevant
activities of CAIGA, AVIC IHC, AVIC USA, CATIC
TED, AVIC IRE and Ascendant, including the execution of the MOU, the SWE Agreement, and the
Chicago Agreement, as well as all of AVIC IRE’s and
Ascendant’s activities in the wind farm development
business are properly attributed to AVIC HQ and to
its affiliates because they are the same legal entity.

139a
17. The panel concludes that AVIC HQ and the
other Non-Signatories are properly before this Panel
on theories of alter ego, attribution and merger, and
that they all may be charged with the obligations of
AVIC USA, including the obligation to arbitrate
pursuant to Article XIII of the SWE Agreement.
18. As a result of the panel’s determination that the
Non-Signatories are alter egos of AVIC USA, we
conclude that the merger clause of the SWE Agreement supersedes the MOU. As a result, we conclude
that no damages are warranted based upon the MOU.
19. We conclude that all Respondents, other than
Thompson, are liable for damages for the breach of the
SWE Agreement. As a result of Respondents engaging
in “Business” activities in violation of the Soaring
Wind Agreement, Claimants are entitled to damages
as well as disgorgement of Respondents profit interest
in SWE.
20. We conclude that while Thompson breached the
SWE Agreement, Claimants failed to give him notice
of their claims in that regard which is a condition
precedent to liability under section 13.2 of the SWE
Agreement.
21. We conclude that the Chicago Agreement is
preliminary agreement to agree between CATIC
T.E.D. and Tang and therefore unenforceable as a
breach of contract.
22. We conclude that Respondents are not liable to
Claimants for theft of trade secrets.
23. We conclude that Respondents did not tortuously interfere with Claimants’ prospective contractual relations with Wind Tex Energy related to the
Cirrus Wind Project.

140a
24. We conclude that the SWE Agreement specifically disclaims the existence of a fiduciary duty between the Members of SWE or the Members and SWE.
Therefore, we conclude that no fiduciary relationship
existed between Claimants and Respondents.
25. We conclude that because a contract exists
which controls the relationship between Claimants
and Respondents; unjust enrichment is not available
as a remedy to Claimants.
26. We conclude that Claimants have stated a claim
entitling them to relief.
27. We conclude that Soaring Wind has properly
intervened to assert its own claims for damages resulting from the conduct of Respondents. We conclude the
individual Claimants – the members of Soaring Wind
other than Thompson and AVIC USA – have rightfully
sought the divestiture of Thompson’s and AVIC USA’s
interests in Soaring Wind. Accordingly, the defense
fails.
28. We conclude that the evidence does not support
the defense of unclean hands.
29. We conclude that the evidence does not support
a defense of estoppel.
30. We conclude that Thompson agreed to all of the
material terms of the SWE Agreement and was a Class
B Member of SWE.
31. We conclude that the evidence does not support
a defense of waiver.
32. We conclude that the evidence does not support
a defense of laches.
33. We conclude that the evidence does not support
a defense of duress.

141a
34. We conclude that the contractual restrictions on
Members set forth in the SWE Agreement are not
covenants not to compete.
35. We conclude that the evidence does not support
AVIC USA’s counterclaim for breach of the SWE
Agreement.
36. We conclude that the evidence does not support
a counterclaim of unreasonable restriction on competition.
37. As a result of Respondent’s breach of the SWE
Agreement, we conclude that, in equity, the Soaring
Wind interests that belong to Thompson and AVIC
USA should be divested, and that AVIC USA should
have its initial capital investment of $350,000.00 USD
offset against the award against Respondents.
38. We conclude that SWE is the owner of the
claims asserted by Claimants against Respondents for
breach of the SWE Agreement.
39. We conclude that the claims for equitable
divesture of Thompson’s and AVIC USA’s interests in
Soaring Wind belong to Tang, JFI, Nolan, Carter and
Young in proportion to their ownership interests in
SWE.
40. We conclude that all Respondents other than
Thompson are jointly and severally liable to SWE in
the amount of $62.9 USD million for breach of the
SWE Agreement.
41. We conclude that all Respondents other than
Thompson, who shall bear its own administrative fees
and arbitrator compensation incurred, are jointly and
severally liable to Claimants for $897,730.72 USD for
fees paid directly to the AAA/ICDR for administrative
fees and arbitrator compensation; $3,719,533.23 USD

142a
in reasonable attorneys’ fees and expenses as of the
issuance of this Final Award; $1,200,000.00 USD in
legal fees and expenses Claimants will reasonably
incur in the event Claimants are required to obtain a
judgment confirming this Final Award and effect
service on multiple defendants through the Hague
Convention; $500,000.00 USD in legal fees and expenses in the event Claimants are required to attempt
collection of this award; $250,000.00 USD in legal fees
and expenses in the event Claimants are successful in
any appeal of a District Court’s judgment confirming
this award; $50,000.00 USD in legal fees and expenses
in the event Claimants are required to respond to a
petition for writ of certiorari to the United States
Supreme Court; $150,000.00 USD in legal fees and
expenses in the event the United States Supreme
Court grants review and Claimants are successful;
and $1,875,264.71, USD for Tang’s arbitration expenses including without limitation, experts’ fees and
expenses, all costs associated with depositions, mediation, arranging facilities, graphics, and trial consultation.
THEREFORE, the PANEL hereby makes an award as
follows:
1. SOARING WIND ENERGY, LLC is awarded its
damages against all Respondents, other than Paul
Thompson, jointly and severally, in the total amount
of $62,900,000.00, USD, less AVIC USA’s capital contribution in SWE, plus post judgment interest at the
rate of 5% per year, beginning from the date of this
Award.
2. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $897,730.72 USD for fees paid directly to
the AAA/ICDR for administrative fees and arbitrator

143a
compensation. Thompson shall bear its costs as
incurred.
3. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $3,719,533.23 USD in reasonable attorneys’
fees and expenses as of the issuance of this Award.
4. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly
and severally, $1,200,000.00 USD in legal fees and
expenses Claimants will reasonably incur in the event
Claimants are required to obtain a judgment confirming this Final Award and effect service on multiple
defendants through the Hague Convention.
5. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $500,000.00 USD in legal fees and expenses
that Claimants will reasonably incur if they are
required to attempt collection of this award.
6. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $250,000.00 USD in legal fees and expenses
in the event Claimants are successful in any appeal of
a District Court’s judgment confirming this award.
7. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $50,000.00 USD in legal fees and expenses
in the event Claimants are required to respond to a
petition for writ of certiorari to the United States
Supreme Court.
8. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $150,000.00 USD in legal fees and expenses

144a
in the event the United States Supreme Court grants
review and Claimants are successful.
9. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $1,875,264.71, USD, for Tang’s arbitration
expenses including without limitation, experts’ fees
and expenses, all costs associated with depositions,
mediation, arranging facilities, graphics, and trial
consultation.
10. Thompson’s membership interest in SWE divested and belongs to Tang, JFI, Nolan, Carter and
Young in proportion to their ownership interests in
SWE.
11. AVIC USA’s membership interest in SWE
divested and belongs to Tang, JFI, Nolan, Carter and
Young in proportion to their ownership interests in
SWE.
12. All relief requested and not granted in this Final
Award is denied.
We hereby certify that, for the purposes of Article I of
the New York Convention of 1958, on the Recognition
and Enforcement of Foreign Arbitral Awards, this
Final Award was made, as a majority decision, in
Dallas, Texas, U.S.A.
SIGNED this 21st day of December, 2015.
I, Steven E. Aldous, do hereby affirm upon my oath
as Arbitrator that I and the individual described in
and who executed this instrument, which is our Final
Award.
/s/ Steven E. Aldous
Steven E. Aldous, Arbitrator

145a
)
)
)

State of Texas
County of Dallas

On this 21st day of December, 2015, before me personally came and appeared Steven E. Aldous, known
to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
/s/ Sarah M. Irish
Notary Public within
and for the State of Texas
My Commission Expires:
7-15-17

SARAH M. IRISH
Notary Public
State of Texas
My Commission Expires
July 15, 2017

I, John M. Marshall, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final Award.
John M. Marshall, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me
personally came and appeared John M. Marshall,
known to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
Notary Public within and
for the State of Texas
My Commission Expires:
SIGNED this 21st day of December, 2015.

146a
I, Steven E. Aldous, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
Steven E. Aldous, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me
personally came and appeared Steven E. Aldous,
known to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
Notary Public within and
for the State of Texas
My Commission Expires:
I, John M. Marshall, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ John M. Marshall
John M. Marshall, Arbitrator
State of Texas
County of Dallas

)
)
)

On this 21st day of December, 2015, before me
personally came and appeared William Toles, known
to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.

147a
JOSE J. DURAN
/s/ Jose J. Duran
Notary Public
Notary Public within
State of Texas
and for the State of Texas
My Commission Expires My Commission Expires:
May 07, 2017
05/07/17
I, William Toles, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ William Toles
William Toles, Arbitrator
State of Texas

)
)
)

County of Dallas

On this 21st day of December, 2015, before me
personally came and appeared William Toles, known
to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
LINDA S. HAMMON
Notary Public
State of Texas
My Commission Expires
January 17, 2018

/s/ Linda S. Hammon
Notary Public within
and for the State of Texas
My Commission Expires:
01/17/18

I, Richard Capshaw, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
Richard Capshaw, Arbitrator

State of Texas
County of Dallas

148a
)
)
)

On this
day of
, 2015, before me personally came and appeared John M. Marshall, known
to me to be the individual described in and who executed the foregoing instrument and he acknowledged
to me that he executed the same.
Notary Public within and
for the State of Texas
My Commission Expires:
I, William Toles, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and
who executed this instrument, which is our Final Award.
William Toles, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me personally came and appeared John M. Marshall, known
to me to be the individual described in and who executed the foregoing instrument and he acknowledged
to me that he executed the same.
Notary Public within and
for the State of Texas
My Commission Expires:
I, Richard Capshaw, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ Richard Capshaw
Richard Capshaw, Arbitrator

149a
)
)
)

State of Texas
County of Dallas

On this 21st day of December, 2015, before me
personally came and appeared Richard Capshaw,
known to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
ANNA B. NEWTON
Notary Public
State of Texas
My Commission Expires
August 15, 2016

/s/ Anna B. Newton
Notary Public within
and for the State of Texas
My Commission Expires:
08/15/16

I, Gregory Shamoun, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final Award.
/s/ Gregory Shamoun
Gregory Shamoun, Arbitrator
State of Texas
County of Dallas

)
)
)

On this 21st day of December, 2015, before me
personally came and appeared Gregory Shamoun,
known to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
IRENE FLORES RIVERA /s/ Irene Flores Rivera
Notary Public
Notary Public within
State of Texas
and for the State of Texas
My Commission Expires My Commission Expires:
October 31, 2018
08/15/18

150a
I, Joseph Byrne, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and
who executed this instrumented, which is our Final
Award.
Joseph Byrne, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me
personally came and appeared Steven E. Aldous,
known to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
Notary Public within and
for the State of Texas
My Commission Expires:
I, Gregory Shamoun, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
Gregory Shamoun, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me personally came and appeared Gregory Shamoun, known
to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.

151a
Notary Public within and
for the State of Texas
My Commission Expires:
I, Joseph Byrne, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and
who executed this instrumented, which is our Final
Award.
/s/ Joseph Byrne
Joseph Byrne, Arbitrator
State of Texas
County of Dallas

)
)
)

On this 21st day of December, 2015, before me
personally came and appeared Joseph Byrne, known
to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
MICHAEL J. ALEMAN
Notary Public
State of Texas
My Comm. Exp. 03-07-16

/s/ Michael J. Aleman
Notary Public within
and for the State of Texas
My Commission
Expires:3/7/16

The following arbitrators dissent to this Final
Award:
-

Hon. Glen Ashworth

-

Hon. Jeff Kaplan

-

Hon. Mark Whittington

